<html>
<title> - CHU NOMINATION</title>
<body><pre>[Senate Hearing 111-3]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 111-3
 
                             CHU NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

              CONSIDER THE NOMINATION OF STEVEN CHU TO BE 
                          SECRETARY OF ENERGY

                               __________

                            JANUARY 13, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                   U.S. GOVERNMENT PRINTING OFFICE
47-253 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Boxer, Hon. Barbara, U.S. Senator From California................     4
Chu, Steven, Secretary of Energy-Designate.......................     6
Devers, Chris, Chairman, Council of Energy Resource Tribes.......    39
Feinstein, Hon. Dianne, U.S. Senator From California.............     3
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2

                                APPENDIX

Responses to additional questions................................    41


                             CHU NOMINATION

                              ----------                              


                       TUESDAY, JANUARY 13, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started?
    The committee meets this morning to consider the nomination 
of Dr. Steven Chu to be the Secretary of Energy.
    President-elect Obama will not officially nominate Dr. Chu 
until the new President is sworn in himself this next Tuesday. 
It is customary, however, for the Senate to confirm 
noncontroversial cabinet nominations at the beginning of a new 
Administration by unanimous consent without first referring 
them to committee. It is customary to do so immediately 
following the inaugural ceremony. We have extended this 
courtesy to 7 of President Bush's nominees 8 years ago and to 
some of President Clinton's nominees 16 years ago.
    In keeping with the past practices here in the committee, I 
have scheduled today's hearing on Dr. Chu's nomination and 
scheduled another hearing on Thursday on Senator Salazar's 
nomination in order to give members an opportunity to ask 
questions of the nominees and consider the nominations prior to 
the inauguration.
    Unless there is serious opposition to one or both of the 
nominees--and I am certainly not aware of any--it is my hope 
that the committee might also be able to take a vote on the 
nominations later this week as well.
    Dr. Chu's nomination comes at a pivotal time in the 
Department's history. The Department faces the daunting 
challenges of reducing our dependence on foreign oil and fossil 
fuels, developing new sources of clean energy, finding ways to 
capture and store carbon emissions, modernizing our electric 
grid and developing more efficient energy technologies. At the 
same time, the Department must fulfill its traditional mission 
of maintaining our nuclear deterrence, cleaning up the 
environmental legacy of the cold war, and advancing the 
frontiers of scientific discovery and technological innovation.
    We are very fortunate to have a nominee of Dr. Chu's high 
caliber to take on these responsibilities. He will bring to the 
job the keen scientific mind of a physicist and Nobel laureate, 
the experience and understanding of the Department of Energy of 
a National Laboratory Director, and the insight and vision 
needed to forge an energy policy for the 21st century.
    President-elect Obama has made an excellent choice in 
nominating Dr. Chu to be the Secretary of Energy. I strongly 
support his nomination, as I have said. I hope the committee 
will approve this nomination later this week and that the full 
Senate will confirm him for this position next Tuesday.
    Let me call on Senator Murkowski to make any statement she 
would like to at this point.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Chu, welcome. Good morning and thank you for your 
willingness to serve in this capacity this morning.
    I would just like to note, as we begin, that when we think 
about the role that the Department of Energy plays and their 
mission to advance the Nation's energy security, whether it is 
promoting scientific and technological innovation, ensuring the 
environmental clean-up of the national nuclear weapons complex, 
the tasks that are before the Department of Energy are clearly 
not easy tasks.
    The astronomer, Carl Sagan, once observed that we live in a 
society exquisitely dependent on science and technology in 
which hardly anyone knows anything about science and 
technology.
    Now, that may be true of some people. It certainly is not 
the case with you, Dr. Chu, a Nobel Prize-winning physicist. I 
think it is probably fair to say that you are uniquely 
positioned in your ability to bring with you your background in 
the science and the technology. As the Director of the 
Department of Energy's Lawrence Berkeley National Laboratory, 
Dr. Chu brings a distinguished record of scientific achievement 
to the position of Energy Secretary.
    Dr. Chu, I know that you are keenly aware of the magnitude 
of the position for which you are being considered. I commend 
you for agreeing to undertake the challenge. I appreciate the 
opportunity that we had to discuss a few of the issues that you 
will be facing when we met last week, and I look forward to 
your comments this morning as you elaborate even further.
    The Senators that join this committee do so because of the 
importance of these issues to their constituents, as well as to 
the Nation as a whole. I encourage you to be mindful of our 
intense interest in the decisions that you will be making. I 
look for your commitment, if confirmed, which I fully expect 
will happen here, to work closely with each of us as you 
consider and develop the Department's energy policies.
    Again, I thank you for your willingness to serve the 
President-elect and our country, and I do look forward to your 
comments this morning. Thank you.
    The Chairman. Thank you, Senator Murkowski.
    I note one of our colleagues is here. Obviously, Dr. Chu is 
a constituent of Senator Feinstein, and I believe she is here 
to make a short statement to the committee, and we welcome her. 
Go right ahead.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, 
Senator Murkowski, members of the committee. Not only is Dr. 
Chu a constituent, but in the interest of full disclosure, both 
he and his wife Jean are friends. So this is very easy for me, 
and I am delighted to be able to introduce him to you at this 
time.
    Simply stated, in my opinion, there is no one brighter or 
better equipped than this man to become Secretary of Energy. 
Dr. Chu is persistent, persuasive, and passionate about 
science. I think you will find that his determination is 
infectious. He also has the power to inspire action and produce 
change. He is certain to marshal the enthusiasm and the 
leadership of the Department when he takes the helm at the 
Energy Department.
    Dr. Chu received a Ph.D. in physics from the University of 
California at Berkeley. He spent the bulk of his academic 
career at Stanford University and the University of California 
where he heads the pioneering Lawrence Berkeley Lab. At both 
schools, Dr. Chu is considered one of the great, brilliant 
thinkers of his generation, and his contributions to the field 
of science are internationally renowned. As Senator Murkowski 
stated, in 1997 his research was recognized with the Nobel 
Prize in physics I believe for using a laser to be better able 
to gauge the size of atoms. He will correct me if that is 
inaccurate.
    In 2004, the Lawrence Berkeley National Lab recruited him 
to run the lab. His directorship has been nothing short of 
revolutionary. Dr. Chu has initiated and encouraged 
brainstorming sessions across scientific disciplines. He 
convinced great scientists from biotechnology, pharmaceuticals, 
and nanotechnology to switch specialties and work together to 
address our Nation's energy challenges.
    When Dr. Chu first arrived, the lab did not push the 
scientific envelope of renewable energy technology. Today that 
has all changed. Dr. Chu has called global warming and the need 
for carbon-neutral renewables ``the greatest challenge facing 
science'' and has rallied his team of scientists to address it.
    This collaboration has created cutting-edge ideas which he 
then fought to fund. He helped secure a $500 million BP, 
British Petroleum, grant for a biosciences institute and 
successfully established one of the Department of Energy's 
joint bioenergy institutes.
    His efforts have yielded great results. At the Bioenergy 
Research Center, our best scientists are working to crack the 
mystery behind how enzymes in termites turn wood into energy. 
Lawrence Berkeley researchers have developed a new battery 
technology that holds 10 times the amount of electricity of 
existing batteries, and the lab's scientists are exploring and 
might be able to bring to reality the idea of artificial 
photosynthesis.
    There is no doubt that we need a scientist of Dr. Chu's 
caliber at the Department of Energy.
    But let me just mention one other pressing issue Dr. Chu 
will face at the Energy Department and that is nuclear policy. 
The cold war is over, but there remain thousands of dangerous 
missiles in the world's arsenals, most maintained by the United 
States and Russia. Most are targeted at cities and are far more 
powerful than the bombs that destroyed Hiroshima and Nagasaki. 
Today the threat is even more complex as more nations pursue 
nuclear ambitions and the world becomes less secure.
    The Obama Administration, under Steve Chu's leadership at 
the Energy Department, has the opportunity to develop a new 
bipartisan policy that will determine the role nuclear weapons 
will play in our Nation's security strategy and the size of the 
future stockpile. By law, President-elect Obama must set forth 
his views on nuclear weapons and U.S. national security 
strategy in his Nuclear Posture Review by 2010.
    I hope that the Administration will move the United States 
closer to the dream of one of the predecessors, Ronald Reagan, 
who in his second inaugural declared: ``We seek the total 
elimination 1 day of nuclear weapons from the face of the 
earth.'' I think Dr. Chu, a physicist who understands nuclear 
technology far better than I, will bring a valuable perspective 
to our efforts to reduce the nuclear threat. So I look forward 
to working with him.
    It is just a delight to introduce him to you, Mr. Chairman. 
I know my colleague, Senator Boxer, is here. California is 
worse off for his loss and the Energy Department is much better 
off. So thank you very much.
    The Chairman. Thank you very much.
    Senator Boxer, did you have a statement for the committee?

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. I do. I would ask unanimous consent that the 
entire statement be included in the record.
    The Chairman. It will be included.
    Senator Boxer. I will make it shorter than the written 
statement.
    Senator Bingaman and Senator Murkowski, my friend and 
colleague, Senator Feinstein, and all my friends on this 
committee on both sides of the aisle, I am very proud and 
pleased to be here to introduce such an accomplished choice for 
Energy Secretary, Dr. Steven Chu.
    The reason I was late in getting here is I am sitting in 
Foreign Relations where Senator Clinton is about to speak. So 
forgive me if I jump up and run back, but we all have those 
conflicts today. It is an exciting day all over the Hill.
    Today's nomination hearing is one of the many steps our 
country will take as we move in a new direction to secure our 
Nation's energy independence and tackle the enormous challenges 
of global warming. I believe the United States must be a world 
leader in developing new renewable and alternative energy 
technologies to protect our environment, to protect the health 
of our people, but even more important, to be a leader in the 
world. We do need a leader at the Department of Energy with a 
vision for moving our economy and our environment forward in 
these difficult times, and I think President-elect Obama has 
found that leader in Dr. Chu.
    Thomas Friedman put it concisely in his most recent book, 
Hot, Flat and Crowded. I commend that book to all of you. He 
said--and I quote him--``the ability to develop clean power and 
energy efficient technologies is going to become the defining 
measure of a country's economic standing, environmental health, 
energy security, and national security over the next 50 
years.''
    The nominee before us today has made it clear he 
understands this. Dr. Chu is uniquely qualified to be Secretary 
of the Department of Energy with experience in the public, 
private, and academic sectors. A Nobel laureate physicist and a 
professor of physics and molecular and cell biology at UC-
Berkeley, Dr. Chu has been on the forefront of research and 
development, winning the Nobel Prize in 1997 for work on the 
development of methods to cool and trap atoms with laser light.
    Dr. Chu has served as Director of the Lawrence Berkeley 
National Lab since 2004, giving him direct knowledge and 
insight into the valuable work carried out at our national labs 
and work that this committee oversees. Dr. Chu developed 
innovative projects such as Helios, Lawrence Berkeley National 
Lab's solar initiative to create transportation fuels from 
water and carbon dioxide.
    Dr. Chu earned undergraduate degrees in mathematics and 
physics from the University of Rochester, a Ph.D. in physics 
from the University of California at Berkeley, a postdoctoral 
fellow at UC-Berkeley before joining AT&T's Bell Labs. He has 
been awarded 10 honorary degrees, published 220 scientific 
papers, been awarded numerous awards, including the American 
Physical Society's Arthur Chalow Prize for laser science and a 
Guggenheim fellowship. He has served on numerous boards, 
including the Hewlett Foundation, the Executive Committee of 
the National Academy's Board on Physics and Astronomy. Dr. Chu 
has also served as an advisor to the directors of the National 
Institutes of Health and the National Nuclear Security 
Administration.
    Mr. Chairman, I think all of us who have worked here for a 
long time have heard it so often stated that science must lead 
us. Science is the key. We have our man in Dr. Chu. When we 
demand good science, up-to-date science, we can trust that he 
knows it. I am so proud to be here with my colleague, Senator 
Feinstein, to introduce an extraordinary nominee from my home 
State of California, and I so look forward to supporting his 
confirmation before the full Senate.
    Thank you, Mr. Chairman, and Ranking Member Murkowski, and 
thank you all.
    The Chairman. Thank you for your statement. I thank both of 
you. I know that you do have other hearings you need to go to, 
and please feel free to excuse yourselves as appropriate.
    The rules of the committee, which apply to all nominees, 
require that nominees be sworn in connection with their 
testimony. Dr. Chu, I would ask that you stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Mr. Chu. I do.
    The Chairman. You may be seated.
    Before you begin your statement, I will ask three questions 
that we address to each nominee before this committee. The 
first is this. Will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Chu. I will.
    The Chairman. The second question is, are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Mr. Chu. All of my personal assets have been reviewed by 
myself and the appropriate counselors with regard to conflicts 
of interest, and I have taken appropriate action to avoid any 
conflicts.
    The Chairman. Thank you.
    The third question is, are you involved or do you have any 
assets that are held in a blind trust?
    Mr. Chu. No.
    The Chairman. At this point, it is customary for us to 
invite the nominee to introduce any family members who are 
present. If you would like to do that, please go right ahead.
    Mr. Chu. Thank you. Mr. Chairman, I would like to introduce 
two family members with me today. Joining me is my wife, Jean 
Chu, wherever she is, to whom I owe so much. She has been my 
steadfast partner, a highly valued counselor, and a great 
source of strength. Also joining us is my brother, Morgan Chu, 
who has traveled from Los Angeles for this event.
    The Chairman. We welcome both of them.
    At this point, why do you not go ahead and make your 
opening statement, Dr. Chu, and then we will undoubtedly have 
questions.

             TESTIMONY OF STEVEN CHU, SECRETARY OF 
                        ENERGY-DESIGNATE

    Mr. Chu. Thank you, Mr. Chairman.
    Chairman Bingaman, Ranking Member Murkowski, members of the 
committee, thank you for the opportunity to appear before you 
today. I would also like to thank Senator Feinstein and Senator 
Boxer for that gracious introduction.
    I am deeply honored that President-elect Obama has selected 
me to serve as his Energy Secretary and I thank him for his 
support and confidence.
    Mr. Chairman, this committee knows well the challenges we 
face. Climate change is a growing and pressing problem. It is 
now clear that if we continue on our current path, we run the 
risk of dramatic, disruptive changes to our climate in the 
lifetimes of our children and our grandchildren. At the same 
time, we face immediate threats to our economy and our national 
security that stem from our dependence on oil. Last year's 
rapid rise in oil and gasoline prices not only contributed to 
the recession we are now experiencing, but it also put a huge 
strain on the budgets of families all across America. Although 
prices are now lower, we know that the economy remains 
vulnerable to future price swings. We must make a greater, more 
committed path toward energy security through a comprehensive 
energy plan.
    President-elect Obama recognizes that we must take 
sustained action to meet these challenges and he has put 
forward a comprehensive long-term plan to do so. It is an 
aggressive plan, but one which I believe is achievable. I would 
not have accepted the President-elect's nomination if I had not 
thought it was essential that we move ahead on this plan. In 
many ways, President Obama's plan builds on the good work of 
this committee in recent years. Elements of this plan include a 
greater commitment to wind, solar, geothermal, and other 
renewable energy sources; aggressive efforts to increase energy 
efficiency of our appliances and buildings; more efficient cars 
and trucks and a push to develop plug-in hybrids; greater 
investment in technology to capture and store carbon emissions 
from coal-fired power plants; a continued commitment to nuclear 
power and a long-term plan for waste disposal; responsible 
development of domestic oil and natural gas; increased 
commitment to research and development of new energy 
technologies; a smarter, more robust transmission and 
distribution system; and a cap and trade system to reduce our 
greenhouse gas emissions.
    Taken together, these elements of President-elect Obama's 
plan will put us on a course to a better energy and 
environmental future, create new jobs and industries, restore 
U.S. energy technology leadership, and help form the foundation 
of our future economic prosperity. It will be my primary goal 
as Secretary to make the Department of Energy the leader in 
these critical efforts.
    In pursuing this goal, I will use my experience as Director 
of Lawrence Berkeley National Laboratory. As head of this 
4,000-person organization for the last 4 and a half years, I 
have worked to focus the lab on our energy problems. In 
particular, we have challenged some of the best scientists at 
the Berkeley Lab to turn their attention to the energy and 
climate change problem and to bridge the gap between the 
science that the Office of Science supports so well and the 
applied research that leads to energy innovation. We have also 
worked to partner with academia and industry. These efforts are 
working and I want to extend this approach throughout the DOE's 
network of national laboratories where 30,000 scientists and 
engineers are at work performing cutting-edge research.
    At the same time, I recognize the Department of Energy's 
mission is extremely broad and has many additional priorities 
that will command my attention.
    The work of the National Nuclear Security Administration in 
maintaining our Nation's nuclear defense and promoting 
nonproliferation throughout the world is critical for our 
national security. I take this responsibility extremely 
seriously, and I am committed to work with the President, the 
national laboratories, other agencies, Congress, and other 
organizations in the community to assure a safe and reliable 
nuclear stockpile and to address proliferation concerns as part 
of a long-term vision of a world without nuclear weapons.
    The Department also has legal and moral obligations to 
clean up the waste left from over 50 years of nuclear weapons 
production. I know that many of you represent States where the 
Department has not yet fulfilled these obligations. Cleanup of 
these materials is a complicated, expensive, and a long-term 
process, but I pledge to you I will do my best to accelerate 
these efforts in order to protect human health and the 
environment and to return contaminated lands to beneficial use.
    I also pledge to continue the important work of the 
Department in many other areas, including the Power Marketing 
Administration's delivery of affordable energy, the 
modernization of the electricity grid, and the assembly of 
reliable energy data by the Energy Information Administration.
    Finally, I am a proud member of the committee that produced 
the report, Rising Above the Gathering Storm, commissioned by 
Chairman Bingaman and Senator Alexander. The overarching 
message of that report is simple: the key to America's 
prosperity in the 21st century lies in our ability to develop 
our Nation's intellectual capital, particularly in science and 
technology. As the largest supporter of the physical sciences 
in America, the Department of Energy plays an essential role in 
the training, development, and employment of our current and 
future core of scientists and engineers. If confirmed, I pledge 
to nurture this incredible asset that is so essential for our 
economic prosperity.
    As diverse as these missions and programs are, my efforts 
as Secretary will be unified by a common goal: improving 
management and program implementation. Simply put, if the 
Department is to meet the challenges ahead, it will have to run 
more efficiently and effectively. One of my first priorities 
will be to put together a strong leadership and management 
team, one that shares not only my vision for the Department, 
but also my commitment to improving the way the Department does 
business.
    I do not underestimate the difficulty of meeting these 
challenges. But I remain optimistic that we can meet them. I 
believe in the vitality of our country and our economy, and as 
a scientist, I am ever-optimistic about our ability to expand 
the boundaries of what is possible.
    If I am confirmed as Secretary of Energy, I commit to you 
that I will provide strong, focused, energetic leadership. In 
particular, I look forward to a close partnership with this 
committee. In my role as Secretary, I look forward to a new 
chapter of collaboration with this committee and with others in 
Congress as we embark upon an ambitious mission to address our 
Nation's goals toward a sustainable, economically prosperous, 
and secure energy future. The challenges we face will require 
bipartisan cooperation and sustained effort. I know that 
President-elect Obama is committed to exactly this kind of 
effort. If confirmed as Secretary, I will do my utmost to serve 
him and our great Nation to the best of my abilities.
    Thank you, and I would be happy to take any questions you 
may have.
    [The prepared statement of Mr. Chu follows:]
    Prepared Statement of Steven Chu, Secretary of Energy-Designate
    Chairman Bingaman, Ranking Member Murkowski and members of the 
Committee, thank you for the opportunity to appear before you today. I 
am deeply honored that President-elect Obama has asked me to serve as 
his Secretary of Energy and I thank him for his support and confidence.
    Mr. Chairman, this committee knows well the challenges that we 
face. Climate change is a growing and pressing problem. It is now clear 
that if we continue on our current path, we run the risk of dramatic, 
disruptive changes to our climate system in the lifetimes of our 
children and grandchildren. At the same time, we face immediate threats 
to our economy and our national security that stem from our dependence 
on oil. Last year's rapid spike in oil and gasoline prices not only 
contributed to the recession we are now experiencing, it also put a 
huge strain on the budgets of families all across America. Although 
prices are now lower, providing some relief to American consumers, we 
know that our economy remains vulnerable to future price swings. We 
must make a greater, more committed push towards energy independence 
and with it a more secure energy system.
    President-elect Obama recognizes that we must take sustained action 
to meet these challenges, and he has put forward a comprehensive, long-
term plan to do so. It's an aggressive plan, but one that I believe is 
achievable. I would not have accepted the President-elect's nomination 
if I had not thought that it was essential to move ahead on this plan. 
In many ways, President Obama's plan builds on the good work of this 
committee in recent years: a greater commitment to wind, solar, 
geothermal, and other renewable energy sources; aggressive efforts to 
increase energy efficiency of our appliances and buildings; more fuel 
efficient cars and trucks, and a push to develop plug-in hybrids; 
greater investment in technology to capture and store carbon emissions 
from coal-fired power plants; a continued commitment to nuclear power 
and a long-term plan for waste management and disposal; responsible 
development of domestic oil and natural gas; increased commitment to 
research and development of new energy technologies; a smarter, more 
robust transmission and distribution system; and a cap-and-trade system 
to reduce our greenhouse gas emissions.
    Taken together, these elements of President-elect Obama's plan will 
put us on a course to a better energy and environmental future, create 
new jobs and industries, restore U.S. energy technology leadership, and 
help form the foundation for future economic prosperity. It will be my 
primary goal as Secretary to make the Department of Energy a leader in 
these critical efforts.
    In pursuing this goal, I will be building on my work as the 
Director of the Lawrence Berkeley National Lab. As Director of this 
4,000-person organization for the last four years, I have worked to 
focus the lab on our energy problems. In particular, I have challenged 
some of the best scientists at the Berkeley lab to turn their attention 
to the energy and climate change problem and to bridge the gap between 
the mission-oriented science that the Office of Science does so well 
and the applied research the leads to energy innovation. I have also 
worked to partner with academia and industry. I know that these efforts 
are working, and I want to extend this approach to an even greater 
extent throughout the Department's network of National Laboratories 
where 30,000 scientists and engineers are at work performing cutting-
edge research.
    At the same time, I recognize that the Department of Energy's 
mission is extremely broad. For that reasons, many additional 
priorities will command my attention and focus.
    The work of the National Nuclear Security Administration in 
maintaining our Nation's nuclear defense and promoting nonproliferation 
throughout the world is critical to our national security. I take this 
responsibility extremely seriously, and I am committed to working with 
the President, the National Laboratories, other agencies, Congress and 
other organizations in the community to assure a safe and reliable 
nuclear stockpile and to address proliferation concerns as part of a 
long-run vision of a world without nuclear weapons.
    The Department also has legal and moral obligations to clean up the 
wastes left over from 50 years of nuclear weapons production. I know 
that many of you represent states where the Department has not yet 
fulfilled these obligations. Cleanup of these materials is a 
complicated, expensive, long-term project, but I pledge to you to do my 
best to accelerate these efforts in order to protect human health and 
the environment, and to return contaminated lands to beneficial use.
    I also pledge to continue the important work of the Department in 
many other areas--the Power Marketing Administrations delivering 
affordable energy, programs to modernize the electricity grid, the 
Energy Information Administration's energy market data, and many 
others.
    Finally, I was proud to be a member of the committee that produced 
the report ``Rising Above the Gathering Storm,'' commissioned by 
Chairman Bingaman and Senator Alexander. The over-arching message of 
that report is simple: the key to America's prosperity in the 21st 
century lies in our ability to nurture and grow our nation's 
intellectual capital, particularly in science and technology. As the 
largest supporter of the physical sciences in the U.S., the Department 
of Energy plays an essential role in the training, development and 
employment of our current and future corps of scientists and engineers.
    As diverse as these missions and programs are, my efforts as 
Secretary will be unified by a common goal: improving management and 
program implementation. Simply put, if the Department is to meet the 
challenges ahead, it will have to run more efficiently and effectively. 
One of my first priorities will be to put a strong leadership and 
management team in place--one that shares not only my vision for the 
Department, but also my commitment to improving the way the Department 
does business.
    I do not underestimate the difficulty of meeting these challenges. 
But I remain optimistic that we can meet them. I believe in the 
dynamism of our country and our economy. And as a scientist, I am ever-
optimistic about our ability to expand the boundaries of what is 
possible.
    If I am confirmed as Secretary of Energy I commit to you that I 
will provide strong, focused, energetic leadership for the many 
missions of this Department. In particular, I look forward to a close 
partnership with this Committee. In my role as Secretary, I look 
forward to a new chapter of collaboration with this committee and 
others in Congress as we embark on an ambitious, and urgent, mission to 
move to a sustainable, economically prosperous, and secure energy 
future. The challenges we face will require bipartisan cooperation and 
sustained effort. I know that President-elect Obama is committed to 
exactly this kind of effort. If confirmed as Secretary, I will do my 
utmost to serve him and our great nation to the best of my abilities.
    Thank you and I would be happy to take any questions that you may 
have.

    The Chairman. Thank you for your statement. Let me start 
with a couple of questions, and I am sure other members will 
also have questions.
    One of the issues, of course, that we are focused on is the 
development of this massive economic recovery bill, or stimulus 
bill, or whatever the phrase is you want to apply to it. The 
expectation that I think all of us have is that it will contain 
literally tens of billions of dollars for energy infrastructure 
development, for efficiency improvements, for weatherization, 
for research and development, for demonstration programs aimed 
at stimulating the economy but also solving our long-term 
energy problems.
    There has been a lot of frustration here in our committee 
and more generally I think about the length of time it has 
taken to implement some of what we have previously enacted. I 
am particularly thinking about title 17 of the 2005 energy bill 
which called for establishment of a loan guarantee program. We 
still have no loan guarantees that have been made under that.
    I guess my question to you is whether you are confident 
that the Department will be able to implement all of the new 
responsibilities that are contemplated in this economic 
recovery bill for the Department and do so in a rapid and 
responsible way.
    Mr. Chu. Senator, thank you for the question. I share your 
concerns. As I said in my opening remarks, during my tenure as 
Director of the Lawrence Berkeley National Lab, although most 
people view me as a scientist, I spent probably three-quarters 
of my time paying attention to the operations side of the 
house. Economic stimulus really means that one has to move 
quite fast. It is very important that I and the management team 
that I hope to assemble can actually move very rapidly in this 
direction.
    The Chairman. We wish you well in that regard.
    Let me also ask you about the new organizational charts 
that we read about being established in the executive branch. 
There was a period, as you are well aware, when there was very 
little interest in the general public and perhaps in Government 
as well on the whole subject of energy, and I am sure during 
those periods there was very little desire on the part of 
others in the Government to weigh in on energy-related issues. 
Now my impression is that just the opposite is the case, and 
there is a great deal of interest on all sides. That is good.
    I know the President-elect has established or indicated his 
desire to establish a White House coordinator for energy 
policy, that some refer to as a czar. I wanted to know your 
take on how does this affect your role and how do you see your 
role in the issue of climate change, which you referred to, as 
it relates to others in the Administration. Will you be able to 
be a strong voice and policymaker on that issue as well as 
energy issues as you see it?
    Mr. Chu. Senator, again you raise an important issue. I 
think the President-elect, choosing to start this office of 
energy and climate change as a coordinating body it speaks to 
the importance he views this area. Just as the country has a 
Council on Economic Policy, a Council on Nuclear Policy, this 
is one move that shows the country's energy and climate change 
future is a very important issue.
    So I am looking forward very much to working very closely 
with Ms. Browner on this issue. She has a difficult task ahead 
of her in trying to coordinate people not only in the 
Department of Energy but many other stakeholders such as the 
Department of the Interior, EPA, the Treasury, and so on. I am 
very hopeful and looking forward to working with her. I have so 
far had very positive encounters, and I think it will be a 
collaborative and closely cooperative relationship.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Chu, thank you for your comments this morning. I 
particularly appreciate the words about the importance of 
education and making sure that we are growing our scientists 
and those that will enable us to move this technology forward.
    I also think that within the Department of Energy, one of 
the challenges that we face is how we educate the rest of the 
country on what it is that we need to be doing, educating them 
more on how as individuals and as families they can make a 
difference with conservation and efficiency within their own 
home. So the education piece is important, and I hope you 
appreciate that that is a big challenge within the Department 
itself.
    I want to ask you specifically on a couple of issues. First 
is domestic oil and gas production. Last year in July, the 
President removed the Presidential moratorium that had 
prevented development on the Outer Continental Shelf, and then 
Congress let a similar ban expire at the end of the year. I 
know that your comments say that we must focus on conservation. 
I agree. I agree that we also need to be moving forward with 
renewable energy sources, but I also feel very strongly that we 
have to enhance our domestic oil and gas production.
    Will you join us in opposing reinstatement of either ban 
and encouraging greater production of our domestic resources 
both onshore and offshore?
    Mr. Chu. The President-elect has said that looking at oil 
production and gas production both onshore and offshore as part 
of a comprehensive energy policy is something that he supports, 
and I also support that.
    But I should also say, Senator, as you well know, that the 
reserves of the United States are perhaps 3 percent of the 
world's reserves. I know the numbers from 2005. Something like 
5 percent of the world's production of oil comes from the 
United States. So while it is important to fold into this the 
continued development of our oil and gas resources, one also 
should recognize those numbers. As you and I both agree, the 
more efficient use of energy in the United States is the one 
big factor that can most help us decrease our dependency on 
foreign oil.
    Senator Murkowski. We certainly agree on that, but I think 
we also both agree, as you have said--that energy security 
should be our key issue here. I just came also from the Foreign 
Relations confirmation hearing of Secretary Clinton where, 
again, even upstairs in Foreign Relations, the focus is on 
energy security and how that melds with national security.
    Let me ask you about nuclear energy. You have indicated in 
your statements and in our conversations that you support 
continued nuclear development. I think we recognize, as we want 
to move toward a world where we have greatly reduced our 
emissions, that nuclear is a very key component in our energy 
package there.
    The Nuclear Waste Policy Act requires that in exchange for 
a $1 million per kilowatt hour fee on nuclear power, the DOE 
has an unconditional obligation to take and dispose of that 
nuclear waste. That was beginning back in 1998. Obviously, they 
are about 10 years late. The projected taxpayer liability for 
DOE's failure is $11 billion at this point and growing.
    With regard to Yucca Mountain, I understand that the 
President-elect Obama has said he opposes its opening. If 
confirmed, what do you propose to do in the short term to meet 
the Government's obligation as it relates to the nuclear waste 
issue? Also, if you could speak just a little bit about the 
option of nuclear fuel recycling.
    Mr. Chu. Thank you, Senator. I think these are very thorny 
questions, as you know. The President-elect has stated his 
position very clearly. On the other hand, the Department of 
Energy has an obligation, a legal obligation, to safely provide 
a plan that allows the safe disposal of this nuclear waste. 
Indeed, I am supportive of the fact that the nuclear industry 
should have to be part of our energy mix in this century. So in 
going forward with that, we do need a plan on how to dispose of 
that waste safely over a long period of time.
    There is a lot of new science that is coming to the fore, 
and I pledge as Secretary of Energy that I would work with the 
members of this committee to try to use the best possible 
scientific analysis to try to figure out a way that we can go 
forward on the nuclear waste disposal. So it will occupy 
certainly a significant part of my time and energy.
    Senator Murkowski. Can recycling be a part of that 
solution?
    Mr. Chu. Yes. Again, in the long term, recycling can be a 
part of that solution. Right now, even though France has been 
recycling and Japan is starting to recycle; and Great Britain 
is now beginning to look at this, I think from my limited 
knowledge about that, that the processes we have are not ideal.
    There is an urge to increase the proliferation resistance 
of recycling. This dates back to the days of the Carter 
Administration where he said the United States will go to once 
through recycling in order to decrease the chance of nuclear 
proliferation. Now we are in a different place in time. There 
are other countries doing recycling. So the idea here now is to 
do it in a way that makes it more proliferation-resistant and 
there is an economic feasibility issue.
    This is in my mind actually a research problem at the 
moment and something that the Department should be paying a lot 
of attention to. I think there is time to look at it and 
develop a means, but certainly recycling is an option that we 
will be looking at very closely.
    Senator Murkowski. Mr. Chairman, my time has expired.
    The Chairman. Senator Johnson.
    Senator Johnson. Welcome, Dr. Chu. As you know, the 
Lawrence Berkeley National Laboratory is named after a South 
Dakotan, Ernest Orlando Lawrence. He was not only a South 
Dakotan, but he was an undergraduate at the University of South 
Dakota. That is as an aside.
    What do you believe are the most important policies in 
accelerating the construction of high voltage electrical 
transmission lines and for connecting new renewable energy 
projects to the grid?
    Mr. Chu. Senator, you hit upon a very crucial element in 
our development of renewable resources because, as you know and 
many Senators in this room know, some of the greatest renewable 
energy resources lie in areas like the Dakotas; and great solar 
resources in the southwest of the United States which are far 
from population centers and the energy has to be transported to 
where there are more people. So the challenges are how do we 
construct these very expensive lines across State boundaries, 
sometimes through States that have not much to gain, quite 
frankly, from them to population centers that would benefit 
from these renewable energies.
    So one really has to look perhaps at a new way of doing 
business. My understanding is currently the area that pays the 
brunt of this cost, if not exclusively the cost of these 
transmission lines, is the point of origin of power generation. 
I think we might have to relook at that and see what else can 
be done. The development of renewable energy in the United 
States is a national concern, and so we have to really think 
nationally about that.
    So to answer specifically your question, there are two 
obstacles. The siting is one, and it is a complicated 
interaction between the Federal Government, State and local 
authorities, and the people whose back yards these transmission 
lines go through. So this is something that is critically 
important to how do you site these in a way that takes into 
consideration the local feelings but yet also recognizes the 
national need. So this is by far and away the biggest obstacle. 
Mostly we have the technologies, and it is really siting that I 
see as the biggest obstacle.
    Senator Johnson. If the United States is going to produce 
36 billion gallons of biofuel by 2022, what policies do you 
think need to be in place to make sure we get there? Would 
these policies include moving toward a higher level of blends 
of ethanol such as E-15 or E-20?
    Mr. Chu. In answer to your question, Senator, this is 
partly a technical question as to whether this can be done, 
without major redesign, automobile manufacturers' engines. My 
understanding is when you go up to E-10, 10 percent ethanol, 
this is all right. You can replace the fuel lines to make them 
resistant to this ethanol blend. You can go to E-85, which is 
85 percent ethanol, and that works. I frankly do not know, and 
this is one of the things we have to look at, in conjunction 
with the automobile industry, as to whether one can safely go 
to E-15, E-20, and higher. But this is something again that is 
on the table.
    Senator Johnson. Dr. Chu, I know you are aware of plans for 
a large scientific project being developed in the State of 
South Dakota known as the deep underground and engineering 
laboratory. Operation of this facility would ultimately require 
a great deal of collaboration between NSF and DOE, which you 
seek to lead.
    Could you comment on the prospects for this kind of 
interagency scientific collaboration both with respect to this 
particular project and, more importantly, with respect to 
pursuit of DOE's overall mission?
    Mr. Chu. Thank you for that question, Senator. You may or 
may not know I actually visited the DUSEL underground 
laboratory. I met with the Governor, and it is a very exciting 
project. As you said, it is headed by the National Science 
Foundation, but a member of the Berkeley Lab and an adjunct 
faculty member at UC-Berkeley is actually managing that 
project.
    Now, going forward--and this has to do with conflict of 
interest--I am going to have to remove myself personally from 
any decisions with respect to that project because the Lawrence 
Berkeley National Laboratory is deeply involved with that.
    But with regard to the cooperation of the Department of 
Energy, I think this is very important. My understanding is 
this is heavily, squarely in the sights of the Department of 
Energy in terms of what they plan to do with their high energy 
physics accelerator in Illinois, the Ferme Lab, to send a beam 
of neutrinos to the underground laboratory at DUSEL. So the 
cooperation between the NSF and the DOE is essential, and I am 
optimistic that that will not be a problem, but we'll see.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Burr.
    Senator Burr. Dr. Chu, welcome. Thank you for the time you 
and I have spent together. I agree with the chairman. I hope we 
can expeditiously take care of your nomination out of this 
committee and on the Senate floor.
    Let me follow up on Senator Johnson's question as it 
related to transmission. Do you support allowing FERC to have 
expanded authority as it relates to transmission?
    Mr. Chu. That is a very pointed question, Senator. Let us 
just say that I know the bottlenecks, and there has been a lot 
of frustration. What little I know about this is that the 
Department of Energy has authority to designate critical 
corridors and FERC to actually enforce that as essentially a 
right-of-way. There are two designated corridors, one in the 
New Jersey area and one in California-Arizona, and we're now 
mired in what I believe are lawsuits.
    So it is a difficult question because what you really want 
to do is to make these things happen as quickly as possible. So 
it has to be a negotiation, quite frankly, in my opinion. If 
one just expands the authority and gives it more power, my 
feeling is the States and the local people in those States 
might react. So one wants to try a gentler approach, but in the 
end I think, again, it is in the national interest to develop a 
national grid system that can port energy, especially renewable 
energy, across the country.
    Senator Burr. I think we both share the common goal as to 
where we need to get to, and I look forward to working with you 
on how we accomplish that national grid that is sufficient for 
the future.
    In 2005, we passed EPAct, and that Energy Policy Act 
incorporated a loan guarantee program for companies willing to 
step out and build new nuclear generation. It was authorized at 
$18.5 billion, not sufficient for the future, but a good start.
    Just recently Progress Energy in North Carolina announced 
two new plants in Florida that they would construct, and they 
made the statement that they think that they will seek to do 
these without DOE loan guarantees because they had run into too 
many hurdles with the program. One, it has been slow to get up 
and running and structurally in place. Now, all of a sudden, we 
are hearing companies that talk about it is problematic to go 
that route. We are on a time line that from a reliability 
standpoint, we have to start construction and we have to do it 
soon.
    Do you support the loan guarantee program, No. 1?
    Mr. Chu. Senator, yes, I do.
    Senator Burr. If confirmed, do you commit to expanding the 
authorization levels?
    Mr. Chu. I think that is a matter for Congress.
    Senator Burr. Seeking to expand.
    Mr. Chu. I think it is something that is very important, as 
I said before, the development of nuclear power. But the little 
I know of what these companies are doing, it is a mixture of 
the loan guarantee program and the local regulatory authorities 
that can allow the utility companies to fold whatever they want 
to do into the rate base.
    The point here is that nuclear power, as I said before, is 
going to be an important part of our energy mix. It is 20 
percent of our electricity generation today, but it is 70 
percent of the carbon-free portion of electricity today. It is 
baseload. So I think it is important that we push ahead.
    I share--what little I know again--your frustrations with 
the time it has taken, and I will do my best to, as I said 
before, put together a leadership and management team that can 
do it in a more timely manner.
    Senator Burr. Do I have your commitment that you will work 
to make this a more workable program?
    Mr. Chu. You absolutely do.
    Senator Burr. Thank you, Doctor.
    Last question. Do you feel that a formal international R&D 
effort should be pursued on items like battery technology, all-
electric platforms, waste reprocessing? Or should we pursue 
this as the United States of America, though there is a need 
globally for that technology?
    Mr. Chu. Let me answer that, Senator, by saying what we, 
the United States, and the world need to do is to get to the 
place where we want to go as rapidly as possible. In many of 
these instances, I do believe that international cooperation is 
the best way to get there. So the short answer is yes.
    Senator Burr. Thank you, Dr. Chu.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Chu, I am excited by your nomination, and I am pleased 
that you are here today.
    You and I have had an opportunity to visit several times, 
and I will be chairing the Energy and Water Appropriations 
Subcommittee, which funds your agency. I will have the 
opportunity to call you as a witness before my subcommittee, 
and we will talk at greater length about a wider range of 
issues.
    But I am interested in virtually everything that has been 
talked about here. I am interested in the drilling issues, 
renewables, energy efficiency, coal, transmission, and Yucca 
Mountain. There is a lot to talk about, and you see the wide 
interests of the Senate Energy Committee.
    I think this is an important time where urgent action needs 
to be taken on some energy issues. So I am pleased that you are 
a nominee, and I am happy to vote for you.
    I do want to say that while I am a strong supporter of 
renewables, wind, solar, biofuels, and many others, I believe 
very strongly in energy efficiency. We need to work hard on 
this. The efficiency issues are critically important. All of 
those are important.
    I want to talk to you today just for a few moments about 
fossil energy, especially coal. You and I have talked at some 
length about the issue of coal because 50 percent of all the 
electricity that we use in this country comes from coal. All of 
us understand we have to use coal differently in the future, 
but I think most of us understand we are going to change how we 
use coal in the future. I do not think anybody believes that 
beginning next month, next year, or the next decade we are 
going to decide we are not going to use our most abundant 
resource. The question is how do we use it. What kind of 
investment in technology and capability can we make that allows 
us to use coal in a way that does not injure this environment?
    So I have a couple of questions mixed together. No. 1, what 
is your notion about promoting and developing clean coal 
technologies? How strongly do you feel about that, about 
continuing to invest in carbon capture and sequestration 
research?
    As you give me your assessment of your interest in those 
issues, I want you for the committee, because you have done it 
for me--and I am perfectly well satisfied. A number of people 
have noted the statement you made that coal is your worst 
nightmare. I understand the context in which you made it. If we 
continue to use coal around the world and in this country and 
China and India with no controls, that is a scenario that I 
would describe as a nightmare as well. But we are not going to 
continue that way. So you said what you said and that has been 
ricocheting around the Internet. Please address that for the 
committee as well, as you talk about carbon capture and so on.
    Mr. Chu. Senator Dorgan, thank you for giving me the 
opportunity to expand on that quote that has been ricocheting 
around the Internet.
    I said that in the following context. If the world 
continues to use coal the way we are using it today--and by the 
world I mean in particular not only the United States but China 
and India and Russia--then it is a pretty bad dream. That is to 
say, in China, for example, they have not yet begun to even 
trap the sulfur dioxide and nitrous oxide. There is mercury. 
There is particulate matter, as well as carbon dioxide.
    But I also say many times in my talks that coal is an 
abundant resource in the world. Two-thirds of the known coal 
reserves in the world lie in only four countries, the United 
States first and foremost, followed by India, China, and 
Russia. India, China, Russia, and the United States I believe 
will not turn their back on coal. So it is imperative that we 
figure out a way to use coal as cleanly as possible.
    So for that reason I am optimistic we will develop those 
technologies to capture a large fraction of the carbon dioxide 
that is emitted in coal plants and safely sequester them. So if 
confirmed as Secretary of Energy, I will work very hard to 
extensively develop these technologies so that the United 
States and the rest of the world can use them.
    I also think there are some people in the United States who 
feel perhaps we should turn off coal, but even if we do it, 
China and India will not. So we are in a position to develop 
those technologies so that the world can capture the carbon. So 
I feel very strongly, as you know in my communications to you 
before the nomination, well before the nomination, that I feel 
very strongly that this is not only an opportunity, it is 
something the United States, with its great technical 
leadership, should rise to the occasion to develop.
    Senator Dorgan. I think that is helpful to the committee. 
The fact is I think most of us believe we have to do almost 
everything well. I mean, there is almost no source of energy 
that we should not be embracing and deciding through research, 
technology and additional capability that we can use it to 
enhance this country's energy future.
    One of my great concerns, I might just say in closing, is 
that the price of oil went to $147 in day trading like a Roman 
candle, shot way up, and now has come down. You go to the gas 
pump today, and the pain is gone for the moment. But that 
should not in any way diminish our appetite and the urgency to 
pursue the kinds of things on renewables, on conservation, and 
also as Senator Murkowski and others have said, more 
production. We need to produce more, conserve more and go to a 
different kind of energy future as well. As I indicated with 
coal and I think as you have indicated also we need to use coal 
in a different way. In order to do that, we need to put forward 
a substantial amount of money which President-elect Obama has 
pledged to do to give us the research capability to unlock 
these mysteries, and I believe we will. I am optimistic about 
it.
    Dr. Chu, thank you very much. I am excited with your 
nomination.
    Mr. Chu. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Dr. Chu, congratulations. Welcome. Thank you for having 
your family with you today. I appreciated the time that you 
spent with me in the office last week. It was very helpful.
    One of the things we talked about is this past summer when 
energy prices were up. There were significant consequences for 
American families, for the American consumer, and for American 
business. In these economic times, a number of the members of 
the Senate are reading a book called The Forgotten Man about 
the history of the Great Depression as we compare and look for 
solutions and we look at a stimulus package.
    In one of Franklin Roosevelt's last campaign speeches, when 
he was running for President, he talks about energy and he 
talked about suffering by the taxpayer. He says the taxpayers 
suffer when you pay $6 a month for electricity instead of $2. 
So he knew and they knew then that there are tradeoffs, and 
when costs go up and expenses are high, it impacts families all 
around this country.
    It is interesting on this committee because 32 years ago 
when Jimmy Carter came into the United States, we had had the 
long gasoline lines. When you look at the history of that, he 
charged a small group of energy planners, James Schlessinger, 
to produce a comprehensive energy plan in 90 days, and they had 
a number of different plans in there. They came with a package 
to the committee, and at that time, they wanted tax incentives 
for companies switching from oil and natural gas to coal. They 
also wanted tax penalties for those companies that did not 
switch to coal. So I am encouraged by the comments by Senator 
Dorgan on our need for all of the sources of energy.
    Concerns were raised with me when I read an article in one 
of the Wyoming papers that talked about President-elect Obama. 
He said America must develop new forms of energy, new ways of 
using it, to which I agree completely. He went on, however, to 
say that the dangers of being too heavily dependent on foreign 
oil are eclipsed--are eclipsed--only by the long-term threat of 
climate change which, unless we act, will lead to drought, 
famine, and so on, so that that is eclipsing the concerns we 
have for our national security, energy security as we look 
globally.
    You have responded to the questions from Senator Dorgan 
about coal. I have other questions along that line, if I may. 
One has to do with Vice President-elect Biden's comments where 
he said during the campaign, no coal plants here in America. I 
would like to have your comments on that concept and where we 
really do go from here in terms of carbon capture and 
sequestration. I know you met with members of the Illinois 
delegation the other day to talk about the project that they 
have been looking at in Illinois.
    Mr. Chu. So specifically let me just say that, as I said to 
Senator Dorgan, the coal resources in the United States are 
immense. I am very hopeful and optimistic that we can figure 
out a way to use those resources in a clean way. So I think, 
again, it is a question of science and technology and really 
putting the pedal to the floor on trying to develop as quickly 
as possible the capture and sequestration technologies. I am 
very hopeful that this will occur, and I think that we will be 
using that great natural resource.
    Senator Barrasso. That goes to the question of how dollars 
are allocated, how investment decisions are made, and with 
limited resources in our Nation, do we go ahead along those 
lines for carbon capture and sequestration knowing that coal 
right now is the most affordable, available, reliable, and 
secure source of energy? What would your advice be as you are 
trying to make careful spending decisions on what to invest in?
    Mr. Chu. It is one in which--my advice would be, No. 1--to 
take your question to a slightly different place, as we go 
forward and build more power plants, we have good experience in 
my own State, California, where the conservation of energy, 
energy efficiency, the offloading of energy at peak time to 
less demanding times is a great investment of intellectual 
thinking because what it does is enable power companies to 
build fewer power plants, whatever they might be, whether they 
are the coal plants, nuclear plants, whatever. That actually 
means directly that there is a lower rate to American families 
because it is a return on investment for those utility 
companies that invest in these plants.
    So the biggest thing we can do--and California has learned 
this very well--is that you can slow up the building of new 
power plants, and that is very important. As you slow up the 
building of new power plants, we in the Department of Energy, 
if I am confirmed, would be working very hard to bring up these 
technologies as quickly as possible. So I think it is very 
important that we do the best we can on energy efficiency. That 
in my mind really remains the lowest hanging fruit for the next 
decade or two.
    Senator Barrasso. Thank you, Mr. Chairman. My time has 
expired. If there is a second round, I would like to have some 
additional questions. Thank you, Mr. Chairman.
    The Chairman. All right.
    Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    Dr. Chu, thank you for being in the office the other day, 
and welcome.
    Dr. Chu, this morning we have talked a little bit about 
nuclear. We have talked about coal and other technologies, but 
we have not talked about solar. Last year Senator Bingaman was 
kind enough to host a hearing in Albuquerque, New Mexico on the 
potential of solar thermal plants. There are some experts who 
believe that the Southwest of this country is, in fact, the 
Saudi Arabia for solar energy and that we have the potential to 
produce 15 to 20 percent of our electricity from these solar 
plants.
    Right now on the drawing boards, there are probably a dozen 
different plants that are being talked about. Some are pretty 
far along. They are ready to go. But because of the current 
crisis in the flow of credit, many of those plants are not 
moving forward.
    My first question, therefore, is would you be willing, as 
Secretary, to sit down with the solar industry and myself to 
see the role that the Government can play in expediting the 
development of solar thermal plants.
    Mr. Chu. Senator Sanders, I definitely would be willing to 
do that. I share your enthusiasm. Ultimately going forward, 
solar energy is a great resource in the United States, and we 
need to learn to exploit that.
    Senator Sanders. You see potential in solar thermal plants 
in particular.
    Mr. Chu. I see great potential in solar thermal plants.
    Senator Sanders. Thank you.
    States like California and New Jersey have been very 
innovative through tax credits, through incentives in 
encouraging people to put photovoltaic units up on their 
rooftops. Can we learn something from those States in terms of 
Federal policy in creating an energy system in which people all 
over this country are encouraged to have solar panels on their 
roofs and businesses as well?
    Mr. Chu. It would be foolish for me to say that the rest of 
the United States cannot learn something from California, 
although the rest of the Senators might think differently. But 
in any case, I think there are a number of policies in 
California that have been proven to be very effective. Solar is 
one of them, the encouragement to put solar panels on rooftops.
    But let me go back. They have done wonders in promoting 
energy efficiency in California. In the last 35 years, the use 
of electricity per person in California has remained constant 
while the rest of the United States went up over 50 percent.
    Senator Sanders. Not in the State of Vermont. We have done 
a very good job in energy efficiency as well.
    Let me ask you this question. As you well know, the Federal 
Government is a major consumer of energy in the military, in 
all of our buildings, and all of our vehicles. It has seemed to 
many of us for a very long time that the Federal Government can 
play an extraordinary leadership role in moving toward energy 
efficiency and moving toward a variety of sustainable energies.
    Can you give us some idea of how buildings and Federal 
fleets and perhaps your work with the military--how at the end 
of the first Obama Administration our buildings and fleets will 
look differently than they are today?
    Mr. Chu. Senator, thank you for that opportunity. Let us 
start with buildings. Buildings consume 40 percent of the 
energy used in the United States today, roughly half and half 
between residential and commercial buildings.
    The Berkeley Lab has been talking and working with 
companies like United Technologies. We think that new 
commercial buildings can be built in a cost-effective way to 
actually reduce the use of energy in those buildings by 80 
percent and with an investment that would pay for itself in 10 
years. We are very gung ho on developing these ideas and to 
prove to the construction community that this is, in fact, not 
just fluff but it is real.
    Senator Sanders. Very good.
    My last question is a simple one. We have many wonderful 
national laboratories throughout the country. We do not have 
any in New England and we think we have a lot to offer. Is that 
something that we might be able to discuss as well?
    Mr. Chu. We can certainly discuss it. New England is one of 
the centers of the great universities in the United States.
    Senator Sanders. Absolutely. Also, given our climate up 
there, when we talk about energy efficiency and learning more 
about that and talking about sustainable energy, it would be a 
good idea to have some laboratory in a climate where the 
weather gets 20 below 0. Burlington, Vermont, for example.
    [Laughter.]
    Senator Sanders. Thank you very much, Doctor.
    The Chairman. Senator Sessions.
    Senator Sessions. Thank you, Chairman Bingaman, and thank 
you for your leadership.
    Mr. Chu, I would like the opportunity to visit with you as 
your confirmation goes forward. I have not had that 
opportunity. I hear good things about you. I think you are on a 
road to a successful confirmation. Good science, good 
management is important for America.
    For every cabinet agency, in particular, Energy, we have 
had some frustrations on, I think, both sides of the aisle 
about some of the programs. You have been asked about the loan 
program. That really needs to move forward. It is just very 
frustrating to see it be delayed as it is.
    There are so many things I would like to ask you, but let 
us talk about nuclear power. You have mentioned it as an 
option, as something that will be part of the mix. I guess my 
question to you is, if you accept the CO<INF>2</INF> as a 
global warming problem, is it not important that we accelerate 
this proven source of clean energy? Will you take a lead not 
just to talk about it, not just to opine about it, as we often 
do, but actually do the things necessary to see if we cannot 
restart a nuclear industry in America? Are you committed to 
that?
    Mr. Chu. Senator, yes, I am. I think, first, to get these 
first several projects going. In the meantime, we have to do 
the work necessary to see if recycling in proliferation-
resistant and economically viable ways is also feasible. I 
think those are two areas that are very important.
    Senator Sessions. Now, recycling is something that I have 
offered legislation on and I believe is important because not 
only does it dramatically reduce the quantity of waste, but it 
actually reduces dramatically its toxicity and its dangerous 
life cycle to 600 years I think from 100,000 years. Other 
nations are doing it.
    I was a bit troubled that you quoted Carter's decision. I 
think that was one of the more colossal disasters in the last 
30 years in energy.
    But certainly as you noted, France recycles. Japan is doing 
it. The Brits are talking about it. Russia, using basically the 
technology that we had.
    So are you committed to making a breakthrough here? You 
know, we can study this and study it and, the perfect being the 
enemy of the good, not get around to starting now to develop a 
recycling system that we know will work, waiting to have one 
that is much better. How would you analyze that?
    Mr. Chu. Again, I am not an expert in recycling 
technologies, but from the little I know, it is a technology 
that--in fact, I believe the technology that France is using, a 
modified version of that, was invented in the United States.
    But as I said before, it is not a perfect technology, and 
the Brits and the Japanese are also looking to improve this. So 
this is something, in terms of the question on international 
cooperation--I think, one, to go forward and try to develop 
something that we in the United States and the rest of the 
countries would be happy with is something very important.
    Senator Sessions. These delays tend to be a depressant on 
going forward with nuclear power in general, and so we, I 
think, need to make a decision pretty quickly about whether we 
would want to support current technology or wait on some new 
technology.
    Mr. Chu. Senator, so there are two questions. One is do we 
start by restarting the nuclear industry and building some 
reactors, so-called generation 3 and 3-plus reactors. Plans are 
underway, as mentioned, to start those.
    The recycling issue is something that we do not need a 
solution for today or even 10 years from today. I think we have 
to figure out a way to store that spent fuel safely, which is 
another critical issue in this, and then figure out a plan for 
long-term disposition.
    So having said all of that, it does not mean that you stop 
everything today. It is very much like coal. We will be 
building some coal plants, and one does not have a hard 
moratorium on something like that while we search for a way to 
capture carbon and store it safely. It is very analogous in my 
mind.
    Senator Sessions. Just to conclude, I would thank you for 
your service. I do believe you have an opportunity to be an 
important leader for the country and would hope that you would 
remember the burden on the individual by driving up costs of 
energy. I believe that had a big impact in our economic 
slowdown. It is hurting people throughout this country. Lower-
cost energy is a good thing.
    I would also urge you to consider that the real crisis 
economically for America is that liquid that we are importing 
for our vehicles and the crisis economically and on the 
national security is not on electricity, but really what we can 
do to reduce our dependence on foreign oil.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Landrieu.
    Senator Landrieu. Thank you, Dr. Chu. I too enjoyed our 
visit in the office and look forward to many more. Your 
confirmation looks like it is moving forward with dispatch. But 
two comments and then three very brief questions.
    I listened with interest to your comments to Senator 
Murkowski about the known inventory in the United States of oil 
and gas and just wanted to point out that the emphasis is on 
the word ``known'' because we believe, many of us, that there 
are great resources that have yet to be discovered based on the 
fact that there has never been a comprehensive technology-
driven inventory taken of oil and gas resources.
    So one of the things that our chairman has been leading the 
effort with some degree of success with my support and others 
has been to push the U.S. Government on behalf of the taxpayers 
who might be interested to actually know how much oil and gas 
they have. So with so much off limit in the past and with 
limited access to just look, I would just urge you to be 
careful about the comment about 4 percent. It is true. We have 
4 percent of the known reserves, but there is great evidence to 
suggest that there are lots of reserves that are unknown.
    No. 2, the importance of developing the right kinds of 
technology in this country on safe soil and in water where 
there are high environmental standards can never be 
underestimated to the world. We do not have pirates in the Gulf 
of Mexico today. We did. Jean LaFitte, but since he left, I 
have not heard or read about one since. But there are pirates 
all over the world, just what happened last week, $3 million 
having to be parachuted to a tanker to release men and women 
who had been held under the gun. Oil and gas industries cannot 
practice their craft safely in many places in the world.
    If we would allow them to practice their craft here on and 
offshore with high standards and courts that can step in that 
exist transparently, we would do the world a great service 
because they do not have to practice in the Niger Delta or in 
places that have very fragile environments and great 
consequences to the earth.
    So there are two facts I just wanted to leave with you. 
One, the reserves are not known, and B, the importance of 
allowing us to practice, if you will, on home turf before the 
world does things in bad ways that pollute everything and make 
the matter worse.
    My question is to follow up--and I ask this not because it 
has not been asked 10 times to you this morning, but I think in 
asking, you will understand how many of us feel about nuclear. 
You have had at least six or seven questions. Mine is going to 
be the eighth.
    It is just apparent to us, mainly based on the great 
leadership of Senator Domenici, who is with us, I think, this 
morning, and others, the importance of getting off the dime on 
nuclear. So would you just briefly state again what are your 
No. 1, No. 2, and No. 3 strategies to move us forward on 
nuclear?
    Mr. Chu. The first is to accelerate this loan guarantee 
program for the several nuclear reactors that are needed to 
restart the nuclear industry. You have got to be going as you 
say. I agree with you, Senator.
    The other question--and it is a concern of other Senators--
is that we need to develop a long-range plan for the safe 
disposal of the waste. This is something that is the 
responsibility of the Department of Energy. That has to go 
forward as well because you have to develop that concurrently 
with the starting of this industry again.
    So those are actually in my mind the two highest 
priorities.
    The third is that there is research that has to be done, 
again because reprocessing has the potential for greatly 
reducing both the amount and lifetime of the waste and to 
extend the nuclear fuel.
    Senator Landrieu. Can this committee count on you to go to 
bat in the atmosphere of these troubled financial markets? Can 
we count on you to go to bat with the Administration to make 
sure that the energy sector of this country is given priority 
in terms of stabilizing markets so that we can get a lot of 
this done with Government, you know, not being done by the 
Government, but supported by the Government?
    Mr. Chu. Yes. It has been said--questioned again and again 
on the importance, for example, of that $18.5 billion loan 
guarantee program to start moving in that direction.
    Senator Landrieu. My time has expired, Mr. Chairman, but I 
will submit for the record a question about the Department's 
policy to not include sugar as a base for producing biofuels, 
that it has been proven to be five to seven times more 
efficient than corn or wood products or biomass and if you 
would be willing to change that policy, given Brazil's 
tremendous success and the potential of so many of our 
agricultural areas to produce large amounts of sugar. But I 
will submit that in writing and expect an answer. Thank you 
very much.
    Mr. Chu. Thank you.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    Dr. Chu, thanks for being here. I enjoyed our phone 
conversation the other day.
    I know that the chairman has already asked a question 
regarding the relationship between you and Mrs. Browner and how 
that is going to be. I hope that you set things up in an 
appropriate way. But I do wonder, Mr. Chairman, based on some 
of the articles that we have read--and certainly it is great to 
have somebody of Dr. Chu's intelligence running the Energy 
Department--would it make sense for us to possibly have Ms. 
Browner in for testimony at some point? You do not have to 
answer now, but I wonder if that is something that would be 
helpful for the committee.
    The issue of nuclear. I am going to skip down and just be 
very brief since you have had now nine questions regarding 
that. I noticed a lot of people say that they support nuclear, 
but they also mention the waste issue. It is as if once we 
solve the waste issue, then we can pursue nuclear again. It is 
my understanding, based on what I have heard here today, you 
mean pursue nuclear now in spite of some of the issues that we 
have regarding waste. Is that correct? All out now, loan 
guarantees. Let us move ahead. We have 104 plants today. We 
probably need 300. Let us move on.
    Mr. Chu. Yes, because I am confident the Department of 
Energy, perhaps in collaboration with other countries, can get 
a solution to the nuclear waste problem.
    Senator Corker. Perfect. So you would move ahead while that 
was being sought.
    Mr. Chu. I think certainly we should use the loan 
guarantees to start these first several plants that we talked 
about. As you well know, Senator, I think this is a complicated 
economic decision by the utility companies that will invest in 
these plants. So it is partly loan guarantee. It is partly the 
rates that utility companies will allow. But there is certainly 
a changing mood in the country, because nuclear is carbon-free, 
that we should look at it with new eyes.
    Senator Corker. I have a number of questions that folks 
from our lab asked to ask. I will do that separately. I know 
those are more local in nature, but I certainly plan to ask 
those.
    On climate change, I know that you advocate putting a price 
on carbon based on things that you have said in the past. Do 
you advocate doing that through a tax on carbon or through a 
cap and trade system?
    Mr. Chu. Again, this is a position the President-elect has 
been pretty clear about. It is a cap and trade system for a 
variety of reasons, and I support that decision.
    Senator Corker. Is that the best decision or is that the 
politically best decision?
    Mr. Chu. You are far more experienced about answering that 
question.
    Senator Corker. I do not know. You seem pretty good.
    [Laughter.]
    Mr. Chu. But certainly the simpler the cap and trade system 
is, the happier I will be.
    Senator Corker. That brings me to the next question. I 
noticed in 2007 you made some comment that stakeholders want 
loopholes, and of course, you did not give any editorial 
response. You said stakeholders want loopholes. We have noticed 
that stakeholders want lots of loopholes and that cap and trade 
systems that have been put forth in the past have all kinds of 
free allocations and domestic offsets and international 
offsets. At the end of the day, you are not achieving anything 
other than creating a system that a lot of people can make a 
lot of money off of but really does not have a lot to do with 
carbon reduction.
    I wonder if you might, with us, give some kind of editorial 
comments as it relates to loopholes and those kinds of things 
that make the market less pure.
    Mr. Chu. First, let me also go back a little bit and answer 
another question I did not answer yet or did not fully answer 
as to why the cap and trade system is something I favor. 
Countries around the world are in a cap and trade system, and 
one has to integrate with the rest of the world because the 
climate change problem is a world problem.
    Senator Corker. I hope we would not integrate much because 
the European system is not reducing carbon. So hopefully they 
would integrate toward whatever we ultimately did.
    Mr. Chu. But again, philosophically I think--you know, I 
have not studied these bills that have been advanced in the 
Senate. But philosophically the simpler the cap and trade 
system, the clearer it is, I think the better. But I recognize 
there are stakeholders. So, again, I plead----
    Senator Corker. Stakeholders are usually those that emit 
carbon.
    Anyway, I look forward to having some conversations. I know 
my time is almost up.
    I know some of the folks here have asked you about coal, 
and obviously, coal is a part of our energy base right now and 
that is the way it is. Without some huge diminution in our 
standard of living, it is going to be a part of our base for 
some time.
    I hear lots about carbon capture and sequestration. I am, 
again, just a junior Senator from Tennessee. I have a hard time 
sort of imagining this commercial maze of carbon being captured 
and sequestered and where it goes. It is just hard for me to 
get my mind around on a commercial base when you look at the 
amount of carbon that is emitted from coal. We certainly use 
coal extensively in the State of Tennessee, unfortunately, as 
has been noted in the press recently.
    Do you have any comments about your sense of the real use 
of carbon capture and sequestration on a real scale that deals 
with the real issues of carbon from coal?
    Mr. Chu. Very quickly, I think from the geophysicists/
geologists that I have spoken with it is a possibility, but it 
is a significant challenge. We are sequestering in the world a 
few million tons of carbon per year. In the areas that I know 
about, it is being done safely, but there are many different 
geological sites that we have to actually test. Again, this is 
something the Department of Energy has begun to do and has to 
accelerate the testing to make sure we can sequester the 
amounts we need in order to make a significant impact on the 
carbon emitted.
    Senator Corker. A lot of people think that will happen when 
donkeys fly, if you will, and I would love to hear any follow-
up from you as to what we do with coal in that regard because 
it is a difficult situation.
    Mr. Chairman, thank you for the time and for your 
leadership. As usual, I look forward to working with you the 
next 2 years.
    The Chairman. Thank you very much.
    Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman, certainly for the 
opportunity to be here and discuss some really critical issues.
    Mr. Chu, welcome to the committee. I certainly enjoyed 
having the opportunity to visit with you earlier, last week I 
suppose, and am excited about the opportunities that lie before 
us all in terms of lessening our dependence on foreign oil, 
creating a greater environment for the future of our country 
and certainly for our children. I think you have got great 
opportunities to lead us in that endeavor. So we hope to be 
able to work through some of our questions.
    I guess one of the ones I would like to start with--I know 
that you have heard from me an awful lot in terms of the rural 
aspect of my State. But what maybe perhaps are your visions for 
creating jobs in rural States like mine and communities through 
energy policy reforms, in stimulus, and also in other energy-
related legislation?
    Mr. Chu. Thank you, Senator, for the question. As you may 
know, I really believe in the probability that we can develop 
fourth generation biofuels, that is to say, biofuels that come 
from the agricultural waste streams that we now generate, the 
lumber mill waste streams, growing grasses that do not have to 
compete with prime agricultural land and the growing of food. 
So these are technologies that convert these streams like wheat 
straw, rice straw, lumber wastes into fuel not just ethanol but 
gasoline and diesel-like fuel that can be blended at any ratio 
and that can be used in existing pipelines.
    Senator Lincoln. I apologize for being late. I had another 
committee meeting.
    But have you gone through your Helios project which is one 
thing that you have spent a considerable amount of your time 
on, which is reflected in the biofuels arena? Have you spoken 
about that already?
    Mr. Chu. No, I have not. So let me just briefly mention 
that in the first 6 months at Berkeley Lab when we started on 
biofuels, we have trained bacteria and yeast--trained is 
perhaps an understatement, but we have gotten bacteria and 
yeast and modified them so that they take simple sugars and 
produce not ethanol but gasoline-like substitutes, diesel fuel 
substitutes, and jet fuel substitutes. The scientists--these 
are brilliant scientists who had spent most of their time in 
basic research--are very focused making this technology 
commercially viable.
    Senator Lincoln. So what you are talking about there is 
basically using, I guess, a greater starch or a more cellulosic 
material as opposed to just basic sugars?
    Mr. Chu. We are actually looking at the entire--actually 
now we are getting into science. I love this.
    [Laughter.]
    Senator Lincoln. I just want to make sure it is something I 
grow.
    [Laughter.]
    Mr. Chu. Definitely it will be something you grow.
    It is a blank sheet of paper and we are looking at the 
entire possibilities of developing better plants that require 
less energy inputs, that are more robust. One has to look at 
algae as well, and how do you break those plants down into the 
kinds of sugars that these little critters, the yeast and 
bacteria, can actually use.
    We are also looking at how we can actually in a single 
organism break down the cellulosic material in a way, a new so-
called pretreatment processes that separates the protective 
molecules that nature has invented to protect plants from being 
attacked by microbes and fungi.
    So we are looking at everything because you can improve all 
of these things. With a blank sheet of paper, you actually--
instead of focusing on this thing within the confines of one 
person's expertise, what we are doing is we are looking at the 
possibility that you can improve the next thing in a different 
way. I think that is why I am so optimistic some real progress 
can be made.
    Senator Lincoln. We appreciate that. Optimism is good.
    Just in terms of promoting renewable energies, I know you 
all talked about coal and you have talked about nuclear 
reprocessing, things that are important to me because of the 
diversity of our energy in Arkansas. So I will just continue on 
renewable energy, if I may, with just two last questions.
    One, do you agree that promoting biofuels has the potential 
to play a significant role in a Federal climate change strategy 
in addressing our Nation's carbon footprint?
    You have stated your views regarding different feedstocks 
for biofuels like the woody biomass and the animal waste, which 
is critical for us. But I also think it is important. I do not 
know if you have seen this map. I am sure you have. It is very 
colorful and pretty, but it also is very demonstrative in what 
it shows us about wind energy. We have a diverse Nation, 
geographic differences all across the great country with 
respect to renewable energy opportunities.
    More specifically, the geographic disparities in the values 
that we are placing on renewable energy incentives that need to 
be taken into account because if you see the strong white areas 
on the map, it is mostly the southeastern part of our country 
where we do not have any wind. So I guess we are hoping that 
you will take a look at this and be someone that can be 
supportive in the analysis to support parity in terms of all of 
the incentives that we are providing for all of the different 
types of resources that we need for biofuels, particularly 
biofuels, but certainly renewable energies.
    I do not know what your stand is on that, but I am specific 
on section 45 where we look at the renewables. Obviously, wind 
is critical. We love wind in Arkansas because we produce the 
blades and the turbines for the windmills, but we do not 
produce a lot of wind. So for us to be able to be a player and 
constructively engaged in contributing what we have to 
contribute, our hope is that your studies and background in 
biomass and biofuels will be helpful to us in better 
understanding how we can do a better job at what we have to 
offer from rural regions, particularly in the Southeast, that 
produce an awful lot of agricultural waste and biomass 
combined.
    So I just hope that you will take a look at that. I do not 
know if you have got any comments on how diverse we need to be, 
but I hope it is pretty diverse.
    Mr. Chu. I think we have to be very diverse. The solutions 
have to come from just about every sector. So very briefly, I 
think the development of biofuels is very important to get us 
off of the dependency on foreign oil, and it is not a 
possibility, but I think a probability that we will develop 
those technologies.
    Senator Lincoln. Thank you, Mr. Chairman.
    Mr. Chu. Quickly too.
    The Chairman. Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Thank you, Dr. Chu. I appreciate your visit to my office. I 
very much enjoyed our conversation, and I would like to just go 
back through a little of that maybe just to get some 
confirmation here on the record.
    I think we both agreed on the importance of moving from 
where we are with heavy use of fossil fuels to renewables and 
non-emitting fuels. But we also talked about the importance of 
recognizing realities over the next 15 or 20 years, that we do 
have to bridge from where we are to where we want to be with 
coal, with nuclear. I guess I would like to hear you restate 
this in some way. You talked about our dependence on coal for 
another 15 or 20 years and the importance of nuclear generation 
of electricity replacing coal as quickly as we could.
    We also talked about carbon taxes and climate change ideas 
now which concern me when they are talked about in the context 
of we need to begin penalizing the use of fossil fuels now. We 
need to have taxes on these fuels and to discourage their use 
now.
    I think you and I agreed that the rational way to do that 
is certainly to create incentives for non-emitting fuels and 
discouragements, if necessary, for polluting fuels, but that 
these carbon taxes or penalties should not take place until we 
give businesses and utilities the time to convert to other 
forms of generation or other forms of energy. I just wanted to 
ask you to talk a little bit more about that just to give us a 
perspective of what to expect from the Energy Department under 
your leadership.
    Mr. Chu. Senator, I believe what I said when I was meeting 
with you--and thank you for the discussion--was that coal and 
nuclear, as well as gas, of course, formed the baseload 
generation of electricity today. We have to evolve, recognizing 
that it cannot happen overnight, the nurturing of renewable 
energy resources. This takes a bit of time. I think we should 
push as hard as we can, but the reality is that the baseload 
generation today is not from those resources.
    So again, we need all of the solutions. We need to make 
them as clean as possible as quickly as possible. So I have to 
say that we really need to do all of these things.
    Senator DeMint. Maybe I can ask again in the context of--I 
know you made a statement that we need--I do not want to put 
words in your mouth, and the media, we find, is not always 
correct. But we should do what is necessary to raise the price 
of gasoline in our country to that of the Europeans. I assume 
that is in the context of discouraging the use of fossil fuels. 
But that is an example for me--until there are alternatives 
available for people. All we are doing is raising the cost of 
living, in a sense adding a tax to folks who are trying to get 
to work.
    How do we deal with that? Certainly we want to have those 
incentives out there to move to the right types of energy, but 
do we really want to add tax to living and business now when 
there are really no choices?
    Mr. Chu. I think the President-elect has made it very clear 
that gasoline taxes now are off the table. It is not an option.
    Thank you for pointing out that that was made in the 
context of how do we control our use of oil in the United 
States.
    Now, I feel very strongly and deeply that what the American 
family does not want is to pay an increasing fraction of their 
budget, their precious dollars on energy costs both in 
transportation and in keeping their homes warm and lit.
    So I go back to the first thing that I repeatedly go back 
to, that energy efficiency is the key to that, the 
weatherization of homes, more efficient cars. Both of those 
things are actually beneficial in two ways. It directly lowers 
the costs to the American family of what they pay in energy, 
and it reduces the demand of this energy. Therefore, as we saw 
as the world entered into this recession, the industry slowed 
down and the demand went down and the price went down.
    So I think we should take as a goal keeping the energy 
costs to the American family--you know, we do not want to see 
ever-rising costs. So when we work toward more efficient cars 
and tighter homes in terms of insulation, this will do exactly 
that. So for the Department of Energy, this is one of the 
things that I would love to see happen and would greatly 
encourage in any way I could.
    Senator DeMint. Thank you. I can see I am out of time, but 
if I could just leave with just one comment. Nuclear is 
obviously important. For years, States like South Carolina that 
have received a significant amount of nuclear waste from the 
cold war and are holding that in temporary storage have been 
promised that 1 day we would have a site, Yucca Mountain, to 
move that to. The law allows us to send it back if that does 
not happen. We talked about it and I guess we can talk about it 
in another setting if there is not time today. But we are very 
concerned with the political quagmire of Yucca Mountain. At the 
same time, we have very real exposed danger, in South Carolina 
and other States, of ground storage of nuclear waste.
    Thank you, Mr. Chairman. I will yield back since I am out 
of time.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Dr. Chu, welcome. Congratulations on your nomination. I 
look forward to working with you. This is the first time we 
have had someone nominated to the cabinet who has actually won 
a Nobel Prize prior to being in the cabinet. So congratulations 
on that.
    I would like to ask you about a U.S.-China energy bilateral 
or the energy efficiency and renewable energy technology 
office. I see Mr. Reikert here this morning. I would love to 
talk to you about that. I would love to talk to you about smart 
grid legislation and the platform transformation that I think 
is available to us. But I am going to have to put all of those 
things aside and hope that we can have a dialog about them in 
the future, while we turn to something more specific today.
    Your DOE budget is about $25 billion, and 10 percent of 
that is allocated for the cleanup of the Hanford site in the 
State of Washington. While that site is in the State of 
Washington, it really is a national priority. The most urgent 
need there is the 53 million gallons of radioactive waste 
stored in about 177 underground tanks, 67 of which are 
confirmed to have leaked into the groundwater and are reaching 
toward the Columbia River. Now, many of these tanks are 30 
years beyond their originally intended lifespan.
    So, first of all, are you aware of this problem? I think 
you are aware of the problem that exists there with groundwater 
contamination and this plume. Is that correct?
    Mr. Chu. Yes, I am.
    Senator Cantwell. So my concern is that this funding over 
the last several years has basically fallen flat. Part of the 
problem is that many people look at that funding level and see 
that it is such a big number, 10 percent of the overall DOE 
budget. Yet that is the magnitude of this cleanup. So we have 
gotten into disputes over the process of this cleanup.
    So I want to know if you support the Hanford Site Tri-Party 
Agreement, including the requirement that 99 percent of the 
tank waste be retrieved as part of the cleanup process.
    Mr. Chu. As I said in my opening remarks, the Department of 
Energy has a legal and moral obligation to clean up these 
sites. I think the frustrations you have with the speed and 
effectiveness of with which the Department of Energy is going 
about its business is something of concern, and I will do what 
I can to make the funds available and have them used more 
effectively. I think there is also some concern about how 
effectively those $6 billion--I am not sure of the exact 
number, but something like that--have been used. So I am 
committed to cleaning up these sites.
    Senator Cantwell. So do you support the Tri-Party agreement 
and the provision that 99 percent of all the waste should be 
cleaned up?
    Mr. Chu. I am going to plead a little bit of ignorance on 
the exact numbers of that, but I will certainly look into that 
and get back to you. I know it is of great concern to you.
    Senator Cantwell. Yes, if you could, give us an answer on 
the 99 percent. The last Administration thought that they could 
expedite the cleanup, but one of the ways that they would have 
done it was by leaving more of the waste in the tanks. 
Obviously, from a scientific perspective, this outcome would be 
unacceptable to us in the State of Washington and, I think, to 
the whole Northwest and probably to the entire country if they 
were more informed about this problem.
    Second, what are your thoughts on this issue? I appreciate 
that you may have even suggested that the stimulus might 
include some waste cleanup. But would you support increasing 
the Hanford funding? It may need as much as $2 billion over the 
next 4 years to meet that cleanup schedule.
    A related issue is the fact that the State has found that 
the plume and groundwater contamination from the Hanford Site 
is threatening both drinking water and salmon habitat. We have 
a short time period here to get the waste out of the tanks and 
into either new tanks or some other means of treatment. They 
have estimated that we need about $2 billion more over the next 
4 years. So would you be supportive of that number?
    Mr. Chu. Again, I am not sure of the exact number, but as I 
have told you and others, I did argue in the discussions for 
the stimulus package that this made good sense to me, that we 
actually get some funds, significant funds, into the stimulus 
package for this cleanup. Certainly we have to take every step 
we can to make sure that this plume does not get into the 
rivers, the Columbia River, for example. This would be very 
bad.
    Senator Cantwell. Some of the contaminants are getting 
there, but they are not yet at a dangerous level--but 
obviously, urgency is of the utmost. So I will look forward to 
getting a written response from you, if we could, regarding the 
$2 billion for the Hanford in the stimulus package and the 99 
percent waste cleanup in the Tri-Party agreement.
    One of the things we are also concerned about is BPA and 
ITS ability to continue to accommodate renewable energy; we 
support borrowing authority for the Bonneville Power 
Administration that would allow it to expand its transmission 
lines. Would you be supportive of that?
    Mr. Chu. Yes. I think the expansion of transmission lines, 
especially for the development of renewable energy, is 
something that I definitely support.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Dr. Chu, congratulations on your nomination. I regret we 
did not have a chance to speak, but let me ask you a couple key 
questions to me.
    In a previous answer you gave to Senator Burr about the 
national interest electric transmission corridor, you said 
there may be opposition but a national grid is in the national 
interest. I do not think anybody disputes that.
    But the Department of Energy has designated the entire 
State of New Jersey as part of a national interest electricity 
transmission corridor. Many of us believe that designation was 
a result of a subpar congestion study. On the west coast, the 
Department of Energy produced a transmission-line-by-
transmission-line study of congestion which resulted in a 
narrow, more targeted transmission corridor, achieving the 
goals but doing it in a way that was less of an impact.
    The mid-Atlantic transmission corridor covers all or part 
of eight States and the District of Columbia and has been 
characterized by many State regulators as setting up a super 
highway to coal electricity.
    My question is as the Department of Energy updates their 
congestion studies, will you ensure that they are accurate on a 
transmission-line-by-transmission-line basis? One.
    Two, if the study shows it is appropriate, will you be 
willing to narrow the mid-Atlantic transmission corridor?
    Mr. Chu. I am not familiar with the details of that, but 
having lived in New Jersey for 9 years while I was working at 
Bell Laboratories, I recognize that New Jersey is a bigger 
State then some other people think.
    In answer specifically to your question about as we update 
the analysis, would I review that and be willing, based on the 
facts that we learn, to narrow it, absolutely. It is all about 
learning more about the details of these things.
    Senator Menendez. I appreciate that. Would you do what was 
done on the west coast? I do not understand why it would be a 
difference of a transmission-line-by-transmission-line 
congestion study.
    Mr. Chu. Yes. I do not know the details of that. Just 
listening to you, it seems to be----
    Senator Menendez. If you could review that and get back to 
us. That is really critical.
    Mr. Chu. Absolutely.
    Senator Menendez. Second, I have sponsored legislation. We 
are proud in New Jersey of being the second largest producer of 
solar-related equipment. One of our challenges is getting 
States to adopt net metering and interconnection standards so 
that we can integrate solar energy into the grid. We believe 
that if such legislation were enacted into law, a significant 
market barrier to distributed solar generation would finally be 
gone. Is that something that you support in terms of net 
metering and interconnection standards?
    Mr. Chu. Yes. In fact, as you may or may not know, the 
National Academy of Sciences and Engineering has had an ongoing 
study by a very distinguished panel of people chaired by Harold 
Shapiro, the former President of Princeton, and I have been on 
that panel over the last 2 years. There are six subpanels. I 
specifically put myself on the transmission and distribution 
subpanel because I saw it as vital that we get it right, as we 
modernize the system. The so-called smart grid, including the 
metering and all of these things that you speak of, is a very 
important part of the overall strategy to a sustainable energy 
future.
    Senator Menendez. Then finally, Senator Sanders and I, 
working with others here, authored--and it is into law--the 
Energy Efficiency and Conservation Block Grant Program in the 
2007 energy bill. This is to try to drive at municipal and 
county levels a lot of the efforts. It was the No. 1 priority 
of the U.S. Conference of Mayors to try to get a significant 
level of work in energy infrastructure and increasing the use 
of renewables at that level, saving money for the local 
property taxpayers, creating less demand, and obviously having 
a positive impact on the environment.
    I certainly hope you will look at that as we have talked to 
the President-elect on the stimulus package. I know there are 
some elements of that in there. I hope it is something that you 
will see, in your new role, as something to be an advocate of 
at the end of the day.
    Mr. Chu. I will certainly promise to look into that.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Dr. Chu, welcome. I too look forward to supporting you as 
our Secretary.
    Senator Cantwell has laid out many of my concerns very 
well. The question comes down to this. Are you going to follow 
the flawed Bush blueprint for nuclear fuel reprocessing or do 
something different? This is a big tome--I can barely lift it--
that essentially is the blueprint. What I think I and others 
are looking for is to see whether you are going to make a break 
with this essentially game plan, and if so, how.
    Mr. Chu. As I talked about with the other Senators, the 
blueprint you are talking about is I believe the fuel recycling 
issue.
    Senator Wyden. That is part of it. I mean, it is 
processing. It is fabrication, more reactors. The bottom line 
is this essentially green-lights more without dealing with the 
enormous amount of waste that we have. I think what I and 
others are looking for is whether we can work with you to 
essentially change that blueprint. Would you be open to that?
    Mr. Chu. Yes, I would, but I have stated and believe that 
nuclear power will be part of our energy mix going forward 
because it is carbon-free and because it is baseload. Now, 
having said that, we do not have all the answers today as to 
how to develop that in a way that would make us all happy, 
particularly about disposal of the nuclear material. So I 
certainly will be working with all the members of this 
committee and other Members of Congress to develop a plan that 
can make as many people as possible happy. But given the fact 
that nuclear power is 70 percent of our carbon-free electricity 
generation--that cannot be denied.
    Senator Wyden. Your answer for today's purposes is fine by 
me, and I essentially subscribe to much of the same philosophy. 
But the fact is we want to hear that you are open to modifying 
this blueprint. You have indicated that you are, and we want to 
work with you in that regard.
    The second question. I think in a very real way, the ball 
game on climate change is bringing the Chinese and the Indians 
into a global agreement. I would like your thoughts 
particularly with respect to China where I know you have worked 
with Chinese scientists and environmental leaders. Lay out your 
sense of how you would bring the Chinese, in particular, into a 
global agreement on climate change.
    Mr. Chu. First, I think the United States and China are now 
emitting more than 50 percent of all the carbon emissions in 
the world today. So if the U.S. and China do not get this right 
and do not move forward, I do not think the rest of the world 
can really follow. It is such a significant factor.
    Now, currently we are in a standoff position. The United 
States' position is we do not go forward unless China goes 
forward, and China's position is, well, the richer countries of 
the world, in particular, the United States, have put most of 
the carbon up there previously. We think perhaps we should be 
given a bye. I feel pretty strongly that going forward all the 
countries of the world, China and India included, have to be 
included in a carbon plan to reduce the emission of carbon.
    I think the United States can take the first step, and 
hopefully China will immediately, very closely follow. They too 
recognize the growing concerns of climate change on their own 
country. They are beginning to see these effects and have 
gotten increasingly concerned. Now, if China does not follow, 
we will have to relook at this, but I think it is very 
important to do both.
    Second, we need to start working with China and India to 
actually concurrently develop some of the technologies, 
starting with efficiencies. It will be very beneficial if we 
can develop and invent new methods of, for example, building 
efficiencies that China can use as they build their new cities. 
After the recession is over, we expect an enormous amount of 
building in China. It is important that the United States and 
others help China do it right and build energy-efficient 
buildings. These are things that we should cooperate with. But 
I think all the countries of the world have to be part of this 
overall effort because it is the world we are talking about.
    Senator Wyden. Thank you. My time has expired. Just a bit 
of housekeeping. If you would also send me the documents you 
are going to send to Senator Cantwell both with respect to 
Bonneville and Hanford. I thank you. I think you are going to 
be an excellent Secretary, and I look forward to your 
leadership especially on this question of climate change.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Welcome, Dr. Chu. Everywhere I travel, there 
is an excitement about your appointment. There is a belief that 
a renewed emphasis on science would serve not only the State of 
Colorado but our country and our world in very important ways. 
I look forward to supporting your confirmation on the Senate 
floor when that occurs.
    Like Senator Cantwell, I have spent much of my time in the 
arena of public policy focusing on energy policy and all the 
potential that it presents to us, and I would like to explore 
these marvelous opportunities that we have.
    But I would, in the interest of keeping faith with those in 
Colorado, like to turn to a local concern but one that has 
broader national implications as well. That is the Rocky Flats 
environmental technology site. Currently there are three areas 
in which we have more work to do. We have closed that site. It 
is a wonderful success story, one that can be applied to other 
environmental technology sites around the country like Hanford. 
But we have to continue that monitoring there of groundwater 
contamination levels, soil contamination levels, and the like. 
That is the No. 1 concern that we have.
    Second, we have a work force that literally worked itself 
out of a job in the interest of closing up that site, and there 
are promises that have been made to the people who worked there 
so loyally and in such a committed fashion to look after their 
health needs. There are many people who have been made sick by 
exposure to radioactive materials in the work site there.
    Third, there is ongoing litigation that has been brought by 
surrounding property owners regarding the damage done by 
contamination over the 50 or so years that that site has been 
in place.
    I would like a commitment from you that once you are 
confirmed, that you take a close look at these three issues, 
ongoing cleanup, worker health, and property damage claims, and 
make sure that we are doing everything we can to protect public 
health and to keep faith with these cold war warriors who put 
themselves in harm's way, in no less a way than those who 
fought in the hot wars of that cold war period. Can I receive 
your assurances that you will focus on this particular and 
important area?
    Mr. Chu. Senator, you will have my commitment. I will 
certainly look into this.
    Senator Udall. Thank you for that. Again, I want to 
emphasize that by doing so, then we will send a message to 
other workers in other parts of the country that as we clean up 
places like Hanford, we work in Ohio and Oklahoma and South 
Carolina, Nevada, that those promises will be kept to those 
people there who worked so diligently.
    Second, could I turn to the National Renewable Energy 
Laboratory, NREL as we know it, an important part of Colorado's 
economy, but again a leading factor in developing new energy 
technologies. I heard Senator Sanders speak about his interest 
in opening a facility in Vermont. Perhaps we could have an 
annex of the National Renewable Energy Laboratory in every 
State. But the Department of Energy has made a commitment to 
the mission of NREL, and I wanted to receive assurances from 
you that you will continue to focus on that commitment and make 
sure those resources are forthcoming.
    Mr. Chu. I think NREL will play a key role going forward in 
the renewable energy development and energy efficiency. So you 
have my assurance that NREL is certainly on my radar screen and 
it has to play a vital role.
    Senator Udall. I do not know if you have had a chance to 
visit the laboratory. I think you have and have probably been a 
frequent visitor, but we would like to host you again in the 
near future.
    Let me turn, as my time begins to expire, to an opportunity 
that is important to the chairman. He has been a champion here 
in the Senate. That is the renewable electricity standard 
concept. In Colorado, we passed the first citizen-initiated 
renewable electricity standard 4 years ago, and the results 
have been remarkable: thousands of new jobs, millions of 
additional revenues. Would you work with us here in the 
Congress to establish a national renewable electricity 
standard?
    I know my friends from the South have some concerns about 
whether they actually have those resources. Other regions of 
the country feel like they might be disadvantaged, but I 
believe that to use maybe an ill-considered term, when you 
drill into the opportunities for renewable energy, they exist 
all over our country. We could make markets. We could lessen 
the cost of the natural gas for peaking power. There are many, 
many benefits.
    But I would like to work with you on a renewable 
electricity standard at the national level. Would you comment 
in the last few seconds that we have?
    Mr. Chu. Very briefly, I would be looking forward to 
working with you and all the Senators on this committee for 
that. As I said repeatedly, the renewable energy is something 
that we really have to develop as quickly as possible.
    Senator Udall. Thank you again. I see my time has expired.
    The Chairman. Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Dr. Chu, it is nice to see you. I am grateful for your 
devotion to public service and I enjoyed our conversation on 
the phone yesterday.
    I would like to just briefly reiterate some of the comments 
you have heard about coal. My State derives about 98 percent of 
its electric production from coal. Anything in that area is 
going to have a major impact upon businesses and consumers 
across my State. So the whole notion of clean coal technology, 
sequestration, those sorts of things is very important to our 
State. As a matter of fact, I think a company has in the works 
a facility in Edwardsport, Indiana that will sequester carbon 
from coal production. So it is one to keep your eye on as we go 
forward. I would recommend it to perhaps--I think, Senator 
Corker, who is no longer with us, was expressing some curiosity 
about this. Perhaps we will have some good data from Indiana.
    Second, just as a housekeeping matter for your staff, we 
are a center of transportation production. The loan program for 
advanced technology vehicles, I am told by several of the 
companies in my State, is really struggling in the Department. 
As a matter of fact, we heard just today there is not much 
transparency. The applications are sitting there. It is not 
well staffed. The criteria that are used for giving the loans 
is not well understood. If you could really focus on this going 
forward. All those things that will go to improved conservation 
in the transportation arena are going to be very important. 
That program needs to be well administered and it really has 
not been to date. So if your folks can make a note of that. I 
would love to follow up with you at the appropriate time.
    Just two or three brief questions in the few minutes that 
we have remaining. I would like to follow up on the last 
question that Senator Wyden asked you about China and your 
stated belief that it is important--indeed, essential--to 
include developing nations, particularly China and India in any 
regime of CO<INF>2</INF> reduction. I think you said that the 
U.S. will take the first step and hopefully China will follow. 
We will have to relook at it if they do not.
    It is my honest conviction that that approach will not be 
enacted by the U.S. Congress. Simply trusting China to--they 
have their own internal needs to have high rates of growth. 
They have been proven to be willing to sacrifice just about any 
other concern to maintain that high rate of growth to maintain 
domestic political stability. They do not have a great track 
record, frankly, in abiding by some of the agreements, 
particularly honoring intellectual property rights, other 
things. So a skeptic might say we are going to be going through 
dislocations here that will affect our economy, consumers, 
other things. The American people would make great sacrifices. 
You would have to really wonder about whether China would go 
along. For people who have to cast votes on these things, that 
probably will not be good enough to get the job done.
    I have raised this with, hopefully, the Secretary-to-be, 
currently Senator Clinton, hopefully Secretary of State 
Clinton, about the need to engage in robust diplomacy before we 
come to Congress with a global warming initiative because we 
are going to need to have buy-in in the front if this thing is 
going to work.
    Do you have any response to that?
    Mr. Chu. Actually I agree with that. Absolutely.
    Perhaps this would put you more at ease with what I said. 
As you know, I was co-chair of this report sponsored by the 
Inter-Academy Council. That is a council that represents over 
100 academies of science around the world. It is a report 
called Lighting the Way and how one transitions to sustainable 
energy. In that report, we said quite clearly that all the 
countries, developed and developing countries, have to be part 
of the solution.
    I agree that this is a touchy diplomatic, economic, multi-
dimensional problem.
    Senator Bayh. Doctor, I was not ill at ease with what you 
said. This is an important issue. We both believe that. So 
because it is an important issue, we have to make sure it is 
going to work, and without China participating, it is not going 
to work. I do not think it will get enacted, and a skeptic, 
viewing their past behavior, would have to say that is going to 
be a heavy lift in a way that is verifiable and transparent. It 
is just going to be very hard to get them there. So I think we 
are going to have to focus on that component early on in this 
process, and that is beyond your bailiwick. But since you were 
asked about it and responded, I just want to emphasize that 
point. If we are going to get this job done, we have got to 
focus on that.
    In my estimation, it is going to be difficult, and frankly, 
I am a little skeptical about whether they will ever get there 
in a way that is--because of the political dynamic within their 
own country.
    But let us give it a shot. Let us see. Let us do our best. 
Perhaps we can. I think it is well worth the effort.
    In my 16 seconds left, I would like to ask you--our first 
hearing before this committee in the new year was on the topic 
of energy security. We had a marvelous presentation and some 
fairly aggressive goals over the next 20 to 30 years about 
reducing the need to import energy into our country. One of the 
proposals involved the electrification of the transportation 
system, and there were some other good proposals as well. I 
view this as one of the defining challenges of our time, and it 
has a great impact on global warming as well as our economy, 
our finances, and our national security interests.
    Could you share with us just for a few moments here your 
thoughts about what we can do, what steps we can take to reduce 
the imports of energy into this country over the next 10 to 20 
years?
    Mr. Chu. Very specifically, as you and I both recognize, a 
lot of this is about oil and imported oil, efficiency, 
efficiency of our automobiles. We need to accelerate all 
efforts to develop the type of battery that the American 
consumer will buy in terms of plug-in hybrid cars. We do not 
have today the type of battery we need, quite frankly, in the 
sense that these first electric hybrid cars, which are a start, 
do not have the energy capacity, the lifetime of the batteries 
that we need. So this is another part. So if we can off-load 
that fossil fuel dependence on the imported oil onto 
electricity, you have many more options.
    So those two things I think are very important. Let us 
invent a battery technology. Let us push hard for more fuel-
efficient personal vehicles.
    Senator Bayh. I agree with that.
    Mr. Chairman, thank you.
    Doctor, I look forward to working with you on that issue. I 
do think it is one of the great challenges of our time. So 
thank you for your service.
    Can I say one final thing, Mr. Chairman?
    The Chairman. Go ahead.
    Senator Bayh. Any man who could work at both Cal-Berkeley 
and Stanford has to be adept at forging consensus. Dr. Chu has 
done that.
    [Laughter.]
    Mr. Chu. Thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Yes. Thank you, Mr. Chairman. I will be 
brief since I have learned that you never stand between your 
audience and lunch.
    Dr. Chu, I want to echo what you have heard from so many 
people on this committee about how delighted I am that someone 
with your scientific and research background and credentials is 
going to bring those to leadership in the cabinet. I hope that 
portends a willingness of many other scientists and researchers 
to come and serve in the Federal Government. I think what you 
are talking about, particularly when we are talking about 
energy policy, science and technology and research are going to 
be critical to addressing what we need to do to change our 
energy policy for the future.
    I was interested in the exchange that you had with Senator 
Lincoln about your work in the biofuels area. As we discussed 
when we visited, we have some very interesting work going on in 
that area in New Hampshire. But we still have not seen those 
fourth generation biofuels become commercially and economically 
viable. So what actions could you take as Secretary of Energy 
to promote moving those biofuels to become more commercially 
viable?
    Mr. Chu. First, with this fourth generation work that has 
essentially just begun over the last 1 or 2 years you see 
acceleration in many different ways, I think recognizing that 
it is a research program but also we need to really challenge 
the scientists who are working on this to keep their eye on the 
ball. So this is not a 10- or 20-year program. This is 
something we can produce I think to get it into testing in a 
few years. You know, we have had other experiences in times of 
national emergency, national need. Some of the best scientists 
have stepped up to the plate and said, yes, I was doing that, 
but this is of such importance that I am going to focus on this 
and really focusing on delivering solutions. So the good news 
is that because of the energy security, because of the climate 
change threats, and all these things, some of the best and 
brightest in the country, and some of the best and brightest 
students in the country want to work on this. So this is 
something one can work with. You want to unleash some funds to 
start to support graduate work, retraining at a postdoctoral 
level of some of the best and brightest who might have been 
trained in a traditional field of chemistry or physics to say I 
want to work on energy, but I want to be able to retrain. So 
things like directly working with universities, national labs, 
and industry is important. There are a lot of exciting startup 
companies. It seems every week I learn of another one and what 
they are doing. I think the Department of Energy has to find a 
means of encouraging that work. We do not know where the 
solutions will come from, but I do know that they will come 
from the best and brightest intellects that we have in this 
country.
    Senator Shaheen. Are there other policy changes that you 
would recommend we look at as a Congress to move that forward?
    Mr. Chu. I think we already have some policies that are 
creating the proper draw, like the fraction of our fuel that 
would be going toward something other than conventional oil. I 
think a clean carbon standard for our fuels is something that 
will actually draw this much more quickly. So policies like 
that are a good stimulus, good draws to encourage the 
investment in the new companies and the investment in the 
research in national laboratories and universities.
    Senator Shaheen. Thank you.
    The Chairman. Dr. Chu, thank you very much for being so 
generous with your time. We will do all we can to move ahead 
your nomination and get it through the full Senate. We wish you 
well in your new position.
    That will conclude the hearing and the hearing is 
adjourned.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]
 Statement of Chris Devers, Chairman, Council of Energy Resource Tribes
    On behalf of the Council of Energy Resource Tribes (``CERT''), I am 
very pleased to submit for the Committee's consideration this statement 
on President-elect Obama's nomination of Dr. Steven Chu to be the 
Secretary of Energy.
    Founded in 1975 during America's first energy crisis, CERT is 
headquartered in Denver, CO, and boasts 57 member Indian tribes. CERT's 
member tribes are actively engaged in the development and production of 
renewable and non-renewable sources of energy.
    CERT's mission is to support member tribes in the development of 
their management capabilities and the use of their energy resources to 
foster tribal economic development and political self-governance. CERT 
is governed by a Board of Directors comprised of the principal elected 
leadership of CERT's 57 member Indian tribes.
    CERT was instrumental in the development and passage of the Indian 
Tribal Energy Development and Self Determination Act of 2005 and 
actively supported the tribal provisions in the Energy Independence and 
Security Act of 2007. CERT's policy objective in the 111th Congress is 
the furtherance of innovative energy development on tribal land.
    As the Committee considers the nomination of Dr. Chu, CERT 
recommends that Indian tribes be included in the nation's ongoing 
search for sustainable energy development and energy security.
    The department plays a vital role in assisting Indian tribes with 
state-of-the-art scientific technology and accurate information. To 
this end, CERT is mindful of the role the department plays in enabling 
science to support energy and environmental decision-making. Investing 
in the various science disciplines is crucial in our energy policy. 
Robust Federal actions should be complemented by financial and tax 
incentives for the private sector to do what it does best: bring 
capital and expertise to harness and market forces.
    CERT strongly believes that an objective understanding of science 
and the full array of energy options should guide our decision-making 
and national policy rather than a narrow belief in certain energy 
sources and technologies.
    In addition to energy development and environmental protection, 
CERT's mission includes the development of young Indian people in 
scientific and engineering disciplines. Through our Scholarship 
Program, CERT has made possible the higher education of hundreds of 
young Native people who more often than not return to their communities 
armed with best education in America. This element of CERT's activity 
is mirrored by the department's role in carrying out research and 
development and truly cutting-edge technologies.
    Just as the ``Defense Advanced Research Projects Agency'' 
(``DARPA'') does for the Department of Defense, I am of the opinion 
that the department should expand its research to include bold 
experimentation in projects that use technologies and practices we can 
only dream of in 2009.
    CERT and its member tribes are hopeful that Dr. Chu will provide 
the kind of bold leadership he has shown during his tenure with the 
department's national labs and that his vision for America's energy 
future includes a commitment Indian tribes and communities at every 
level.
    I thank you for the opportunity to include this statement in the 
Committee's hearing record and would be happy to answer any questions 
you might have.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Responses of Steven Chu to Questions From Senator Barrasso
    Question 1. How would you characterize the Department: of Energy's 
initiatives to develop and deploy commercially viable CCS technologies 
among all of the DOE'S priorities?
    Answer. President-elect Obama is committed to funding innovative, 
large-scale carbon capture and storage projects, and working with 
Congress to develop a policy framework under which CCS projects can 
move forward.
    Question 2. Do you agree that carbon capture and storage programs/
projects are vital for the future security and independence of the 
United States given the importance of coal to the US economy? If so, 
how will you lead the Department to achieve those goals?
    Answer. I share President-elect Obama's view that we need to 
aggressively pursue carbon capture and storage technology. We're going 
to need this technology here in the United States, and it's going to be 
needed in China, India and elsewhere around the world. Both the 
President-elect and I agree that coal is a vital energy resource for 
our country. As you know coal currently provides fifty percent of our 
electricity, and we have enormous coal reserves that can provide power 
long into the future. At the same time, coal-fired power plants are the 
largest contributor to U.S. greenhouse gas emissions, and a growing 
source of global emissions. That's why, if confirmed, I plan to lead 
DOE forward on CCS technology as swiftly and as effectively as 
possible.
    Question 3. Given the slow growth rates of renewable energies and 
recent NERC studies showing that domestic power demand will outpace new 
generation in the coming decades, wouldn't you agree that coal will and 
should remain essential in the nation's energy portfolio?
    Answer. Coal currently provides fifty percent of our electricity, 
and we have enormous reserves that are likely to be part of our energy 
mix into the future. To ensure that we meet our energy needs as well as 
our climate goals, it will be important to develop new technologies for 
using our coal resources in more efficient, cleaner ways. I believe we 
can do that, and if confirmed, I will work hard to ensure that DOE's 
coal RD&D programs contribute to those objectives.
    Question 4. With domestic oil reaching peaks of production over the 
past few decades and LNG imports making us more dependent, not less, on 
foreign sources of energy, do you see domestic coal as a viable 
alternative for imported natural gas, jet diesel fuel and other 
declining domestic energy feedstocks?
    Answer. As I have stated, I believe that coal will continue to play 
an important role in our nation's energy mix. However, I also 
understand, based on EIA estimates, that we will also continue to have 
robust domestic gas supplies for some time to come. Nevertheless, I 
believe that DOE should continue to support coal RD&D programs and 
projects so that we can continue to make use of our vast coal reserves 
while also making progress toward our climate change goals
    Question 5. Given its potential for having near zero emissions, do 
you support government funding for projects such as the FutureGen 
project with the goal of commercializing and deploying such dean coal 
and CCS technologies? At what level should government funding be 
established--full, partial, other?
    Answer. I do not have a specific view about cost shares at this 
time, but I strongly believe that we must continue to work with 
industry to develop and deploy CCS technology, both here in the United 
States and abroad.
    Question 6. What kind of business/government partnership for clean 
coal development and deployment would be most conducive in achieving 
environmental goals and protecting U.S. economic interests? Has the 
CCPI program at DOE been effective?
    Answer. Carbon capture and storage technologies hold enormous 
potential to reduce our greenhouse gas emissions as we power our 
economy with domestically produced and secure energy. We must work to 
ensure that clean coal technology becomes commercialized. I have not 
yet formed a view regarding the optimal partnership structure(s) for 
clean coal work, nor do I have a basis for making informed judgments 
about the effectiveness of the CCPI program. However, if confirmed I 
will be reviewing all of DOE's activities in this area and working to 
identify how we can accelerate the research, development and deployment 
of clean coal technology.
    Question 7. Do you believe that any cap and trade or system of 
taxing emissions will be environmentally effective and economically 
justifiable internationally, given the desire for growth and increased 
standards of living in developing economies around the world?
    Answer. Climate change is a global problem that will require a 
global solution. President-elect Obama's Administration will move to 
advance domestic legislation while seeking to develop an international 
framework that will address the climate crisis in a manner that is 
effective and fair. No such framework will succeed without 
participation by developing countries, and I know that the President-
elect intends to pursue an agreement that includes commitments by such 
nations. If confirmed as Secretary, I will engage with the President-
elect, the rest of the Administration, and Congress to work towards 
these vital goals.
    Question 8. Isn't global deployment of CCS the only way we can 
allow both CO<INF>2</INF> management and economic growth in developing 
economies?
    Answer. I share President-elect Obama's view that we need to 
aggressively pursue carbon capture and storage technology, or CCS. And 
I agree that we are going to need this technology not only here in the 
United States, but also in China, India and elsewhere around the world. 
That said, there are many other new, efficient energy technologies that 
we can develop in the United States and that will find markets in the 
developing world. Such technologies will be critical to ensuring that 
international climate goals are met.
    Question 9. What is the best way to ensure price relief for 
American families who will bear the burden of rising energy costs in 
the wake of new cap and trade legislation? Don't you agree that 
families should be spared increased expense for electricity especially 
during a time of economic distress? How can we manage carbon, keep our 
domestic energy supply vital, and prevent price increases on 
electricity for consumers?
    Answer. President-elect Obama believes that unchecked emissions and 
continuing climate change poses serious threats to our environment, our 
economy, and our security. There is no question that doing nothing 
about climate change risks imposing huge new costs on our economy and 
our citizens. At the same time, however, it is essential that we 
develop market-based systems (such as a cap-and-trade program) for 
reducing greenhouse gas emissions, in order to minimize costs. But one 
of the most promising ways to meet both our climate change and energy 
goals without harming consumers is to develop the next generation of 
technologies that will enable us to transform the way we produce and 
use energy in America. If confirmed, I look forward to helping to lead 
that effort.
    Question 10. Have you supported in the past, and will you support 
in the future, policies that will increase the gas tax consumers pay at 
the pump?
    Answer. I recognize that last year's spike in gasoline prices 
caused economic hardship for many American families. In addition, we 
are sending hundreds of billions of dollars overseas each year for 
imported oil, which is harmful to our economy. To deal with all of 
these challenges, we need a comprehensive, long-term strategy. 
President-elect Obama has put forward just such a strategy--a 
comprehensive energy and climate change policy that will hasten the 
development of alternative fuels and efficient, advanced vehicle 
technologies. The President-elect does not support, and neither do I, 
raising federal gasoline taxes as an energy policy. Instead, we need a 
much broader-based approach to transforming America's energy future, 
and, if confirmed, I hope to be actively engaged in working with you 
and your colleagues in forging such a policy.
    Question 11. As you know, President-elect Obama has appointed 
President Clinton's former Administrator for the Environmental 
Protection Agency, Carol Browner, as White House Energy Czar. I think 
it is fair to say that Ms. Browner agrees with your statement that coal 
is your ``worst nightmare.'' Please describe for the Committee how you 
see your role, as well as that of Carol Browner, in setting energy 
policy for our country and for prioritizing research dollars towards 
coal technology research and demonstration projects.
    Answer. During my confirmation hearing and during our meeting, I 
worked to clarify my views on coal, which are explained at greater 
length in answers to other questions you have posed. President-elect 
Obama's decision to create a new position within the White House to 
coordinate policy on energy and climate change is a very positive 
development. First, it reflects the importance that the President-elect 
has put on reducing our dependence on foreign oil and dealing with the 
growing threat of climate change. It also reflects the fact that 
meeting these challenges will depend on coordinated actions from across 
the federal government. This is a model that has worked successfully in 
other areas, such as the National Economic Council and the National 
Security Council. As for Carol Browner, she is an extremely 
accomplished and capable leader; we have met and I'm confident that we 
will have a strong working relationship. However, the job of 
implementing a research agenda for the development of new coal 
technologies will be the responsibility of the Department that I will 
be honored to lead, if confirmed.
    Question 12. You have told me that science, not politics, should 
determine policy direction. Given that Ms. Browner will be closely 
advising the President from her position, ad has very limited 
background in science, I am concerned that the Obama Administration 
takes an opposing view from yours'--that politics will trump science. 
How will you prevent that from happening, and if does occur at anytime, 
what action will you take in response.
    Answer. President-elect Obama has made it clear that science will 
guide his decisions in many policy areas, including energy and climate. 
I am one of a group of scientists who have been selected by the 
President-elect to help lead this effort, and if confirmed, I will do 
my utmost as Secretary to advise him and help him to make decisions 
that reflect the best available science.
    Question 13. Given that you have little political experience, what 
assurances can you give the Committee that you have sufficient skills 
to successfully challenge the career politicians that will be 
``coordinating'' your work?
    Answer. If confirmed, I am confident that I will be able to work 
effectively with other members of the Administration in helping 
President-elect Obama to make decisions and implement his energy and 
climate change plans. As a long-time scientist and recent DOE 
laboratory director, I hope to be an effective leader of the Department 
of Energy and a constructive collaborator with others in Washington and 
across the country. I also expect to play a leadership role in any 
interagency deliberations about energy and climate policies.
    Question 14. Is corn-based ethanol a viable, affordable and 
sustainable resource to supplement America's transportation fuel needs? 
If not, should we shift investment/tax incentives away from corn based 
ethanol to other commodities?
    Answer. Corn-based ethanol is an important bridge technology in 
helping make America more energy independent, but if we are going to 
displace a large fraction of the oil we use for transportation, we will 
need to go beyond corn and begin to use other feedstocks. That's why 
President-elect Obama is committed to accelerating the transition to 
advanced biofuels. If confirmed, I am open to reviewing biofuels 
policies across the board in order to ensure that we have an effective 
set of policies in place to keep the bridge technologies intact and to 
expeditiously develop more advanced biofuels technologies.
    Question 15. Should Congress make changes to the renewable fuel 
standard? If so, what changes do you believe are appropriate?
    Answer. I have not yet had an opportunity to study the impacts of 
the renewable fuels standard, but if confirmed, I am open to reviewing 
biofuels policies to ensure that we have an effective framework in 
place.
    Question 16. Wyoming and many other western states have significant 
wind resources. The best areas for wind development are often found at 
great distances from large metropolitan areas and adequate transmission 
infrastructure. As a result, the ability to harness the wind and get it 
to market is limited. Will the economic stimulus proposal include 
incentives--tax incentives, loan guarantees, borrowing authority--that 
will encourage investment in building and modernizing our electricity 
transmission system? What role can/will you play in 1) arguing in favor 
of such incentives and 2) for moving forward investment in electric 
transmission construction for the nation's grid?
    Answer. I agree that fully exploiting wind and other renewables 
will require infrastructure improvements. Our transmission and 
distribution system is aging and in need of investment and 
modernization. The stimulus proposal can offer significant and timely 
opportunities to make investments in this area, and I will support such 
investments. In addition, we will need to encourage greater private 
investment in electric transmission by working towards new solutions to 
barriers posed by siting, cost allocation and other issues.
    Question 17. Energy independence goes hand in hand with economic 
and national security. We can eliminate our dependence on foreign oil 
by aggressively developing our oil shale resources. It is estimated 
that the three state region on Wyoming, Colorado and Utah holds more 
than 800 billion barrels of recoverable oil. Fully developing those 
reserves, combined with making more fuel efficient vehicles, would 
eliminate the daily transfer of billions of dollars to countries around 
the world. I believe that from a national security standpoint, 
developing this resource is critical. Do you agree? Please explain your 
position?
    Answer. I support a comprehensive national energy strategy that 
includes assessing the potential contributions of oil shale to the 
nation's energy mix and to national energy security. It is important 
that any future development of our nation's oil shale resources be done 
in a way that does not exacerbate our climate change problems or 
otherwise inflict severe environmental harm. Of course, many of the 
decisions affecting the future of oil shale in America will be driven 
by the price of oil and by the technical and economic judgments of 
private companies. In the case of leasing of shale formations on 
federal lands, the Department of the Interior will play a major role, 
but DOE should continue to provide leadership in assessing the state of 
oil shale technology, and in helping to understand the characteristics 
of the shale deposits and the environmental impacts of developing them.
         Responses of Steven Chu to Questions From Senator Burr
    Question 1. Dr. Chu, you are obviously a capable and well-qualified 
nominee for this post. What role do you see Ms. Browner, in the newly 
created White House position, having on the decisions and program 
implementation at DOE?
    Answer. I have met with Ms. Browner and look forward to working 
with her. Ms. Browner will play an important role in the coordination 
of policy across Federal agencies that work on energy and environmental 
issues--a function that reflects the fact that a number of federal 
departments and agencies will be working on the key energy-related 
challenges articulated by the President-elect. We have experience with 
this type of coordination, as we have seen with the National Security 
Council and the National Economic Council. Implementing programs at 
DOE, as well as running the organization, will of course remain the 
responsibility of DOE's leadership.
    Question 2. How can the US set up a dual-transmission 
infrastructure--one for renewables, one for ``traditional''--without 
setting ourselves up for more problems down the road? Doesn't a 
``smart'' transmission grid require us to look past the political and 
look to the practical? In other words, shouldn't we be smart about 
developing a smart grid?
    Answer. Our transmission and distribution system is aging and in 
need of investment and modernization. President-elect Obama has put 
forward a vision to stimulate major investment in our national utility 
grid, including smart metering, distributed storage and other advanced 
technologies to accommodate 21st century energy requirement. I agree 
that we need a well-thought-out approach, but done right, upgrading the 
grid will create jobs and result in greatly improved electric grid 
reliability and security, increased renewable generation and greater 
customer choice and energy affordability. If confirmed, I look forward 
to thoroughly reviewing all of DOE's efforts in this area and working 
with you on this important issue.
    Question 3. Do you support the decision to scale back the FutureGen 
program in favor of smaller test facilities? What is your view on the 
role of clean coal technology in addressing climate change?
    Answer. I am not familiar with the details of the Bush 
Administration's decision-making with respect to the FutureGen program. 
If confirmed, I will undertake a thorough review of the program, and do 
whatever I can to ensure that DOE moves forward in collaboratively 
testing the variety of technologies that hold promise for cleaner-
burning coal plants. More broadly, I believe that it must be a top 
priority of the Department to accelerate research and development of a 
range of carbon capture and storage technologies.
    Question 4. CCS will play an important role in a carbon-strained 
future. Do you support funding for more CCS demonstration projects? 
What funding structure do you envision?
    Answer. I share President-elect Obama's view that we need to 
aggressively pursue carbon capture and storage technology. We're going 
to need this technology here in the United States, and it's going to be 
needed in China, India and elsewhere around the world. I do believe 
that we need to test a variety of CCS technologies, but at this point, 
I am not in a position to offer specific plans regarding the optimal 
funding structure for doing so. Once confirmed, however, I look forward 
to working with you and with Congress as a whole to move forward on CCS 
technology development as swiftly as possible.
    Question 5. CCS projects also face above ground/below ground 
property rights issues with regard to the issuance of permits. What 
federal role do you see in the resolution of these issues?
    Answer. As I understand it, these issues are largely within the 
purview of the Environmental Protection Agency, which is working on 
draft rules for underground carbon dioxide injection. If confirmed, I 
will support the continued cooperation of DOE with EPA and others to 
develop the policies and procedures necessary to make CCS a safe and 
reliable long-term option for addressing carbon dioxide emissions.
    Question 6. Do you agree with me that, at least for the next 10-20 
years, we need to continue our development of traditional sources of 
energy--such as coal, oil, and natural gas--while working to develop 
the energy resources that will eventually replace them?
    Answer. There is no doubt that traditional fossil fuels will 
continue to represent major contributors to our nation's energy mix. 
Moreover, I believe we should accelerate the development of 
technologies that will enable us to use those resources more 
efficiently and with fewer emissions--to reduce costs, reduce 
dependence on imported oil, and cut our emissions of greenhouse gases.
    Question 7. How do you see a cap and trade market being designed? 
What cost-containment mechanism do you support? What role do you see 
international and domestic offsets playing?
    Answer. President-elect Obama believes that unchecked emissions of 
greenhouse gases and continuing climate change poses serious threats to 
our environment, our economy, and our security. As you know, he has 
proposed a cap-and-trade program to reduce greenhouse gas emissions, 
but the details of that program will not be developed until after the 
new Administration takes office. At that time, the issues of 
environmental targets and timetables, cost containment, offsets, 
linkages to other nations' commitments, and the many other program 
elements and options will be fully examined. The President-elect has 
said that he plans to work with Congress to develop an effective, bi-
partisan program. In the meantime, I believe there is much the 
Department of Energy can and should do to spearhead the development of 
energy efficient technologies that will help us meet our greenhouse gas 
reduction goals. The fastest and largest near-term reductions are 
through improvements in energy efficiency, something that I have worked 
on at LBNL, and which I hope to emphasize as Secretary if confirmed.
    Question 8. President-elect Obama is focusing much of his attention 
on the creation of green jobs as a way to stimulate the economy. Would 
you consider nuclear jobs as green jobs?
    Answer. Nuclear power currently accounts for 20 percent of U.S. 
electricity generation, more than 70 percent of U.S. zero-carbon 
electricity generation, and employs people in communities throughout 
the country. President-elect Obama has made it clear that he 
understands the contribution that nuclear energy makes to our economy, 
and that he believes it will be part of our energy mix into the future. 
Obviously, the construction of new nuclear power plants can provide 
many well-paying construction jobs. However, my understanding has been 
that the term ``green jobs'' applies mostly to those in energy 
efficiency and in the newer alternative energy industries, such as 
solar, wind, and geothermal energy, and advanced vehicle technologies 
and liquid fuels.
    Question 9. Loan guarantee program--It's my understanding that the 
Department is requiring a first lien on the entire project, and that 
this would preclude many utilities who have mortgages on their property 
from taking advantage of any loan guarantees. Would you support the DOE 
relaxing its position on this?
    Answer. If I am confirmed as the Secretary of Energy, I would 
examine the rules and regulations under the Title XVII Loan Guarantee 
Program, including the first lien issue, to determine if any 
modifications should be made. I look forward to sharing the results of 
such a review with you and your colleagues.
    Question 10. Loan guarantee program--I have read that a number of 
investor-owned utilities are having municipal and electric cooperative 
utilities as joint owners in some of these nuclear projects. It's my 
understanding that having a first lien on the entire project, even if 
the utility owns only a portion of the plant, might stymie the joint 
ownership arrangements with public power participants, because this 
would violate the bonds issued by the public power participants. Would 
you support the Department taking a lien on less than the entire 
project?
    Answer. Again, if I am confirmed as the Secretary of Energy, I 
would examine the rules and regulations governing the Title XVII Loan 
Guarantee Program to determine whether any modifications should be 
made.
        Responses of Steven Chu to Questions From Senator Corker
                             cap-and-trade
    Question 1. I think that putting a price on carbon would give us a 
good opportunity to implement a standard for energy technology and stop 
picking winners and losers. In April 2008, the Energy Information 
Administration released a detailed report, ``Federal Financial 
Interventions and Subsidies in Energy Markets 2007,'' regarding 
subsidies in energy markets. Would you and your team review that 
analysis and respond to the Committee regarding which subsidies could 
be eliminated under a cap-and-trade program or carbon tax,-and which 
ones you think should be maintained?
    What is your opinion of both international and domestic offsets in 
the context of a cap-and-trade program? If you support them, how big a 
role do you think they should play in a cap-and-trade program?
    Answer. While I am not familiar with the study that you cite, if 
confirmed I will certainly review it and respond to the Committee, as 
you request. With respect to offsets, President-elect Obama has 
proposed a cap-and-trade program to reduce greenhouse gas emissions, 
but the details of that program will not be developed until after the 
new Administration takes office. At that time, the issues of 
environmental targets and timetables, cost containment, offsets, 
linkages to other nations' commitments, and the many other program 
elements and options will be fully examined. The President-elect has 
said that he plans to work with Congress to develop an effective, bi-
partisan program.
                             national labs
    Question 2. I am concerned that there are some operational issues 
that are getting in the way of the Department's science mission. Will 
you commit to working with me and other committee members on an ongoing 
basis to find some creative solutions to some of these issues, and 
would you be open to including a pilot project at one or more of the 
national labs to test new ideas in areas like construction management 
and safety oversight?
    Answer. Improving operations at DOE is a key goal that I will 
pursue as Secretary if I am confirmed. As Director of the Lawrence 
Berkeley National Lab, I spent a significant amount of my time working 
to ensure that projects were delivered on time and on budget, and 
provided quality scientific research. If confirmed, I look forward to 
discussing ideas for improving DOE's operations and working with you 
and other members of the committee to find solutions.
                             pension plans
    Question 3. Members of the Coalition of Oak Ridge Retired Employees 
(CORRE) are deeply concerned about the benefits they receive compared 
to the benefits received by retirees at other DOE labs. Will you 
conduct a careful review of the benefit plans offered to retirees by 
the Oak Ridge DOE contractors, as well as those provided by other DOE 
contractors at other facilities and tell us if you believe there are 
inequities in those plans? If so, should they be addressed by the 
Department?
    Answer. If confirmed I would certainly be willing to request a 
review of the benefit plans provided to retirees at Oak Ridge and other 
DOE sites, and to examine the issue closely. As you are aware, this is 
not an issue that I have been previously involved in beyond the 
Berkeley Laboratory, so I do not currently have a view of whether there 
are inequities in the Oak Ridge plans. I would look forward to 
discussing the issue further with you after conducting a review.
                      general science and research
    Question 4. There is bipartisan consensus that our country needs to 
invest in applied research on known potential energy sources. What 
priority would you give to funding of basic research, which often 
provides the foundation for such important discoveries but may not 
result in energy breakthroughs for a number of years?
    In what specific areas of energy research is additional government 
investment most needed? Why are such investments important? How do we 
ensure adequate and stable government funding for these areas of 
highest priority?
    Answer. I believe that both basic and applied energy research must 
be strengthened at DOE, and directed towards the goal of producing 
energy technologies that improve our energy security and help us meet 
the climate change challenge. As Director of the Lawrence Berkeley 
National Laboratory, I have challenged some of the best scientists to 
turn their attention to our energy and climate change problems and to 
bridge the gap between the mission-oriented science that the Office of 
Science does so well and the type of applied research that leads to 
energy innovation. I have also worked to partner with academia and 
industry. I know that these efforts are working, and I want to extend 
this approach throughout DOE's network of national science 
laboratories. Once confirmed, I will more closely examine the research 
agenda of the Department, and I look forward to discussing with you in 
greater detail the issue of research priorities and funding streams.
        Responses of Steven Chu to Questions From Senator Dorgan
           fossil fuels and carbon capture and storage issues
    Question 1. What will be your stance on promoting and developing 
clean coal technologies? How will the Department of Energy, under your 
direction, continue to invest in carbon capture and sequestration 
research? What role do you think that CCS will play in decarbonizing 
fossil fuels? Beyond coal, how should we be incorporating opportunities 
to incorporate CCS opportunities in the economy?
    Answer. I share President-elect Obama's view that we need to 
aggressively pursue carbon capture and storage technology. We're going 
to need this technology here in the United States, and it's going to be 
needed in China, India and elsewhere around the world. I know that this 
committee has taken a strong interest in CCS. Both the President-elect 
and I agree that coal is a vital energy resource for our country. As 
you know coal currently provides fifty percent of our electricity, and 
we have enormous coal reserves that can provide power long into the 
future. At the same time, coal-fired power plants are the largest 
contributor to U.S. greenhouse gas emissions, and a growing source of 
global emissions. That's why, if confirmed, I look forward to working 
this committee and Congress as a whole to move forward on CCS 
technology as swiftly as possible.
accelerated research, development, demonstration and deployment in the 
                       federal government issues
    Question 2. There is considerable evidence that many innovative 
ideas on dealing with energy and greenhouse gas emissions reduction 
have stalled between applied research/pilot projects and the first two 
or three commercial sized projects. Many have referred to this 
proverbial problem as the ``Valley of Death''. What do you see as the 
Department's role in promoting early commercialization of new energy 
projects? If you think the Department should be more involved, how do 
you propose to implement a strategy, including moving more quickly in 
the Title XVII Loan Guarantee Program?
    Answer. As director of the Lawrence Berkeley National Laboratory I 
have challenged some of the best scientists there to address our 
Nation's energy and climate change problems by bridging the gap between 
the mission-oriented science that the Office of Science does so well 
and the applied research that leads to energy innovation. 
Commercialization is the end of this process, and so I have also worked 
to partner the research community with industry. If confirmed, I will 
encourage this approach in all 17 of the Department's national 
laboratories, and I will commit to better focus and integrate our 
research efforts and to better utilize the tools Congress gave the 
Department in the Energy Policy Act of 2005, including the Technology 
Transfer provisions in Title X and the Loan Guarantee program 
authorized in Title XVII.
                            biofuels issues
    Question 3. If the United States is going to produce 36 billion 
gallons of renewable biofuel by 2022, what policies do you think need 
to be in place to make sure we get there? Would those policies include 
moving to higher level blends of ethanol, such as E15 or E20? What 
steps would we need to take to make that happen?
    Answer. Increasing production of home-grown biofuels is an 
important element of President-Elect Obama's strategy to reduce 
dependence on foreign oil and reduce greenhouse gas emissions. The plan 
includes includes a number of policies and measures to help us achieve 
this goal, including research funding for cellulosic and other advanced 
biofuels; incentives to expand ethanol infrastructure; incentives to 
encourage the commercialization of advanced biofuels technologies; and 
a national ``low-carbon fuel standard'' to spur low-carbon fuels. 
Looking at higher blends is something that I am interested in doing. If 
confirmed, I pledge to work to implement these policies, building on 
the strong base that this committee has helped to put in place.
                 renewable and energy efficiency issues
    Question 4. In May, the Department of Energy released a report 
saying that we can get to 20% of our electricity from wind by 2030. How 
do you plan to use the resources of the Department of Energy to help 
make that vision more of a reality?
    In addition, other renewable resources would benefit from a similar 
analysis to see what their potential is in the same time frame. 
Ideally, the same analysis would be done for each renewable technology 
and then integrated to see what our nation's renewable resource 
potential is over the next couple of decades. Is this an idea that you 
support and would implement at the Department?
    Answer. As we have discussed, wind has enormous potential. The most 
important policies that we need to put in place are a long-term signal 
to investors, and policies to accelerate the development of new 
transmission capacity. With respect to other renewables, I agree that a 
resource assessment makes a great deal of sense, and if confirmed, I 
would be happy to look into ways the Department could help to 
accomplish this goal.
    Question 5. The Department of Energy has been a leader in federal 
energy efficiency and the Energy Savings Performance Contracts (ESPC) 
have contributed significantly to the progress federal agencies have 
made. I understand that there are many projects in the pipeline today 
that are currently ``on hold'' and facing potential further delays due 
to an issue with the contract ceilings. Agencies and industry have 
already invested substantial time and effort to get these projects 
completed. How can DOE expedite moving those projects?
    Answer. Energy efficiency is the cheapest energy resource that we 
have. It will be a high priority for me if I am confirmed, starting 
with the Federal Government, which is the world's largest single 
consumer of energy. In addition, President-elect Obama recently set new 
goals for building efficiency within the federal government. I am not 
familiar with the reasons for the delays in completing the Energy 
Savings Performance Contracts that you cite, but if confirmed will 
certainly work with you to address this important issue.
                      transportation policy issues
    Question 6. We are trying to accelerate the use of electric drive 
vehicles like plug in hybrids and hydrogen fuel cells. We are also 
looking at natural gas for other sectors and are attempting to expand 
the use of biofuels (intermediate blends and E85). Although each of 
these technologies has been looked at independently, is it time to put 
together a roadmap for how these advanced technologies could be 
integrated together to change our transportation markets and 
infrastructure? Do you have ideas on a more integrated policy approach 
so that all of these vehicles can play a role in our transportation 
future?
    Answer. President-elect Obama is committed to creating new research 
and development programs to accelerate innovation in our transportation 
options, including advance technologies for batteries, fuels and 
vehicles. I agree that integration of these technologies is essential, 
and developing an appropriate roadmap makes good sense. If confirmed, I 
pledge to work with Congress and other members of the Administration to 
work on this critical issue.
                          nuclear power issues
    Question 7. Throughout the campaign, President-elect Obama asserted 
that since Congress was debating the negative impact of CO<INF>2</INF> 
emissions ``on the global ecosystem, it is reasonable--and realistic--
for nuclear power to remain on the table for consideration.''
    In his New Energy for America speech, the President elect said: 
``Nuclear power represents more than 70 percent of our non-carbon 
generated electricity. It is unlikely that we can meet our aggressive 
climate goals if we eliminate nuclear power as an option. However, 
before an expansion of nuclear power is considered, key issues must be 
addressed including: security of nuclear fuel and waste, waste storage, 
and proliferation.''
    Do you agree with the President elect that nuclear energy is part 
of the solution in achieving our climate goals? If so, what is your 
plan to dispose of spent nuclear reactor fuel at the current waste 
repository, in dry casks on site or through other means?
    Answer. We are going to need a range of low-carbon energy 
technologies to meet the global warming challenge. Today, nuclear power 
currently accounts for 20 percent of U.S. electricity generation, and 
more than 70 percent of U.S. zero-carbon electricity generation. For 
those reasons, President-elect Obama has said made it clear that he 
understands the contribution that nuclear energy makes to our economy, 
and that he believes it will be part of our energy mix into the future. 
As we move forward with nuclear power, President-elect Obama believes 
that we need to resolve issues around waste management, proliferation. 
In addition, industry, as well as state utility commissions, will play 
a major role in determining whether investments in new nuclear plants 
are economical in the future. In addition, we must work to ensure that 
the waste stored at current reactor sites is contained using the most 
advanced dry-cask storage technology available and is adequately 
secured. These issues will be a priority for me, if I am confirmed.
                        indian affairs questions
    Question 8. North Dakota has the greatest wind generation potential 
in the country, and North Dakota's Indian tribes are interested in 
developing wind generation. The Department of Energy's Western Area 
Power Authority (WAPA) has the transmission infrastructure to carry 
North Dakota wind generation to energy markets, but WAPA has been slow 
to provide transmission space and develop interconnection for Indian 
tribes and renewable energy. What direction will you provide WAPA to 
ensure that we can tap into the great potential of this wind resource 
and provide Indian tribes with needed opportunities for energy and 
economic development?
    Answer. I recognize the importance of the role the federal 
government can play in working with Indian tribes in renewable energy 
development. While I am not familiar with the details regarding WAPA's 
dealings in the instances you cite, I believe that WAPA and other power 
marketing associations should be leading the way when it comes to 
renewable electricity. If confirmed, I will look more closely at this 
important issue.
    Question 9. The Energy Policy Act of 2005, Title V, Indian Energy, 
created two Indian energy offices. One office within the Department of 
the Interior (DOI) and the other with the Department of Energy (DOE). 
DOI's office is now known around Indian country as a fantastic source 
for technological resources and funding for tribes to start tribal 
energy projects. On the other hand, it took two years for DOE to select 
a director for its office. This office remains so unsupported that it 
does not provide the services Congress wrote into its authorizing law. 
Congress authorized DOE's Indian energy office to support to Indian 
tribes in energy planning, energy efficiency, and carbon sequestration 
opportunities on reservations. How will you promote DOE's Indian energy 
office so that it can become effective in supporting energy activities 
on Indian reservations?
    Answer. I recognize the importance of the role the federal 
government can play in working with Indian tribes in renewable energy 
development. While I am not familiar with the details regarding DOE's 
Indian energy office, I agree that DOE should work with Indian Tribes 
to maximize opportunities in clean energy. If confirmed, I will look 
more closely at this important issue.
       Responses of Steven Chu to Questions From Senator Menendez
    Question 1. As you are aware, basic research such as fusion science 
serves as the foundation for important energy breakthroughs that will 
lead to the future of energy production. In my state, the Princeton 
Plasma Physics Laboratory is working on the type of transformational 
science that will be necessary to meet the long-term challenges of our 
world's future climate and energy needs. Could you please explain what 
you see as the role of fusion science in the nation's energy research 
portfolio, particularly in light of the apparent worldwide interest in 
this field, as demonstrated through the seven nation commitment to the 
international ITER project?
    Answer. Fusion science research, such as that conducted at the 
Princeton Plasma Physics Laboratory, is important because fusion power 
systems hold the potential to produce abundant energy without producing 
long-lived nuclear wastes or greenhouse gases. I look forward to 
working with closely with you on fusion science research issues if I am 
confirmed.
    Question 2. The Department of Energy has designated the entire 
state of New Jersey as part of a National Interest Electricity 
Transmission Corridor. The designation was the result of a subpar 
congestion study. On the West Coast the DOE produced a transmission 
line-by transmission line study of congestion which resulted in a 
narrow, targeted transmission corridor. The Mid-Atlantic transmission 
corridor covers all or part of 8 states and the District of Columbia 
and has been characterized by some state regulators as setting up a 
``superhighway to coal electricity.'' As the DOE updates their 
congestion studies will you ensure that they are accurate on a 
transmission line-by-transmission line basis? And if the study shows it 
appropriate, will you be willing to narrow the Mid-Atlantic 
transmission corridor?
    Answer. Our transmission and distribution system is aging and in 
need of investment and modernization. President-elect Obama has put 
forward a vision to stimulate major investment in our national utility 
grid. Siting new transmission lines is a key component of this effort, 
and striking the right balance between local, state and federal 
authorities and interests is paramount. At this point, I do not have a 
view on the balance struck in EPACT 2005 with respect to the 
designation of National Interest Electricity Transmission Corridors, 
but if confirmed, as I said in by testimony before the Committee, I 
will review the new study and if appropriate certainly consider 
adjustments to the Mid-Atlantic corridor. I look forward to thoroughly 
reviewing this critical issue and working with you on it.
       Responses of Steven Chu to Questions From Senator Sessions
    You have stated a need for and support the implementation of a cap 
and trade program in the United States to limit greenhouse gas 
emissions, which will associate a cost with the amount emitted. 
However, recently a growing number of scientists are questioning how 
quickly the warming is happening and whether humans are actually the 
leading cause. They are worried that people are too focused on carbon 
dioxide as the culprit. Recent warning has stopped since 998, and they 
want to stop measures that will hurt our already spiraling downward 
economy. More than 31,000 scientists across the world have signed the 
Global Warming Petition Project, a declaration started by a group of 
American scientists that states man's impact on climate change can't be 
reasonably proven.
    Question 1. If you are confirmed to be the Secretary of the 
Department of Energy, will you treat with respect those who raise 
questions about global warming and have minority views on this 
important issue?
    Answer. Consistent with one of the important elements of the 
scientific method, scientists are always challenging the prevailing 
view, looking for weak spots and places where new discoveries can lead 
to breakthroughs or even can overturn entire paradigms. I respect that 
scientific process, and always approach new information with an open 
mind. That said, the state of climate science continues to improve 
steadily, and the weight of international scientific opinion continues 
to favor heavily the conclusion that human activities are, in fact, 
causing fundamental changes in Earth's climate.
    Question 2. A desire to transition away from our current energy mix 
and towards lower carbon energy sources, while incredibly important, is 
also very expensive. If you are confirmed to be the Secretary of the 
Department of Energy, what will have a higher priority for you capping 
green house gas emissions or the certainty of higher costs to our 
already struggling economy?
    Answer. President-elect Obama believes that unchecked emissions and 
continuing climate change poses serious threats to our environment, our 
economy, and our security. There is no question that doing nothing 
about climate change risks imposing huge new costs on our economy and 
our citizens. At the same time, however, it is essential that we 
develop market-based systems (such as a cap-and-trade program) for 
reducing greenhouse gas emissions, in order to minimize costs. But one 
of the most promising ways to meet both our climate change and energy 
goals without harming consumers is to develop the next generation of 
technologies that will enable us to transform the way we produce and 
use energy in America. I believe that R&D and other policies to promote 
efficiency and renewables will dramatically reduce the costs of 
controlling climate-changing emissions. In addition, they will help 
eliminate the threat to American families from the recurring energy 
price shocks that our current dependence on imported oil have caused. 
If confirmed, I look forward to helping to lead that effort.
        Responses of Steven Chu to Questions From Senator Wyden
                tribal energy and trust responsibilities
    Question 1. Section 502 of the Energy Policy Act of 2005 created a 
new Office of Indian Energy Policy and Programs to promote energy 
planning, management, education, and infrastructure development on 
Tribal lands. In addition, the Federal Government has broad trust and 
treaty responsibilities with regard to Indian Tribes. In the Northwest, 
there are a number of Department activities that impact, or have the 
potential to impact, Tribal interests ranging from the clean-up of the 
Hanford Reservation to operation of the Bonneville Power Administration 
under the Northwest Power Act. If confirmed, what steps will you take 
to ensure that the Department consults with the Tribes on critical 
issues, such as impacts of these activities on salmon, and meets its 
obligations to them?
    Answer. I recognize the importance of the Department's obligations 
to federally recognized Indian Tribes. Just as important, I am aware 
that many tribes have significant energy resources within their 
reservations, and want to work to develop them in ways that work for 
the tribe's economic development and to help meet our nation's energy 
challenges. Both of these situations create new opportunities for 
working together in the future. The missions of the Office of Indian 
Energy Policy and Programs and the Office of Environmental Management 
(``EM'') have been focal points for these efforts within the 
Department, and there may well the need to develop strong ties in the 
future. If confirmed, I will work to improve the relationship between 
the Department and Indian Tribes, and to examine related programs 
within the context of an overall review of the Department's budget.
                  balanced renewable energy portfolio
    Question 2. Under the Bush Administration whole sectors of energy 
technology and energy management were essentially discarded as 
immaterial to solving our Nation's energy problems--geothermal was 
zeroed out. Hydroelectric technology funding, including wave energy and 
tidal energy, was zeroed out. While funding was provided for ethanol 
research, very little was provided for advanced biofuels or direct 
biomass utilization technologies. The industrial efficiency program was 
almost completely eliminated. And, almost nothing was spent on energy 
storage technologies--a valuable tool for both grid management and for 
maximizing the benefits of intermittent renewable energy generation 
technologies. Would you agree that we need a broad portfolio of green 
energy technologies and would you commit to resuscitating these 
previously underfunded programs, so that we truly have a balanced 
portfolio of energy technologies?
    Answer. Yes, I believe that we must step on the accelerator on a 
wide range of renewable energy research, development, and deployment to 
the marketplace. That includes things like solar, wind, hydrogen, 
biomass, hydro and others. Advances in biofuels, including cellulosic 
ethanol, biobutenol and other new technologies that produce synthetic 
petroleum from sustainable feedstocks offer tremendous potential to 
break our addition to oil. DOE has a major role to play. DOE supports 
research in a number of scientific disciplines that are relevant for 
renewable energy. Many, but certainly not all of these research efforts 
take place at the National Research Energy Lab. My own former 
laboratory, Lawrence Berkeley Lab, for example, also does research on 
renewable energy issues. The range of research sponsored by DOE is 
large--from support for research on materials, to development of 
software systems for integration of renewables into the grid, to 
research on bioenergy systems, and so forth. DOE is the premier sponsor 
of research on renewable energy in the U.S., and if confirmed, it will 
be my goal to make these programs not just bigger, but more effective 
in harnessing the scientific talent we have across the country to 
develop energy solutions and help get them into the marketplace more 
quickly.
                 renewable energy resource assessments
    Question 3. In addition to policy support, the Department of Energy 
has supported resource assessments and promoted growth targets for 
other renewables, most recently the 20% by 2030 wind report. Such 
reports are critical components to promoting the potential of renewable 
energy industries to the public and policymakers alike. Other 
technologies, such as hydropower's growth potential, are not as well 
documented by the Department. Would you support the development of a 
similar report for the hydropower industry that includes conventional 
hydropower, and new ocean, tidal and in-stream hydrokinetic 
technologies?
    Answer. I agree that there is substantial untapped potential in 
these other renewable technologies that needs to be explored. A formal 
resource assessment makes a great deal of sense, and if confirmed, I 
would be happy to look into ways the Department might achieve them.
                            loan guarantees
    Question 4. During your confirmation hearing a number of Senators 
urged you to expedite the loan guarantee program established in Title 
XVII of the Energy Policy Act of 2005. While the loan guarantee program 
has had some very strong supporters on this committee, and I think it 
is fair to say that I am not among them. Since the program is with us, 
however, there are two principles I think we should insist that it 
observe. The first is objectivity, fairness, and transparency. I think 
it is essential that DOE ensure that in awarding guarantees, it will 
adhere to clear, objective decision-making criteria and establish a 
selection process that is transparent and fully documented. This has 
not been the case to date. Some technologies were deliberately excluded 
from the first round solicitation and DOE refused to provide any 
documentation of its ranking methodology or any explanation of how it 
selected the finalists. The second basic principle is fiscal prudence. 
We are in challenging economic times. DOE needs to make sure that they 
do not become more challenging because of guarantees awarded to 
projects and applicants that are not creditworthy. Some of the 
guarantees under consideration are in the billions of dollars, and DOE 
could readily add to our expanding deficits by guaranteeing projects 
that present a significant risk of default. Would you commit to 
observing these principles and administer a loan guarantee program that 
is fair, transparent, and fiscally sound?
    Answer. President-elect Obama has made transparency a key objective 
of his Administration. If I am confirmed, I will work to make the 
program effective, objective, fair, transparent and prudent.
                              lng exports
    Question 5. Pursuant to Section 3 of the Natural Gas Act, the 
Secretary of Energy is obligated to approve the export and import of 
natural gas. On June 30, 2008 and July 30, 2008 respectively, the 
Department issued and affirmed an order to allow two major integrated 
oil companies--ConocoPhillips and Marathon Oil--to export liquefied 
natural gas (LNG) from Alaska to Japan notwithstanding warnings from 
the Department's Energy Information Administration that American's were 
going to pay dramatically higher heating bills in the lower-48 states 
and that key natural gas customers in Alaska did not have an assured 
supply of gas. Given the facts in the case, I do not understand how the 
Department arrived at its decision that the proposed exports were in 
the public interest and wrote to Secretary Bodman asking him to review 
the decision, a request he never responded to. How would you interpret 
the public interest standard required for natural gas exports?
    Answer. I am not familiar with the details of this particular case, 
but I recognize that decisions affecting domestic natural gas supplies 
are critically important. If confirmed, I will acquaint myself with 
this issue, and will work with you to ensure that the Department makes 
careful decisions under the law that you cite.
                             spr expansion
    Question 6. In the name of energy security, the Bush Administration 
has proposed to double the size of the Strategic Petroleum Reserve to 
1.5 billion barrels at a cost of upwards of $10 billion in capital 
costs and billions of dollars more for the oil to fill it. This 
considerable investment will not leave the United States any less 
dependent on imported oil for its daily energy needs, nor will it 
reduce our oil requirements by a single drop. What is your position on 
expanding the size of the Reserve beyond the current 727 billion 
barrels? What is your position on continuing the Bush Administration's 
program to expand the reserve to 1.5 billion barrels?
    Answer. Although I do not know the program in detail, I understand 
that Congress directed the DOE to expand the SPR to 1 billion gallons. 
DOE recently took steps to move in this direction. I believe that the 
SPR does provide an important safeguard against disruptions in oil 
supply, but also believe that management of the SPR, like many other 
programs, can be improved. If confirmed, I will review SPR policies 
with a goal of making the program more flexible, more effective and 
less costly.
                               energystar
    Question 7. The EnergyStar program has been an enormously 
successful program under which the Energy Department and the U.S. 
Environmental Protection Agency work with the private sector and energy 
experts in developing voluntary energy efficiency standards for a wide 
variety of consumer products. These standards enable consumers of all 
kinds to rely upon these standards in their purchasing decisions and 
have resulted in substantial energy savings. However, EnergyStar 
standards only measure direct energy use of the product. They do not 
take into account the lifecycle energy use of manufacturing and use, 
nor do they take into account other environmental impacts such as green 
house gas production. As a result, the current approach to EnergyStar 
standards may result in certification of products and corresponding 
consumer purchasing decisions that do not result in the best overall 
national energy or environmental outcome. If confirmed, would you 
support a reexamination of the EnergyStar standards formulation 
process, or a pilot program, that would take into account lifecycle 
energy and climate impacts?
    Answer. President-elect Obama has made clear his support for clean 
and efficient energy production and use, and for aggressive greenhouse-
gas reduction goals. The EnergyStar program certainly plays an 
important role in guiding consumer purchasing decisions in directions 
that support those goals. If confirmed, I will review the program with 
attention to an examination of the issues involved in incorporating 
lifecycle energy and climate impacts.
       Responses of Steven Chu to Questions From Senator Bunning
                                  ctl
    Question 1. In your testimony you state that we must make a greater 
commitment to achieving energy independence. I, too, share this goal 
and believe that coal can play a vital role in achieving this through 
the development of coal-to-liquid fuels technology. Through the use of 
clean coal initiatives and the Department of Energy's loan guarantee 
program, we have the opportunity to create American jobs, cut our 
dependence on Middle East Oil and substantially reduce emissions. As 
the Secretary of Energy will you continue to support this DOE loan 
guarantee program as well as efforts to utilize clean coal initiatives, 
such as coal-to-liquid fuels, to achieve energy independence?
    Answer. I believe that we can and should pursue energy policies and 
technologies that advance both our energy security and climate change 
goals. I also believe that the loan guarantee program can help 
accelerate the development of new energy facilities and technologies 
that can contribute to meeting some of our national goals. I also 
support further research and development into technologies that can 
help us use our vast coal reserves in new, more efficient, and less-
polluting ways. The objective of coal-to-liquids R&D should be to 
develop technology that is superior to conventional gasoline in terms 
of life-cycle greenhouse gas emissions.
                         coal-fired electricity
    Question 2. Mr. Chu, in the past you have described coal as your 
worst nightmare despite the fact that coal keeps more than half of all 
Americans' utility costs at an affordable rate. As Secretary of Energy, 
will you support coat-fired electric generation and the construction of 
new coal-fired plants as a means to provide reliable, cost-effective 
electricity for the American people?
    Answer. Coal is a vital energy resource for our country. Coal 
currently provides fifty percent of our electricity, and we have 
enormous coal reserves that ensure that coal will be part of our energy 
mix into the future. At the same time, coal-fired power plants are the 
largest contributor to U.S. greenhouse gas emissions, and a growing 
source of global emissions. That's why I share President-elect Obama's 
view that we need to aggressively pursue carbon capture and storage 
technology. We're going to need this technology here in the United 
States, and it's going to be needed in China, India and elsewhere 
around the world. If confirmed, I look forward to working you and with 
Congress as a whole to advance CCS technology as swiftly as possible.
                       putting a price on carbon
    Question 3. In the past you have supported efforts to put a price 
on carbon emissions whether it be through a carbon tax or cap and trade 
legislation. As we have seen in Europe and elsewhere, cap and trade 
legislation or carbon taxes do little to reduce actual carbon emissions 
and resulted in higher emissions and higher utility prices for 
consumers. Do you believe that increased development of carbon capture 
and sequestration technologies is a more reliable way to achieve 
effective CO<INF>2</INF> management while ensuring that American 
families will not bear the burden of increased energy costs?
    Answer. I believe that a cap-and-trade program, which President-
elect Obama has endorsed, and carbon capture and sequestration 
technologies, which he also supports, are complimentary. As the 
President-elect has said, we must rapidly develop the technologies that 
will enable us to use our vast coal reserves in more efficient and 
environmentally benign ways. A cap-and-trade program can provide 
incentives to move in this direction. By combining the use of such 
technologies with new policies to develop renewable energy sources and 
to cut energy waste, we can achieve our energy and climate goals. And 
we can do so using market-based systems that do not impose costly 
burdens on consumers and businesses.
                         nuclear energy cleanup
    Question 4. Mr. Chu as you may know my state is home to the only 
operating nuclear enrichment plant in Paducah, Kentucky as well as a 
large stock pile of depleted uranium. Do you support recycling spent 
nuclear fuel as a means to meet our obligations in the Nuclear Waste 
Policy Act? Also, do you believe that the communities that are home to 
this nuclear waste should play a role in deciding what will be done 
with it?
    Answer. I believe that we should conduct R&D into technologies to 
reduce and recycle nuclear waste. However, I share the President-
elect's view that in doing so, we must not compromise our non-
proliferation or safety objectives. I also believe that all 
stakeholders should be allowed the opportunity to offer opinions about 
waste management options.
       Responses of Steven Chu to Questions From Senator Cantwell
                            hanford cleanup
    Hanford, the most contaminated radioactive waste site in the 
Western hemisphere, is a constant challenge for us in the Pacific 
Northwest. Unfortunately it has also been the source of constant 
friction with DOE, because for decades the Department failed to meet 
its legal obligations to clean up Hanford, threatening the health and 
well-being of citizens of central Washington.
    I know better than most that Hanford is not a glamorous issue, but 
that does not mean it's any less urgent. Hanford cleanup accounts for 
almost 10 percent of DOE'S entire budget, so I hope that, in notable 
contrast to your predecessors, you will commit as Secretary to turn the 
page on years of broken DOE promises and ensure that the DOE finally 
lives up to its responsibility at Hanford.
    The most urgent threat to human health and the environment at 
Hanford are the 53 million gallons of radioactive waste stored in 177 
underground tanks--67 of which have been confirmed to have leaked and 
are reaching groundwater and moving toward the Columbia River.
    If all the tank waste is not contained and eventually reaches the 
river, this would be catastrophic and could eliminate the ability to 
use Columbia River water for fish or drinking water.
    Over the last 8 years, the Bush Administration has failed to live 
up to its legal obligations to fund a safe and timely clean up as 
mandated by the Tri-Party Agreement between the state of Washington, 
the Department of Energy, and the Environmental Protection Agency.
    With the Department of Energy missing major tank waste cleanup and 
Waste Treatment Plant milestones in the last two years and with no hope 
of timely compliance, the Columbia River is becoming even more 
threatened by the potential for a catastrophic and irretrievable 
radioactive leak.
    There are 149 single shelled tanks, each of which is beyond its 
design life by as many as 30 years, unless we retrieve the remaining 
tank waste more expeditiously, we could have a catastrophic radioactive 
leak into the Columbia River as soon as thirty-years from now.
    However, this thirty-year estimate is not even certain because DOE 
hasn't made the necessary investments in analyzing the groundwater 
contamination or tank waste leakage.
    The state of Washington believes that this catastrophic event is 
more likely to be avoided with a commitment to retrieve 20 single shell 
tanks by the time the Waste Treatment Plant if fully operational by 
2019, and accelerated cleanup of contaminated groundwater to protect 
the Columbia River and restore the groundwater to beneficial use.
    The state of Washington recently came close to an agreement with 
DOE to revise the cleanup milestones and reinvest in DOE'S commitment 
at Hanford. Unfortunately the agreement that the state worked out with 
Secretary Bodman fell through in part because the Department of Justice 
would not support it. Now the state has announced that it is suing DOE 
to force it to meet the cleanup milestones.
    Question 1a. Do you support the principles articulated in the Tri-
Party Agreement, especially including the requirement that the tank 
waste must be 99 percent retrieved to prevent further groundwater 
contamination?
    Answer. I support the principles of the Tri-Party Agreement 
including the prevention of further groundwater contamination. As to 
the detailed provisions of the Agreement, I will conduct a thorough 
review once I am confirmed, and pledge to work closely with you on this 
issue.
    Question 1b. If the threat to the Columbia River could be resolved 
with increased Hanford funding of $2 billion over the next four years, 
which could be part of the stimulus package to create thousands of 
jobs, would you support it?
    Answer. I cannot comment on the specifics of potential stimulus 
legislation at this time, but I certainly appreciate the importance of 
having the necessary funding available to move forward with the cleanup 
at Hanford. If confirmed, I know that you and I will be working closely 
on this matter.
    Question 1c. Can you also, like Secretary Bodman, commit to resolve 
the state's lawsuit and agree to a legally enforceable cleanup schedule 
to ensure no additional delays and missed milestones?
    Answer. I am committed to work with the U.S. Department of Justice, 
Washington State, and EPA in an effort to resolve outstanding issues 
regarding Hanford cleanup.
    Question 1d. What is your plan to get the Department of Justice to 
agree to the necessary concessions to meet the cleanup milestones of 
the Tri-Party Agreement?
    Answer. My staff and I will work with our counterparts at the 
Department of Justice to address the outstanding issues with Washington 
State.
    Question 1e. What will you do to turn the page on years of broken 
DOE promises and ensure that the DOE finally lives up to its 
responsibility at Hanford?
    Answer. DOE will work with Washington State and EPA to establish 
achievable enforceable milestones and then work towards achieving those 
goals.
                        bpa borrowing authority
    The Bonneville Power Administration owns 70 percent of the grid in 
the Pacific Northwest. Having such a vital resource in public, non-
profit ownership has been a boon to our economy and enabled us to 
utilize our abundant and emissions free hydropower.
    However, future demand growth and the need to accommodate vast new 
wind farms threaten to overwhelm BPA's current infrastructure and its 
ability to meet national reliability standards.
    A timely increase in BPA's borrowing authority is needed to 
maintain the value of BPA's existing systems and to add new 
transmission capacity and smart grid technologies to meet regional load 
growth and a more diverse array of energy sources.
    Increasing BPA's borrowing authority, unlike many proposed stimulus 
measures, will have virtually no long term cost to taxpayers given 
BPA's 25-year record of making its annual payments, with interest, to 
the U.S. Treasury.
    Providing BPA access to capital unavailable on today's frozen 
credit markets will immediately stimulate the economy by allowing 4,700 
megawatts of new renewable resources to come online in the next two 
years and helping create an estimated 50,000 direct and ancillary green 
jobs. Green power means green jobs, construction jobs and economic 
multiplier spinoffs that benefit local communities.
    During this time of serious economic challenge, it is important 
that an economic stimulus package provide a high return on job creation 
and also move our nation toward a cleaner energy future. This is why 
now is the time to make the long neglected investments necessary in our 
nation's electricity grid to increase its efficiency and reliability 
and to meet future demand growth by integrating more renewable and 
distributed sources of energy.
    Question 2. Will you support efforts to increase BPA's borrowing 
authority by $5 billion in the stimulus package, which we note will all 
be paid back to the U.S. Treasury?
    Answer. As I stated in my testimony before the Committee, I do 
support efforts to increase BPA's borrowing authority. I look forward 
to working with you on this important issue.

        Responses of Steven Chu to Questions From Senator DeMint
                             nuclear energy
    Question 1. Do you believe nuclear energy can play a valuable role 
in reducing greenhouse gas emissions?
    Answer. Today, nuclear power accounts for 20 percent of U.S. 
electricity generation, and more than 70 percent of U.S. zero-carbon 
electricity generation. Certainly, it will be part of our energy mix, 
and contribute to meeting our climate change goals, into the future.
    Question 2. Recently you signed a report titled, ``A Sustainable 
Energy Future: An Essential Role of Nuclear Energy,'' that you and nine 
other national laboratory directors sent to Secretary Bodman? Do you 
still support the report's findings and recommendations? If not, what 
specific recommendations do you oppose?
    Answer. I agree with President-elect Obama's views on nuclear 
power. He has made it clear that he understands the contribution that 
nuclear energy makes to our economy, and that he believes it will be 
part of our energy mix into the future. The President-elect supports 
license extensions for plants that meet NRC standards, and will support 
continued R&D into improved waste reduction and safety advances. 
President-elect Obama has also stated that he does not believe that 
Yucca Mountain is a workable option for the permanent disposal of spent 
fuel, but has pledged to work towards resolving issues around waste 
management, proliferation. These views are in line with many of the 
recommendations in the report that you cite.
    Question 3. The report said that expanding the use of nuclear 
energy is essential for establishing a sustainable energy future. Do 
you agree?
    Answer. President-elect Obama has said repeatedly that he 
understands the contribution that nuclear energy makes to our economy. 
The Energy Policy Act of 2005 provides a number of incentives for 
nuclear power, and the Nuclear Regulatory Commission has seen a 
resurgence of applications from utilities. If confirmed, I pledge to 
work to implement those EPAct incentives effectively, including the 
loan guarantee program, and also to support a research effort to 
improve recycling and proliferation-resistant technologies.
    Question 4. On page 6 of this report, it states ... ``The 
disposition of used nuclear fuel must be considered from both a short-
and long-term perspective. Confidence regarding the disposal of waste 
is needed before the NRC will grant a license for a new plant and 
before private investors will accept the financial risk of ordering ne 
nuclear plants. In the short term, this confidence can be achieved by 
continuing the licensing of a geologic repository at Yucca Mountain and 
enabling the continued interim storage of used fuel in dry casks and 
fuel pools. Do you support the license application for Yucca Mountain 
that is before the Nuclear Regulatory Commission?
    Answer. President-elect Obama has stated that he does not believe 
that Yucca Mountain is a workable option for the permanent disposal of 
spent fuel. At the same time, he understands the concerns about some 
current storage arrangements for the waste. Fortunately, the NRC has 
affirmed the safety of dry cask storage, but I believe DOE should 
support research into additional means for assuring the long-term, 
safe, and cost-effective transportation and storage of waste, as well 
as into proliferation-resistant techniques for waste reduction. If 
confirmed, I will work with Congress, the nuclear power industry, and 
other stakeholders to address these important issues with objective, 
scientific analysis and with other important considerations including 
cost and technical issues.
    Question 5. If not, why not? And if not, then what in you view is 
the likely impact of not licensing Yucca Mountain have on the 
confidence of regulators and investors in going forward with plans for 
new nuclear plants?
    Answer. Again, the President-Elect has provided clear guidance that 
Yucca Mountain is not a workable option for the permanent disposal of 
spent fuel. The utility industry has made clear that, while it would 
prefer to see the Yucca Mountain Project go forward, it does plan to 
proceed with building new nuclear plants regardless of the lack of a 
permanent disposal site. In fact, a little over a week ago, Progress 
Energy announced plans to build two new reactors in Florida. In 
addition, there a number of applicants for DOE's nuclear loan guarantee 
program, a program that I will support if I am confirmed.
    Question 6. In the absence of Yucca Mountain, what would be your 
plan for the disposition of DOE spent fuel and high level waste 
accumulating at DOE EM cleanup sites at Hanford, Idaho and Savannah 
River?
    Answer. I understand that DOE has a continuing responsibility for 
managing its defense waste, regardless of the outcome of either 
regulatory or policy decisions concerning Yucca Mountain. Currently, I 
am not in a position to know the range of alternatives for carrying out 
that responsibility in the absence of Yucca Mountain. However, I do 
understand that resolving the important issue you raise will be an 
important task for the Department to undertake. If confirmed, I will 
certainly look forward to discussing this matter with you further and 
to developing a sustainable policy for managing the spent fuel and 
waste at federal sites using the best technologies for ensuring public 
safety and environmental protection and remediation.
    Question 7. Without Yucca Mountain, won't these cleanup sites 
become de facto permanent storage/disposal facilities? Without Yucca, 
what is your plan to comply with the current legally binding agreements 
between the federal government and the states that require the removal 
of these radioactive materials?
    Answer. I concur that the agreements between the federal government 
and states are an important factor in any evaluation of alternatives to 
Yucca Mountain. Again, I am not currently in a position to know the 
range of alternatives that might be available--or their legal, 
technical, or economic ramifications--but I do understand that the 
Department will have to develop such alternatives, and I look forward 
to hearing your views about them.
    Question 8. Are you aware that the U.S. Navy's current disposal 
plans for U.S. Navy spent fuel are based on disposal at Yucca Mountain. 
Without Yucca Mountain, what is your plan for complying with the BATT 
agreement?
    Answer. If confirmed, I will work with Congress and other federal 
agencies to ensure that spent fuel from the federal sector is fully 
incorporated into the evaluations and development of safe and secure 
long-term storage solutions.
    Question 9. With the current Federal liability for failure and non-
performance of DOE to begin accepting commercial spent fuel for 
disposal from utilities is at about $ 11 billion. In you view, if the 
Yucca program does not go forward, is not properly funded or is 
otherwise terminated, what in your view would be the total estimated 
liability if U.S. utilities filed for full breach of contract with DOE?
    Answer. I understand that the Department could have significant 
potential liability under the scenario you describe--in which DOE does 
nothing to fulfill its responsibilities under the Nuclear Waste Policy 
Act and U.S. utilities successfully sue for full breach of contract. 
However, I currently am not in a position to know the full range of 
issues that could affect the total amount of such potential 
liabilities, nor do I yet know the full range of alternatives that may 
be available to avoid such an outcome. If confirmed, however, it is my 
intention to work with the Congress to craft a strategy that satisfies 
the Department's legal obligations and provides a reasonable path 
forward for the nation's utilities.
    Question 10. In the absence of moving forward on Yucca Mountain, 
are you aware of any ``Plan B'' for disposing of DOE's spent fuel and 
high-level waste and for meeting DOE's contractual and statutory 
obligations? If so, what is it and please provide the Committee with 
the details of your plan.
    Answer. If the Bush Administration has developed such a plan, I am 
not familiar with it. However, I do understand that, in the absence of 
Yucca Mountain, it will be important to develop alternatives for 
complying with DOE's statutory and contractual obligations. If 
confirmed, I will ensure that the necessary work to develop those 
alternatives is undertaken, and that it emphasizes the protection of 
public health and safety and the environment. I also understand that 
such alternatives need to reflect and balance the interests of 
ratepayers, taxpayers, states, and utilities.
    Question 11. If you don't have a ``Plan B'' would you agree that it 
would be irresponsible and imprudent not continuing with the Yucca 
program, its funding, the licensing and design, etc.?
    Answer. As I have indicated, I do not know if the Bush 
Administration has developed an alternative plan for spent fuel in the 
absence of Yucca Mountain, and I have not developed my own plan. Again, 
I emphasize that I do believe that the development of alternatives that 
provide long-term assurance of safe and secure waste management, based 
on sound science, will be an important task for the Department in the 
absence of the Yucca Mountain option.
    Question 12. If confirmed and sworn in as Secretary of Energy, will 
you unequivocally adhere to and enforce the Nuclear Waste Policy Act, 
as amended, and the Yucca Mountain Development Act of 2002.
    Answer. If confirmed, I will of course comply with and carry out 
all my responsibilities under the law, as Secretary of Energy.
    Question 13. Do you believe that the U.S. Nuclear Regulatory 
Commission is a credible technical and scientific regulator of the 
nation's nuclear facilities? Do you believe that the NRC is best 
qualified in determining the suitability and safety of Yucca Mountain 
as a repository?
    Answer. The Nuclear Regulatory Commission has significant technical 
and scientific expertise, which it brings to bear in its role as the 
primary regulator for commercial nuclear energy facilities. However 
determining and assuring the suitability and safety of Yucca Mountain 
is a responsibility shared among a number of agencies.
    Question 14. Do you believe that the U.S. spent fuel and high-level 
disposal policy should be guided more by science than by politics?
    Answer. I believe that nuclear waste policy should be guided by 
several criteria. For example, it certainly should reflect sound 
science and meet the highest feasible technical standards. It must also 
be safe and secure, and ensure the protection of public health and the 
environment. Finally, it should reinforce public trust and confidence, 
and search for workable solutions that take economic and other factors 
into consideration.
                        environmental management
    Question 15. More than half the DOE budget is dedicated to the Cold 
War legacy and the sites that currently have nuclear waste--do you 
support an aggressive clean up schedule to clean up and close the 
remaining sites? Or do you support managing the waste on site?
    Answer. I support a safe and environmentally responsible cleanup 
program that meets the commitments DOE makes to its stakeholders, 
including its regulators. I understand DOE is moving as expeditiously 
as possible in its cleanup mission with the resources provided by 
Congress. These commitments include both on-site and off-site disposal 
of wastes. I might also note that I am encouraged by recent Stimulus 
Package proposals that could help shrink the ``footprint'' of DOE's 
clean-up sites, which I hope would lead eventually to new opportunities 
for local communities to re-develop them.
    Question 16. If Yucca Mountain does not open what policies will he 
support to ensure that defense waste is stored safely and securely?
    Answer. I believe that DOE has a clear obligation to the states, to 
the public, and to Congress to ensure that defense wastes are safely 
managed. As I stated in my earlier answers, I do not at this point know 
what the range of alternatives may be for fulfilling the Department's 
responsibilities, but I do understand that, in the absence of Yucca 
Mountain, it will be important to develop them.
                            energy industry
    Question 17. You once said: ``We want to partner with companies at 
the very beginning, because the companies can tell us, 'No, don't go 
down this pathway. It won't scale right,' or, 'We know of things that 
perhaps an academic would not know about,' so we don't go marching down 
a road and find out, after five, 10 years, no, this isn't going to be a 
solution.''
    What types of partnerships do you intend to build with industry to 
improve coordination and successfully move technology into the 
marketplace.
    Currently, the Department of Energy has been slow to negotiate and 
sign Cooperative Research and Development Agreements with independent 
labs and companies. Do you support CRDAs and what will you do to 
improve the process for these agreements to move forward quickly.
    Answer. I believe CRDAs have been an important technology transfer 
tool linking the government and private sector. In my capacity as 
Director of Lawrence Livermore National Laboratory, I have been keenly 
aware of the issues associated with these agreements--what works, what 
can be improved, how to more effectively manage the different 
operational cultures of the private and public sectors. Seeking ways to 
improve upon these public-private partnerships will be a top priority 
of mine if I am confirmed, and that includes examining how the 
Administration of these agreements can be improved.
    Question 18. What do you think about partnering with the cold war 
site communities, to build areas of expertise? Allowing communities to 
develop business interests that are in line with the missions at these 
sites or use them as energy parks on the sites--i.e. SRS could be a 
commercial nuclear site, Los Alamos could be used for solar, Hanford 
for geothermal?
    Answer. I think that is an interesting proposal, and if confirmed, 
will review it further, and would welcome your additional thoughts. 
American technological leadership rests on the shoulders of the talent 
of our nation's scientists. Exploring ways to strengthen this resource 
and deploy that knowledge to achieve national energy goals is of 
personal interest to me, and would be among my priorities. I agree with 
the President-elect, who believes we need to rely more heavily on the 
expertise and resources of our national laboratories in developing and 
deploying next-generation energy technologies for the marketplace.
    Question 19. Despite all the government money for R&D, it is still 
dwarfed by the amount of funding the private sector provides far 
research. How do you intend to partner with business and the private 
sector to improve R&D in the US?
    Answer. The President-elect is committed to identifying and 
implementing ways to use our federal dollars more wisely and more 
effectively, and that includes mechanisms for leveraging federal 
dollars with the private sector. As Director of the Lawrence Berkeley 
National Laboratory, I have challenged some of the best scientists to 
turn their attention to the energy and climate change problem and to 
bridge the gap between the mission-oriented science that the Office of 
Science does so well and the type of applied research the leads to 
energy innovation. I have also worked to partner with academia and 
industry. I am confident that these efforts are working, and I want to 
extend this approach to an even greater extent throughout DOE's network 
of national science laboratories.
    Question 20. Do you believe companies need a predictable time line 
to transition from one technology to another in the area of energy 
generation? How long do you believe is necessary for a energy utilities 
to transition from one technology to another, and how much government 
do you believe is necessary to accomplish that timeline?
    Answer. Yes, I believe that companies can benefit from a 
predictable timeline in making such transitions. That is one reason, 
for example, that the new Administration hopes to work collaboratively 
with Congress in developing a set of emissions-reduction goals and 
schedules. In that way, utilities and businesses can make long-term 
investment plans based on the need for more energy efficient 
technologies that emit fewer greenhouse gases. Obviously, other 
factors, including some that are difficult to predict--such as energy 
and materials costs and the pace of technological innovation--will 
always complicate transition planning, regardless of the role of 
government. If confirmed, I hope to lend by experience as a scientist 
and lab director to the discussions about policy, timing, science, and 
economics that lie ahead as we undertake a historic transformation to a 
cleaner, more sustainable energy future.
       Responses of Steven Chu to Questions From Senator Martinez
    Question 1. I am a strong proponent of nuclear power. My state of 
Florida will potentially build three new reactors that will provide 
hundreds of thousands of households with clean, reliable, and 
emissions-free power. As the former director of a prestigious national 
lab, what types of research priorities remain to help truly facilitate 
a nuclear renaissance and what do you plan to do to ensure that it 
becomes a reality?
    Answer. Today, nuclear power accounts for 20 percent of U.S. 
electricity generation, and more than 70 percent of U.S. zero-carbon 
electricity generation. The Energy Policy Act of 2005 (EPAct) provides 
new incentives for nuclear power, and there has been a resurgence of 
applications to the Nuclear Regulatory Commission to build new nuclear 
power plants. If confirmed, I pledge to work to encourage the 
development and deployment of all low-carbon sources, including 
nuclear, to support innovative research in advanced technology and 
processes, and to provide more effective management of the loan 
guarantee program provided in EPAct.
    Question 2. Along those lines, what types of regulatory or 
bureaucratic hurdles do we need to eliminate to bring nuclear power on-
line in a safe manner? I ask this because the Nuclear Regulatory 
Commission estimates that its best case scenario for successful review 
of a new license application is roughly three and a half years.
    Answer. At this point in time, I am not in a position to render 
judgments about the Nuclear Regulatory Commission's license review 
process. However, if confirmed, I do expect to examine the technical 
factors that affect both the timelines and cost structure of siting, 
building, and licensing of new nuclear plants. In addition, as stated 
above, I will ensure that the nuclear loan guarantee program is 
supported with the necessary resources and management attention.
    Question 3. Florida ratepayers have spent over $1.2 billion to send 
stored spent fuel to Yucca Mountain. Where do you stand on this issue? 
On January 5, 2009, Majority Leader Harry Reid issued a release 
stating, ``(the) President-elect reiterated his promise to work with me 
to prevent the dump from ever being built. The first step is to make 
even deeper budget cuts this year than I have already been able to make 
in the past. Yucca Mountain was a dangerous proposition from the start 
and T am very pleased that President-elect Obama shares my commitment 
to come up with a more responsible solution to our nation's nuclear 
waste challenges.''
    Do you share those sentiments? If so, what solutions would you 
suggest in storing spent fuel in addition to honoring the obligations 
required by law under the Nuclear Waste Policy Act?
    Answer. President-elect Obama has stated that he does not believe 
that Yucca Mountain is a workable option for the permanent disposal of 
spent fuel. At the same time, he understands the concerns about some 
current storage arrangements for the waste.
    Fortunately, the NRC has affirmed the safety of dry cask storage, 
but I believe DOE should support research into additional means for 
assuring the long-term, safe, and cost-effective transportation and 
storage of waste, as well as into proliferation-resistant techniques 
for waste reduction. I also recognize that DOE has ongoing statutory 
obligations with respect to spent fuel. If confirmed, I will work with 
Congress and other members of the Administration to ensure the 
development of safe, long-term waste management solutions.
    Question 4. As you well know, we had a very difficult time getting 
the Title 17 Loan Guarantee Program up and running at DOE which was 
authorized in the 2005 Energy Policy Act. I believe it took over 2 
years to get DOE to simply offer the Notice of Proposed Rulemaking for 
the loan guarantee program.
    Answer. Today, nuclear power accounts for 20 percent of U.S. 
electricity generation, and more than 70 percent of U.S. zero-carbon 
electricity generation. The Energy Policy Act of 2005 (EPAct) provides 
new incentives for nuclear power, and there has been a resurgence of 
applications to the Nuclear Regulatory Commission to build new nuclear 
power plants. If confirmed, I pledge to work to encourage the 
development and deployment of all low-carbon sources, including 
nuclear, to support innovative research in advanced technology and 
processes, and to provide more effective management of the loan 
guarantee program provided in EPAct. As far as expanding nuclear 
incentives, I think it will be important first to get this first 
package of incentives implemented. I know that there are still 
economic, market and regulatory uncertainties regarding new nuclear 
plants, which I hope can be clarified in the course of licensing the 
first several new plants
    Question 5. Last Congress I joined a bipartisan effort with members 
of this Committee in introducing the Clean Energy Investment B& 
legislation. This bill would have created a new financing authority 
similar to the Export-Import Bank. This concept has been embraced by 
many groups including the Institute for 2 1' Century Energy. According 
to the Electric Power Research Institute and other industry estimates, 
the US will need massive investments in new power generation to meet 
growing demand requiring $350 billion over the next 15 years. Private 
institutions are reluctant to take on significant, long-term debt for 
new alternative energy projects. What are your thoughts about finding 
new financing avenues for alternative energy projects?
    Answer. I believe that we need a range of approaches to stimulate 
research, development and deployment of clean energy technologies. 
Certainly, the loan guarantee program represents one important 
opportunity to advance the state of renewable energy technologies and 
to stimulate investor interest in them. If confirmed, I will ensure 
that the DOE loan guarantee program is managed in a way that treats the 
development of such technologies as a priority.
    Question 6. Do you support long-term extensions of the renewable 
production tax credits?
    Answer. President-Elect Obama has put forward aggressive but 
achievable goals for renewable electricity production, and a set of 
policies to help achieve them. One of these policies is an extension of 
the production tax credit for renewables. I look forward to working 
with Congress and others in the Administration in support of this 
policy.
    Question 7. You have been quoted in several news publications 
regarding speeches you have given where you state, ``coal is my worst 
nightmare.'' Can you elaborate on what you meant from those speeches so 
we can get an idea of where you stand on coal-fired generation? Coal 
provides over 50% of our nation's power and DOE has a significant 
fossil research budget, as well as R&D efforts for clean coal power 
generation. It would be helpful to know where you stand so that your 
comments are not being taken out of context by media reports.
    Answer. I share President-elect Obama's view that we need to 
aggressively pursue carbon capture and storage technology. We're going 
to need this technology here in the United States, and it's going to be 
needed in China, India and elsewhere around the world. Both the 
President-elect and I agree that coal is a vital energy resource for 
our country. As you know coal currently provides fifty percent of our 
electricity, and we have enormous coal reserves that can provide power 
long into the future. At the same time, coal-fired power plants are the 
largest contributor to U.S. greenhouse gas emissions, and a growing 
source of global emissions. That's why, if confirmed, I plan to lead 
DOE forward on CCS technology as swiftly and as effectively as 
possible.
    Question 8. You were quoted in December 12th Washington Post 
article where you stated that electricity prices were ``anomalously 
low'' in the United States. Power bills have been going up all over my 
state to pay for the increases in fuel prices, and new utility 
infrastructure. Do you really believe electricity prices are too low in 
the U.S., and if so, what should our constituents be paying?
    Answer. As I noted during the confirmation hearing, my goal is to 
reduce the amount that American families pay to heat, cool and light 
their homes. I think there are many ways that we can do that, 
particularly through policies that promote deployment of energy 
efficient technologies.
    Question 9. In your new role as Secretary what is your vision for 
the Office of Science and what would you pursue with President-elect 
Obama to enhance our nation's competitiveness in math and sciences?
    Answer. I strongly believe that regaining U.S. preeminence in 
science and technology is critical to our future economic growth and 
prosperity. It will be one of my highest priorities as Secretary to 
strengthen the Office of Science during my tenure to better achieve 
this goal.
    Question 10. You have been very involved at Berkeley National Lab 
on research and development of second generation biofuels. Florida has 
a great deal of potential in this arena with biomass and cellulosic 
ethanol--what steps do we need to take to ensure that DOE is leading 
the way in cutting edge alternative fuels?
    Answer. I am optimistic about biofuels because, as you note, I have 
been very actively assessing their potential as Director of LBNL. 
Advances in biofuels, including cellulosic ethanol, biobutenol and 
other new technologies that produce synthetic petroleum from 
sustainable feedstocks offer tremendous potential to break our 
addiction to oil. DOE has a major role to play as the premier sponsor 
of research on renewable energy in the U.S. If confirmed, it will be my 
goal to make these programs not just bigger, but more effective in 
harnessing the scientific talent we have across the country to develop 
energy solutions and help get them into the marketplace more quickly.
    Question 11. In that same vein, what policies would you embrace to 
make that a reality? I believe it is time to remove the foreign ethanol 
tariff, which is acting as a trade distorting subsidy and denying 
coastal states like Florida the ability to develop ethanol 
infrastructure. Since there are no pipelines to transport ethanol from 
the Midwest to Miami, how else will the infrastructure get there?
    Answer. President-elect Obama's energy proposals include a number 
of policies and measures to help develop next generation biofuels that 
can be produced in all regions of the country, including research 
funding for cellulosic and other advanced biofuels; incentives to 
expand ethanol infrastructure; incentives to encourage the 
commercialization of advanced biofuels technologies; and a national 
``low-carbon fuel standard'' to spur low-carbon fuels. If confirmed, I 
will work to implement these policies, and will assist the President-
elect in reviewing current biofuels policies across the board in order 
to ensure that we have an effective set of policies in place.
    Question 12. In a December 2008, a Washington Post article you were 
quoted in saying that we need to build a ``new kind of photosynthesis'' 
to help catalyze the development of second generation biofuels. Are you 
referring to algae-derived fuels? If so, it is my understanding that 
these types of fuels do not qualify for advanced biofuel tax credits. 
Should this be remedied?
    Answer. Algae-derived fuels are but one of many potential sources 
of clean, secure, economic biofuels we expect to be available in coming 
years. Certainly, if confirmed, I will work with Congress and others in 
the Administration to ensure that we address all aspects of research, 
development, and distribution of energy supplies in a way that promotes 
economic growth and an improved environment, within the U. S. and 
around the world.
    Question 13. Your testimony stated that you support the Obama 
Administration's approach in dealing with climate change via a cap and 
bade system to regulate greenhouse gas emissions. When do you 
anticipate this plan or approach will be released by the President-
elect? Do you anticipate that it will be placed on hold given our 
nation's current economic difficulties?
    Answer. The President-elect has made it clear that turning the 
economy around and putting people back to work is his highest priority. 
At the same time, he continues to believe that energy and climate 
change are pressing problems that need to be addressed, and he has 
rejected the idea of waiting to pursue solutions to them. Many of the 
programs being discussed for inclusion in the economic stimulus package 
are designed not only to produce jobs and economic activity, but also 
to advance an energy system with lower greenhouse gas emissions. The 
details of a climate plan are yet to be developed by the incoming 
Administration, and many of the people who will help lead that 
discussion are not yet in place, so it is difficult to predict the 
timing of any new climate initiatives or proposals.
    Question 14. In your testimony you mentioned that the President-
elect supports ``responsible development of domestic oil and natural 
gas.'' Many of us on the Committee are anxious to learn what that 
exactly means. As a Senator from a coastal state, do you expect him to 
push for more oil and gas leasing in the Outer Continental Shelf (OCS)? 
Will he reinstate the Presidential moratoria in the OCS?
    Answer. President-elect Obama supports increased domestic 
exploration and production in many places, including in the OCS, 
provided that it is done responsibly. Several years ago, Congress 
opened new areas in the Gulf of Mexico, where exploration is underway. 
President-elect Obama has said that he is open to a limited expansion 
of OCS drilling as part of a comprehensive energy proposal that 
includes accelerated renewable energy development and greater 
investment in energy efficiency. If confirmed, I pledge to work with 
you, other members of Congress and other members of the Administration 
to enact comprehensive energy legislation along these lines.
      Responses of Steven Chu to Questions From Senator Murkowski
    Question 1. Dr. Chu, here in the Energy Committee, we take pride in 
the good working relationship between the majority and minority, both 
Senators and our staff. If confirmed, will you pledge to cooperate in 
this type of a working relationship with all Senators on this 
Committee, Democrat or Republican--by promptly responding to any 
written or phone inquiries, sharing information as soon as it becomes 
available--and directing your staff to do the same?
    Answer. The Committee's reputation for collegiality is well known. 
If confirmed, I certainly plan to work cooperatively with all the 
Senators on the Committee. In that spirit, I will be as timely as I 
possibly can be in responding to requests and in providing information 
to you and your colleagues.
                              oil and gas
    Question 1a. In what circumstances do you believe it is appropriate 
to release oil supplies from the Strategic Petroleum Reserve (SPR)? Do 
you believe SPR actions should be tied to the price of oil?
    Answer. It is my understanding that releases of SPR oil are 
triggered by a presidential finding of an energy emergency, meaning a 
severe supply interruption. Generally, oil prices are not, in the 
absence of a physical supply interruption, considered to be sufficient 
grounds to meet the requirements of the statute regarding a release.
    Question 1b. Do you believe the contents of SPR should he 
diversified to include not only unrefined oil but also finished 
products?
    Answer. While I am not sufficiently versed in all the ramifications 
of adding these components to the SPR, if confirmed, I would note that, 
as currently administered, the SPR facilities are not configured in a 
way that lends itself to storing refined products.
    Question 1c. If confirmed as Energy Secretary, would you seek to 
fill the reserve to the 1 billion barrel capacity?
    Answer. President-Elect Obama believes that the Strategic Petroleum 
Reserve is a critical tool to deal with disruptions in oil supplies. 
The timing and amounts of additional SPR purchases are issues that will 
require--and receive--careful review if I am confirmed. The prohibition 
against purchasing SPR oil has expired and, with oil prices heading 
down, it may be advantageous to consider making additional purchases in 
2009.
    Question 2. What is your position on the imposition of a ``Windfall 
Profit Tax'' on oil companies?
    Answer. I support the President-elect's position that with oil 
prices at current levels, and possibly falling further, such a tax 
would not be appropriate.
    Question 3. According to the Wall Street Journal, you recently 
expressed support for a higher gas tax that would eventually put the 
price of gasoline in America on par with European levels. As Secretary 
of Energy, do you plan to encourage increases in the federal gas tax? 
If so, would you seek to keep them revenue neutral by reducing other 
taxes by equivalent amounts?
    Answer. I recognize that last year's spike in gasoline prices 
caused economic hardship for many American families. In addition, we 
are sending hundreds of billions of dollars overseas each year to 
purchase imported oil, which is harmful to our economy. To deal with 
all of these challenges, we need a comprehensive, long-term strategy. 
President-elect Obama has put forward just such a strategy--a 
comprehensive energy and climate change policy that will hasten the 
development of alternative fuels and efficient, advanced vehicle 
technologies. The President-elect does not support, and neither do I, 
raising federal gasoline taxes as an energy policy. Instead, we need a 
much broader-based approach to transforming America's energy future, 
and, if confirmed, I hope to be actively engaged in working with you 
and your colleagues in forging such a policy.
    Question 4. Do you support efforts to establish gasoline price 
gouging as a federal crime?
    Answer. This is likely a more appropriate issue for the Federal 
Trade Commission. I am not currently sufficiently familiar with the 
issue to make a specific commitment at this time; I will be pleased to 
work with you and the other members of the Committee to determine the 
appropriate approach, if confirmed.
    Question 5. Do you support or oppose efforts to authorize the 
Department of Justice to sue the Organization of Petroleum Exporting 
Countries?
    Answer. I am generally aware of legislation that has been proposed 
in this regard, but I am not currently sufficiently familiar with the 
issue to make a specific commitment at this time. However, I believe 
that it is likely that the new Administration will want to review the 
various legal, foreign policy, economic, and energy dimensions of that 
issue before developing a position on such legislation.
    Question 6. Do you support the expansion of existing oil refineries 
and/or the construction of new facilities?
    Answer. I am not yet in a position to determine what new refining 
capacity may be needed, or where, although I certainly understand that 
maintaining a robust American refining sector is critically important 
to maintaining stability in energy markets. With oil demand projected 
to continue falling this year, and with profit margins shrinking in 
recent months, the industry may not be inclined to build additional 
capacity in the near future. However, as economic recovery takes hold--
hopefully later this year--it will be important to monitor the need for 
new refining capacity. If confirmed, I will make sure that the 
Department of Energy does its job in that regard.
    Question 7. As you know, in 2008 the price of oil was marked by 
extreme volatility. Many experts attributed these price movements to 
supply and demand factors such as geopolitical uncertainty and the 
growth of developing nations. Others believed excessive speculation by 
institutional investors drove oil prices. What is your position on the 
issue?
    Answer. As you have noted, there are many factors that affect the 
price of oil, and I think it is clear that speculation has played a 
role. President-elect Obama has proposed addressing this issue through 
a series of steps, including fully closing the so-called ``Enron 
loophole'' that protects some electronic trading in energy futures from 
Federal oversight.
                                  coal
    Question 1. Coal currently supplies 50% of our nation's electricity 
supply and is an abundant, inexpensive domestic resource. What role do 
you see for coal in the nation's energy mix in the future? Compared to 
commercial-scale carbon capture and sequestration, how important are 
incremental efficiency improvements within the existing coal fleet?
    Answer. Coal is a vital energy resource for our country. As you 
note, coal currently provides 50 percent of our electricity, and we 
have enormous coal reserves that can provide power long into the 
future. At the same time, coal-fired power plants are the largest 
contributor to U.S. greenhouse gas emissions, and a growing source of 
global emissions. That's why I share President-elect Obama's view that 
we need to aggressively pursue carbon capture and storage technology. 
We're going to need this technology here in the United States, and it's 
going to be needed in China, India and elsewhere around the world. I 
know that the Committee has taken a strong interest in CCS, and I look 
forward, if confirmed, to leading the Department in the effort to 
develop new, cleaner technology for both new and existing plants. In 
addition to developing effective new technologies designed for new 
plants, I believe that cost-effective improvements can and should be 
made to the existing fleet. The pace of those technology improvements 
is hard to predict, but, if confirmed, I look forward to working with 
this committee and Congress as a whole to move forward on CCS 
technology as swiftly as possible.
    Question 2. As you know, the Energy Department has restructured the 
``FutureGen'' project, which had been slated for the construction of a 
single plant in Illinois, to instead focus on carbon capture and 
sequestration at several sites. Do you support that decision or do you 
intend to reverse it?
    Answer. I am not familiar with the details of the Bush 
Administration's decision-making with respect to the FutureGen program. 
If confirmed, I will undertake a thorough review of the program, and do 
whatever I can to ensure that DOE moves forward in collaboratively 
testing the variety of technologies that hold promise for cleaner-
burning coal plants. More broadly, I believe that it must be a top 
priority of the Department to accelerate research and development of a 
range of carbon capture and storage technologies.
    Question 3. Twenty-three of the 25 power plants with the lowest 
operating costs in the United States utilize coal as their primary 
feedstock. In a carbon-constrained future, how can we alleviate the 
additional costs associated with carbon capture and sequestration?
    Answer. I believe that a cap-and-trade program, which President-
elect Obama has endorsed, and carbon capture and sequestration 
technologies, which he also supports, are complimentary. As the 
President-elect has said, we must rapidly develop the technologies that 
will enable us to use our vast coal reserves in more efficient and 
environmentally benign ways. A cap-and-trade program can provide 
incentives to move in this direction. By combining the use of such 
technologies with new policies to develop renewable energy sources and 
to cut energy waste, we can achieve our energy and climate goals. And 
we can do so using market-based systems that do not impose costly 
burdens on consumers and businesses.
    Question 4. In terms of federal assistance for the advancement of 
carbon capture and sequestration, what volume of carbon dioxide 
sequestered annually do you believe is sufficient to prove whether or 
not the technology is safe, reliable, and cost-effective? What funding 
structure do you envision for such a task?
    Answer. Carbon capture and storage technologies hold enormous 
potential to reduce our greenhouse gas emissions as we power our 
economy with domestically produced and secure energy. We must work to 
ensure that clean coal technology becomes commercialized. If confirmed, 
I will be closely reviewing all of DOE's activities in this area and 
working to identify how we can accelerate the research, development and 
deployment of clean coal technology in a safe, reliable and cost-
effective manner. Until I am able to conduct that kind of review, 
however, it is not possible for me to be more specific regarding exact 
sequestration goals, but clearly it will be important to develop a set 
of metrics by which to judge the cost-effectiveness of such 
investments. If confirmed, I will look forward to having your input in 
that important effort.
    Question 5. Assuming that carbon capture and sequestration is 
proven safe, reliable and cost-effective, do you see a role for the 
Secretary of Energy in streamlining the federal permitting process?
    Answer. If confirmed, I will certainly support the coordination I 
understand is already underway with EPA to develop rules and standards 
for underground sequestration of carbon dioxide, using the results 
generated from the various Regional Carbon Sequestration Partnership 
projects. Establishing regulatory certainty is key to advancing the 
commercial application of these technologies.
                               renewables
    Question 1. As we seek to increase the use of renewable energy and 
reduce greenhouse gas emissions, it is important to differentiate 
between sources that can provide baseload power and those which cannot. 
What do you believe are the challenges and opportunities associated 
with using baseload and intermittent power sources n combination with 
one another?
    Answer. Transmission challenges will need to be addressed, 
including issues related to siting and cost allocation of new 
transmission lines to access the Nation's best renewable resources. Our 
transmission and distribution system is aging and in need of investment 
and modernization. The key to integration of intermittent power sources 
with baseload lies in advanced technologies. President-elect Obama has 
put forward a vision to stimulate major investment in our national 
utility grid, including smart metering, distributed storage and other 
advanced technologies to accommodate 21st century energy requirements. 
Done right, upgrading the grid will create jobs and result in greatly 
improved electric grid reliability and security, increased renewable 
generation and greater customer choice and energy affordability.
    Question 2. In transitioning to an increased role for renewables, 
what steps should be taken to address the energy storage and 
transmission concerns that accompany such a shift? Also, what role do 
you see for coal with carbon sequestration and nuclear in terms of 
ensuring electric reliability at times when the wind may not be blowing 
or the sun may not be shining?
    Answer. Our transmission and distribution system is aging and in 
need of investment and modernization. The key to integration of 
intermittent power sources with baseload lies in advanced technologies. 
President-elect Obama has put forward a vision to stimulate major 
investment in our national utility grid, including smart metering, 
distributed storage and other advanced technologies to accommodate 21st 
century energy requirements. Coal is a vital energy resource for our 
country. Coal currently provides fifty percent of our electricity, and 
we have enormous coal reserves that can provide power long into the 
future. Coal-fired generation with carbon sequestration will be needed 
for some time to come as a contributor to our baseload production, as 
will nuclear.
    Question 3. There have been some legislative proposals to require 
the build-out of transmission to move only renewable sources of 
electricity. In general, is it advisable, or even feasible, to mandate 
a transmission line to carry only renewable resources? Given the 
capacity factor issues, shouldn't the construction of facilities needed 
to deliver wind power also be available to deliver back-up power and 
move other electricity resources when the wind is not blowing?
    Answer. Building new transmission lines is a key component of the 
effort to utilize our renewable resources, and striking the right 
balance among local, state and federal needs and interests is 
critically important. Clearly, our transmission and distribution system 
is aging and in need of investment and modernization. President-elect 
Obama has put forward a vision to stimulate major investment in our 
national utility grid, including smart metering, distributed storage 
and other advanced technologies to accommodate 21st century energy 
requirement. Done right, upgrading the grid will create jobs and result 
in greatly improved electric grid reliability and security, increased 
renewable generation and greater customer choice and energy 
affordability. To the greatest extent practicable, new transmission 
infrastructure should be configured so as to maximize the efficiency of 
the lines so that costs can be reduced and benefits enhanced. If 
confirmed, I look forward to thoroughly reviewing all of DOE's efforts 
in this area and working with you on this important issue.
    Question 4. Do you support a one-size-fits-all national Renewable 
Electricity Standard (RES) or does it make more sense to take a state's 
individual renewable resources into account when establishing targets 
and timetables? Do you agree that one of the goals of any RES should be 
the promotion of emission-free sources of power?
    Answer. President-elect Obama has put forward aggressive but 
achievable goals for renewable electricity production, and a set of 
policies to achieve them. These policies include a national RPS, as 
well as an extension of the production tax credit for renewables, a cap 
on carbon emissions, increased R&D for renewables, and support for loan 
guarantee programs to accelerate deployment of renewables. I believe 
these policies will have enormous benefits in terms of both reduced 
greenhouse gas emissions and improved human health due to reduced 
NO<INF>X</INF>, SO<INF>X</INF> and mercury pollutions.
                             nuclear energy
    Question 1. In June 2008, after more than 20 years of review, and 
with the recommendation of both Congressional chambers, the Department 
of Energy submitted a construction and operation license to the Nuclear 
Regulatory Commission for the Yucca Mountain spent nuclear fuel 
repository. That independent regulatory agency is now tasked with 
evaluating the proposal and establishing the safety of the repository. 
Do you support the full and adequate funding of the Yucca Mountain 
license review? In your opinion, what is an appropriate window for the 
program to demonstrate proof of compliance with EPA standards?
    Answer. The Nuclear Regulatory Commission's review of the Yucca 
Mountain License Application is proceeding under the Nuclear Waste 
Policy Act. If confirmed as Secretary, I will work with Congress and 
other members of the Administration to find safe, long-term solutions 
for spent nuclear fuel that meet our legal obligations, maintain 
nuclear power as part of our energy mix, and provide a secure disposal 
path based on the best scientific analysis. The issue of funding for 
the NRC's license review will of course have to be developed in the 
context of the larger set of budget decisions facing the new 
Administration. It will also have to reflect the President-Elect's 
position that Yucca Mountain is not an option as a disposal site for 
spent fuel.
    Question 2. Please describe the measures you believe the next 
Administration should take to increase the use of emission-free nuclear 
power.
    Answer. Today, nuclear power accounts for 20 percent of U.S. 
electricity generation, and more than 70 percent of U.S. zero-carbon 
electricity generation. The Energy Policy Act of 2005 (EPAct) provides 
new incentives for nuclear power, and there has been a resurgence of 
applications to the Nuclear Regulatory Commission to build new nuclear 
power plants. If confirmed, I pledge to work to encourage the 
development and deployment of all low-carbon sources, including 
nuclear, to support innovative research in advanced technology and 
processes, and to provide more effective management of the loan 
guarantee program provided in EPAct.
    Question 3. What role do you believe the U.S. has in establishing a 
sustainable and secure international nuclear energy infrastructure?
    Answer. Since the advent of nuclear power, the U.S. has been a 
leader in the peaceful uses of nuclear power, beginning with the Atoms 
for Peace program begun in the 1950s under President Eisenhower. If 
confirmed, I pledge to work with Congress and with others in the 
Administration to continue to work through a number of international 
and bilateral arrangements to promote policies and practices that 
provide security, promote affordable, sustainable energy supplies, 
address long-term high-level radioactive waste management and 
disposition, and protect against proliferation.
    Question 4. Recently a group of scientists from MIT and Harvard 
released a discussion paper promoting the use of nuclear power in the 
next administration. The discussion paper highlighted several obvious 
issues that need to be addressed, such as concerns over proliferation; 
spent fuel; and continued safe operations. This group also identified 
the large size (1,000-1,600 MW) of our existing technology and capital 
costs as a potential concern. In my opinion, there are regions of the 
country and around the world where demand is strong enough and rate 
bases are large enough to support our next generation of large reactor 
technology. But what this paper appears to ignore are a series of 
small, scalable, modular nuclear electric power plants which are 
currently under development which have significant potential to serve 
as non-emitting, base load resources for less populated areas. These 
small-scale, modular designs run the gamut of new battery-like devices 
to traditional light water reactor designs. What steps can Congress and 
the Administration take to help move this technology along?
    Answer. President-elect Obama has said repeatedly that he 
understands the contribution that nuclear energy makes to our economy. 
The Energy Policy Act of 2005 provides a number of incentives for 
nuclear power. One of the best things we can do is work to effectively 
implement those incentives, including the loan guarantee program and 
focused research efforts, especially on improved recycling and 
proliferation-resistant technologies.
                              electricity
    Question 1. We all support increasing the use of renewable energy 
but we must build more transmission capacity in order to move location-
restrained renewable resources to load. The Committee has recognized 
siting issues as one of the largest impediments to building more 
transmission. In the Energy Policy Act of 2005, Congress tried to 
address this problem by directing DOE to establish Transmission 
Corridors in congested areas and providing the Federal Energy 
Regulatory Commission with limited back-stop siting authority. 'I'o 
date, however, not a single line of transmission has been sited 
pursuant to these EPAct authorities. Did Congress go far enough in the 
2005 energy bill or is greater federal siting authority needed?
    Answer. Our transmission and distribution system is aging and in 
need of investment and modernization. President-elect Obama has put 
forward a vision to stimulate major investment in our national utility 
grid, including smart metering, distributed storage and other advanced 
technologies to accommodate 21st century energy requirement. Done 
right, upgrading the grid will create jobs and result in greatly 
improved electric grid reliability and security, increased renewable 
generation and greater customer choice and energy affordability.
    Siting new transmission lines is a key component of this effort, 
and striking the right balance between local, state and federal 
authorities and interests is paramount. I am aware that many miles of 
transmission facilities have been sited successfully in the U.S. 
without having to resort to the EPAct authorities you reference in the 
question. That said, there are also examples of facilities that appear 
to be needed but that are not moving forward due to siting barriers. At 
this point, I do not have a view on the balance struck in EPAct, but if 
confirmed, I look forward to thoroughly reviewing this critical issue 
and working with you on it.
    Question 2. One of the most promising developments that can improve 
the efficiency and performance of the electric grid is the so-called 
``Smart Grid'' technology. In the 2007 Energy Independence and Security 
Act, Congress authorized funding to support Smart Grid technology 
research, development, and demonstration, along with other Smart Grid-
related investment costs. To date, these programs have not been funded 
but they may receive federal dollars in the economic stimulus package 
now under development. Do you support funding for these programs, and 
do believe these and other Smart Grid programs should be a priority at 
the Department?
    Answer. Yes. Our transmission and distribution system is aging and 
in need of investment and modernization. President-elect Obama has put 
forward a vision to stimulate major investment in our national utility 
grid, including smart metering, distributed storage and other advanced 
technologies to accommodate 21st century energy requirement. Done 
right, upgrading the grid will create jobs and result in greatly 
improved electric grid reliability and security, increased renewable 
generation and greater customer choice and energy affordability. If 
confirmed, I look forward to thoroughly reviewing all of DOE's efforts 
in this area and working with you on this important issue.
    Question 3. In the 2007 energy bill, Congress tasked the National 
Institute of Standards and Technology (NIST) with developing a 
framework that includes protocols and model standards for information 
management to achieve the interoperability of smart grid devices and 
systems. In your opinion, is NlST the appropriate entity to undertake 
this work or should Congress direct the Energy Department or the 
Federal Energy Regulatory Commission to develop a Smart Grid 
interoperability framework?
    Answer. Standards are critical to development of smart grid 
technology. If confirmed, I will be proactive in pushing industry to 
come together to accelerate development of standards, and will examine 
the question of roles for NIST and other entities in that process.
    Question 4. There are a number of regional transmission planning 
efforts currently underway. Should we instead focus on a national model 
for transmission plans?
    Answer. I am not familiar with the details of the regional 
transmission planning efforts you describe, but appreciate that there 
are distinct differences in the needs and planning processes that exist 
around the country, particularly in the East versus the West. 
Nonetheless, I believe it is important that we develop a national model 
with input from all stakeholders.
    Question 5. What role do you see for the Energy Department in 
addressing cyber security threats to the electricity industry? Is 
additional federal authority in this area needed?
    Answer. I understand that DOE has a public-private partnership that 
has been working to improve cyber security in the electronic systems 
that control the flow of electric energy in the United States. I do not 
have a view at this time about whether additional authority is needed, 
but if confirmed I would be pleased to work with you and other Members 
of the Committee on this important issue.
                           project financing
    Question 1. Alternative energy companies have an incredibly 
difficult time securing the financing necessary to become viable and 
productive. DOE'S Loan Guarantee program, established by the 2005 
Energy Policy Act, has proven woefully inadequate for addressing this 
problem thus far. How would you improve the administration of this 
program?
    Answer. I share your concern that we have no time to lose in making 
these programs work as Congress intended, and, if confirmed, I will 
certainly take a close look at how they are working. In light of the 
current tough economic climate and credit crunch, we know that these 
loan guarantees are critical. I understand that DOE currently has 
before it several proposals for renewable projects and other types of 
technologies and is expecting to receive another set of proposals in 
the near future. If I am confirmed, I will work with you to ensure that 
we make the program effective and prudent.
    Question 2. Several pieces of legislation were introduced last 
Congress to create a self-funding federal hank to assist start-up, 
clean energy companies. As envisioned by those bills, such an entity 
would be able to issue not only loan guarantees, but direct loans and 
insurance products as well. Additionally, this federal bank would, in 
some instances, be allowed to assume a financial stake in clean energy 
technology firms and issue publicly-traded stock. Do you believe it is 
appropriate for the federal government to back start-up, clean energy 
technology firms in this manner?
    Answer. I believe that we need a range of approaches to stimulate 
research, development and deployment of clean energy technologies. I am 
not familiar with the legislation that you cite, but if confirmed, I 
look forward to discussing this and other ideas for encouraging greater 
investment in new energy technology and infrastructure.
                             climate change
    Question 1. How do you see a cap and trade market being designed? 
Do you support a cost containment mechanism? Do you support the 
inclusion of off-sets and, if so, what eligibility criteria do you 
believe should apply to those projects? Should property rights be 
extended to the holder of permits-to-emit under a cap and trade 
program?
    Answer. President-elect Obama has proposed a cap-and-trade program 
to reduce greenhouse gas emissions, but the details of that program 
will not be developed until after the new Administration takes office. 
At that time, the issues of environmental targets and timetables, cost 
containment, offsets, linkages to other nations' commitments, and the 
many other program elements and options will be fully examined. The 
President-elect has said that he plans to work with Congress to develop 
an effective, bi-partisan program.
    Question 2. What role do you see the Department of Energy playing 
in the administration of a cap and trade program, if enacted?
    Answer. President-elect Obama has proposed a cap-and-trade program 
to reduce greenhouse gas emissions, but the details of that program 
will not be developed until after the new Administration takes office. 
One of the most promising ways to meet both our climate change and 
energy goals without harming consumers is to develop the next 
generation of technologies that will enable us to transform the way we 
produce and use energy in America. If confirmed, I look forward to 
helping to lead that effort.
    Question 3. Many areas of the United States, and the world, are 
already experiencing climatic change. How important do you believe 
adaptation will be, in terms of dealing with the issue of climate 
change in the very near future and going forward?
    Answer. Mitigation actions to reduce greenhouse gas emissions are 
the most important steps that the United States must take. But most 
climate scientists believe that additional warming is built into the 
system, and therefore adaptation will also be important, especially in 
the Arctic and other areas that are feeling dramatic effects sooner.
    Question 4. At least week's hearing on energy security, we 
discussed the imposition of a carbon tax as a straight-forward and 
transparent option in our efforts to combat climate change. Last year, 
the now-nominee for the Office of Management and Budget testified as 
Director of the Congressional Budget Office that a carbon tax could be 
as much as five times more efficient than a stringent cap and trade 
program. What are your thoughts on a carbon tax in lieu of a cap and 
trade program?
    Answer. President-elect Obama has stated his preference for a cap-
and-trade system, which has several advantages over a carbon tax. 
Advantages of a cap-and-trade system include more certainty about 
achieving the desired level of greenhouse gas reductions, and the 
possibility of linkages between domestic and international cap-and-
trade systems.
    Question 5. A desire to transition away from our current energy mix 
and towards lower carbon energy sources, while incredibly important, is 
also very expensive. If confirmed, what level of coordination do you 
intend to pursue on climate change matters with the National Economic 
Council?
    Answer. I expect that the National Economic Council will be a close 
partner of the Department of Energy and other agencies in the 
Administration's work on energy and climate change issues.
                           energy efficiency
    Question 1. In the 2007 Energy Independence and Security Act, 
Congress mandated the phase-out of traditional incandescent lights over 
the next few years. Are we on track to meet this requirement? Will 
consumers continue to have multiple product choices, including energy-
saving halogen, energy efficiency incandescent, compact fluorescent, 
and Light Emitting Diodes?
    Answer. The Energy Independence and Security Act was important 
bipartisan legislation and we must implement it aggressively. If 
confirmed I will make it a priority to review how the Department has 
been working to implement this important legislation and ensure that 
its mandates are met, including the phase-out of traditional 
incandescent lights over the next few years. At the same time, I 
believe that it's important for consumers to have a range of choices, 
and that's something that I will keep in mind if I am confirmed as 
Secretary and am charged with implementing this program.
    Question 2. It would seem that more output from the same amount of 
fuel input is a win-win for the environment, the consumer, and the 
success of companies that operate electric power generation facilities 
across the country. And yet, these efficiency improvements are 
consistently not undertaken. What, specifically, gets in the way of 
incremental efficiency improvements at power generation plants in the 
existing fleet? What can this Congress do to remedy such a shortcoming?
    Answer. Energy efficiency is the cheapest energy resource that we 
have. It will be a high priority for me if I am confirmed. I look 
forward to working with Congress to improve energy efficiency in 
existing power generation plants and throughout our whole economy.
    Question 3. With so much energy-savings potential in Light Emitting 
Diodes (LEDs), what will you do as Energy Secretary to promote the use 
of LEDs in the market place?
    Answer. Energy efficiency is the cheapest energy resource that we 
have. It will be a high priority for me if I am confirmed. We will 
start with the federal government, which is the world's largest single 
consumer of energy. The administration will make the federal government 
a leader in the green building market, including in the procurement of 
LED technology. By taking these and other steps, we can help restore 
federal leadership on energy efficiency and promote the use of more 
energy efficient lighting technology in the marketplace.
    Question 4. What will you do to ensure that energy-efficiency 
product standards for appliance and commercial equipment are 
promulgated in a timely manner? Does the Department require additional 
resources in order to meet its statutory deadlines and requirements?
    Answer. President-elect Obama has made strong commitments to 
improving the energy efficiency in the economy over the long term. 
Clearly one of the most important means for achieving these goals is 
through appliance efficiency standards, yet the Department of Energy 
has missed many deadlines. If confirmed, I will place a high priority 
on reviewing this program, including its budget, and ensuring that we 
keep on track in getting standards done on time.
                        research and development
    Question 1. Many of us would like to see the development of a 
robust, domestic manufacturing base for batteries and other energy 
storage devices. Do you believe it is important that the raw materials 
needed for those batteries to come from within the United States as 
well? In what ways do you think the Energy Department's existing 
research and development programs related to battery research can be 
improved?
    Answer. Electric energy storage and innovative battery technologies 
are keys to transforming the transportation sector, not only in the 
U.S., but also potentially worldwide. I believe that DOE should play a 
lead role in research and development, with the goal of restoring U.S. 
leadership in this critical technology. More broadly, the federal 
government can also play an important role by providing an early market 
for advanced batteries and plug-in hybrid vehicles. If confirmed, I 
look forward to working with you on this vital issue.
    Question 2. Since the end of the Cold War, increased operational 
costs and changing national priorities have resulted in budget 
pressures and competition between the national laboratories for 
resources and programs. As Secretary of Energy, how would you promote 
the most efficient utilization of not just the Office of Science 
laboratories, but also the weapons and energy technology laboratories, 
to meet our evolving national and energy security needs? How would you 
re-engage the historical partnership between the laboratory system and 
university and private industry?
    Answer. As director of Lawrence Berkeley National Laboratory I have 
been absolutely committed to challenging our best scientists there and 
in the private sector to work across the innovation spectrum from idea 
to application to product. If confirmed, as Secretary of Energy I will 
push all of the Department's 17 national laboratories to keep their 
eyes on the ball, to deliver solutions fast, and I will work diligently 
with members of this Committee and others in Congress to secure the 
funds these scientists need not only to pursue innovative science but 
also to support and train the graduate and post-doc students who 
represent our future prosperity and success.
    Question 3. DOE has for years, frequently in partnership with the 
private sector, completed many successful and important demonstration 
projects that have often reached commercialization. In your opinion, 
what is the most effective way to coordinate demonstrate, deploy and 
commercialize in order to optimize the results of DOE'S RD&D 
activities?
    Answer. As Director of the Lawrence Berkeley National Laboratory, I 
have challenged some of the best scientists to turn their attention to 
the energy and climate change problem and to bridge the gap between the 
mission-oriented science that the Office of Science does so well and 
the type of applied research the leads to energy innovation. I have 
also worked to partner with academia and industry. I am confident that 
these efforts are working, and I want to extend this approach to an 
even greater extent throughout DOE's network of national science 
laboratories.
    Question 4. Given current technology, it is still extremely 
expensive to produce heavy oil such as the oil which is predominantly 
remaining in Prudhoe Bay in Alaska and other established fields in the 
Lower 48. Since DOE's forecasts suggest we will remain dependent on 
fossil fuels for 79% of our energy needs in 2030, do you support 
research funding to produce more of our domestic hydrocarbon resources?
    Answer. At present, I am not well-acquainted with the oil and gas 
research and development activities at DOE. If I am confirmed, I will 
undertake a thorough review of the Department's budget, including an 
examination of these programs.
    Question 5. The Energy Department describes current geothermal 
power generation as the ``low hanging fruit'' of geothermal energy 
potential, and yet the Bush Administration proposed only $30 million 
for existing geothermal technology for Fiscal Year 2009. Despite the 
tremendous potential of traditional geothermal resources, including in 
my home state of Alaska, more federal dollars are being directed at 
developing additional geothermal electricity through the new Enhanced 
Geothermal System (EGS). As Energy Secretary how will you seek to 
allocate federal dollars between EGS technology and the expansion of 
existing geothermal resources?
    Answer. I believe that geothermal is an extremely promising 
renewable energy sources. I do not have a view about the current 
allocation between geothermal programs and technologies at DOE, but if 
I am confirmed, I will quickly undertake a thorough review of the 
Department's budget, including an examination of this issue.
    Question 6. Much of DOE'S water resources research has been done 
within the Office of Science, which focuses on basis research. Do you 
support more research as it relates to water for energy production--
especially research aimed at reducing energy consumption in the 
transportation of water?
    Answer. If confirmed, I will quickly undertake a thorough review of 
the Department's budget, including an examination of this program.
    Question 7. In Fiscal Year 2008, DOE's Waterpower Program received 
$10 million for both conventional hydropower and new marine 
technologies. As Energy Secretary, how will you allocate federal 
funding between conventional and non-conventional hydropower resources?
    Answer. I have not to date been able to examine in detail the 
Department's budget at the subprogram level. But I recognize the 
importance of efficient utilization of conventional energy resources as 
well as rapid development and application of advanced systems. If 
confirmed, I will quickly undertake a thorough review of the 
Department's budget, including an examination of this program.
    Question 8. Do you intend to support continued, or increased, 
methane hydrate research if confirmed as the Secretary of Energy?
    Answer. Methane hydrates have become a growing source of domestic 
energy in recent years. If confirmed, I will quickly undertake a 
thorough review of the Department's budget, including an examination of 
this program.
                           advanced vehicles
    Question 1. Last week, at a hearing on the energy security 
challenges facing America, several of our witnesses commented on the 
importance of electrifying the domestic vehicle fleet. Do you agree? 
What steps would you take to speed the development and deployment of 
advanced vehicles?
    Answer. Electric energy storage and innovative battery technologies 
are keys to transforming the transportation sector, not only in the 
U.S., but also potentially worldwide. I believe that DOE should play a 
lead role in research and development, with the goal of restoring U.S. 
leadership in this critical technology. More broadly, the federal 
government can also play an important role by providing an early market 
for advanced batteries and plug-in hybrid vehicles. If confirmed, I 
look forward to working with you on this vital issue.
                        renewable fuels standard
    Question 2. The Renewable Fuels Standard mandated by Congress in 
the 2007 Energy Independence and Security Act will require more ethanol 
than can be used as an El 0 blend--the fastest and most efficient way 
to increase the use of ethanol since it uses the existing 
infrastructure and existing vehicle fleet--beginning as soon as 20 1 0. 
What are your thoughts on how to best overcome this shortfall? Also, 
should Congress address the ``blendwall'' issue that caps the amount of 
biofueIs that may be blended into gasoline at 10%?
    Answer. The blendwall is an issue that we need to evaluate. As I 
understand it, the EPA is reviewing this issue, but it is something 
that I am willing to look at, if confirmed. In addition, President-
elect Obama's energy plan includes a number of policies and measures to 
help develop next generation biofuels that can be produced in all 
regions of the country, including research funding for cellulosic and 
other advanced biofuels; incentives to expand ethanol infrastructure; 
incentives to encourage the commercialization of advanced biofuels 
technologies; and a national ``low-carbon fuel standard'' to spur low-
carbon fuels. If confirmed, I will work to implement these policies, 
and will assist the President-elect in reviewing current biofuels 
policies across the board in order to ensure that we have an effective 
set of policies in place.
                            competitiveness
    Question 1. In the 110th Congress we passed the America COMPETES 
Act, which was based on a report that you contributed to. How well do 
you believe that law captures the recommendations included in the 
report? Do you plan to seek or support additional measures that would 
strengthen our nation's competitiveness?
    Answer. The America COMPETES Act reflects many of the 
recommendations in the Gathering Storm report. If confirmed, I pledge 
to work with the Administration and Congress to implement this law, and 
am open to discussing other ways in which we can strengthen the 
foundations of our long term competitiveness.
    Question 2. You have been a strong supporter of an Advanced 
Research Projects Agency for Energy. ARPA-E was authorized by America 
COMPETES, but has not yet been implemented. What is your vision for 
this agency and how you think it should be structured?
    Answer. The scope and structure of ARPA-E are broadly defined in 
both the Gathering Storm report and the America COMPETES Act. If 
confirmed, I will examine funding and structure for ARPA-E in the 
context of a review of the Department's budget. I believe that we must 
find ways to move the results of scientific research into useful 
applications for the nation.
                               budgeting
    Question 1. As we face unprecedented budgetary deficits, it is 
clear that funding for many programs will be hard to come by. With 
regard to the Department of Energy, how would your budgetary priorities 
differ from those of the current administration? Can you identify any 
areas where the government should increase investment, and any areas 
where you think it should be spending less money?
    Answer. If confirmed, I will quickly undertake a thorough review of 
the Department's budget to answer the questions that you have posed.
                              energy bill
    Question 1. Congress has passed two major energy bills in the past 
four years. As Secretary of Energy, one of your primary 
responsibilities would be to oversee the implementation of the programs 
authorized by those bills. But it is also expected that Congress will 
again consider comprehensive energy legislation in the next few months. 
What do you believe will be most important to include in that bill?
    Answer. In the broadest sense, future energy legislation should 
focus on accelerating the development and deployment of renewable 
energy and energy efficiency, as well other policies and technologies 
that increase our energy security and reduce our greenhouse gas 
emissions. If confirmed I would look forward to actively participating 
with the members of the Committee and others in Congress on a wide 
range of specific issues as you develop energy legislation. We will 
also aggressively pursue implementation of the landmark energy bills 
signed into law in 2005 and 2007.
                            doe organization
    Question 1. The former head of Resources for the Future recently 
said that, ``Contrary to what everyone thinks, there's very little the 
Department of Energy can do to affect the types of fuel the country 
uses or the amounts they use.'' Do you agree with this assessment? Do 
you intend to re-organize the Department and its agencies, or reorient 
their missions and focus?
    Answer. The work that the Department of Energy has underway to 
advance the development of alternative fuels can have a very 
significant impact on the types of fuel that Americans use. I think 
that a good example of this can be found in wind technologies. The 
research supported in DOE's laboratories and through DOE financial 
assistance transactions is critically important. At this time I do not 
have specific plans to re-organize the Department, but if after 
confirmation I determine that is in the best interests of achieving our 
energy objectives, I would look forward to discussing this matter 
further with the Committee and others in Congress.
                      doe environmental management
    It has been reported that Congress as a part of the Stimulus 
Package will provide immediate funding to EM for its weapons cleanup 
program. Estimates have ranged between $800 million to as high as $4 to 
$6 billion.
    Question 1. With this in mind, I would like to know your views on 
this approach. In implementing such a program what are your priority 
projects and where would you expend any additional funds? Are you 
following the ``shovel ready'' approach? And how many jobs would you 
estimate are created on each priority project. In what time frame will 
these jobs be ``on-line''?
    Answer. I am not familiar with the details of the EM programs. 
However, based on what I do know, I believe that the EM program could 
put new funds to work quickly, creating new jobs.
                            alaska-specific
    Question 1. An issue of tremendous importance to my home state, 
Alaska, is the 1002 Area of the Arctic National Wildlife Refuge. If 
confirmed to be Secretary of Energy, would you support the development 
of this area, its permanent designation as wilderness, or leaving its 
status as it is today?
    Answer. President-elect Obama supports increased domestic 
production in many places, but has gone on record as being opposed to 
drilling in ANWR. As you know, we have more than 68 million acres of 
offshore areas that are already under lease, and several years ago, 
Congress opened new areas in the Gulf of Mexico. President-elect Obama 
has said that he is open to a limited expansion of OCS drilling as part 
of a comprehensive energy proposal that includes plans to dramatically 
speed up the development of renewable energy and invest in efficiency 
and other clean energy sources. If confirmed, I pledge to work with 
Congress and other members of the Administration to enact comprehensive 
energy legislation along these lines.
    Question 2. My home state of Alaska currently produces a great deal 
of energy. In 2001, DOE capitalized on the existence of large fossil 
fuel reserves in Alaska by creating a National Energy Technology Lab 
site there, which works in cooperation with the University of Alaska, 
the energy industry and state agencies. It is clear that additional 
opportunities exist in terms of Alaskan renewable energy production and 
our unique perspective on solving some of the problems associated with 
climate change. If confirmed, would you consider an expansion of the 
Arctic Energy Office's mission to allow for the advancement of a 
greater variety of energy resources in Alaska?
    Answer. I enjoyed our discussion about the potential for far 
greater utilization of wind, geothermal, wave and other renewable 
energy resources to provide power to remote areas in Alaska. With 
respect to the Arctic Energy Office's mission, I am not sufficiently 
familiar with the issue to make a specific commitment at this time. 
However, if I am confirmed I will be glad to look examine this issue in 
more detail and discuss it with you.
       Responses of Steven Chu to Questions From Senator Stabenow
    Question 1. I understand that DOE has struggled to implement loan 
guarantees in the past Administration, however it has started to 
implement direct loans for section 136 and the manufacturing of 
advanced autos. Similarly to section 136, I recently introduced 
legislation (S. 224) entitled The Green Jobs and Infrastructure Act of 
2009 to address rising unemployment to try to retool our nation's 
economy towards a cleaner, greener future. Our bill would, among other 
things, call for the establishment a $50 billion loan program to help 
manufacturing plants retool and encourage the investment in 
manufacturing for clean tech products. Our estimates are that this 
program would create 250,000 direct manufacturing jobs in the U.S. and 
support an additional 725,000 indirect jobs. Do you think we can mimic 
this structure and policy of direct loans to help aid domestic 
manufactures to produce various clean tech products?
    Answer. If confirmed, the development of clean energy technologies 
will be one of my highest priorities. I believe that we need a range of 
approaches to stimulate research, development and deployment of clean 
energy technologies. I am not familiar with the legislation that you 
cite, but if confirmed, I look forward to discussing this and other 
ideas about how best to encourage investment in domestic manufacturing 
of clean energy technology.
    Question 2. I understand that DOE is currently reviewing 
applications for direct loans under section 136 for the production of 
advanced technology vehicles. While the Big 3 automakers are 
applicants, there are also numerous smaller suppliers who are leading 
the way in advanced technologies. These technologies will create the 
next generation of vehicles and green jobs. How will DOE dedicate 
resources to fully implement this program in order to expedite the next 
generation of vehicles made in the U.S.?
    Answer. While I have not been briefed in detail on the current 
status of applications, it is my general understanding that the section 
136 provision is intended to provide opportunities for a range of 
advanced automotive technology companies. If confirmed it will be a top 
priority of mine to ensure that the funds appropriated by Congress for 
DOE's auto loan guarantee program will be spent in the fashion intended 
and that the program is well managed. I recognize your strong interest 
in this program and I look forward to working together on it should I 
be confirmed.
    Question 3. How ambitious should the federal government be in the 
electrification of our nation's transportation sector? What role will 
the Department of Energy play in achieving commercial scale vehicle 
electrification, and how will it help ensure that the technologies 
necessary are developed and produced in the United States?
    Answer. Electric energy storage and innovative battery technologies 
are keys to transforming the transportation sector, not only in the 
U.S., but potentially worldwide. I believe that DOE should play a lead 
role in research and development, with the goal of restoring U.S. 
leadership in this critical technology. More broadly, the federal 
government can also play an important role by providing an early market 
for advanced batteries and plug-in hybrid vehicles, and by providing 
incentives for domestic manufacturing. If confirmed, I look forward to 
working with you on this vital issue.
    Question 4. Given our country's need for increasing renewable 
energy generation to meet our national policy goals of CO<INF>2</INF> 
emissions reductions and becoming more energy independent, I would like 
to know your thoughts on supporting an increase in grant funding for 
non-profit, governmental utilities to develop renewable energy 
technologies and projects, especially for energy efficiency, biomass, 
solar, and geothermal generation projects?
    Answer. As you suggest, we must step on the accelerator on 
renewable energy research, development, and deployment. That includes 
things like solar, wind, hydrogen, and biomass. DOE has a major role to 
play, and non-profit governmental utilities can play an important role 
as well. If confirmed, I would certainly work with you to explore ways 
to encourage and incentivize greater renewable energy generation in 
this sector.
    Question 5. Some commentators have cautioned that we can't afford 
to aggressively address greenhouse gas reductions because there may be 
too much potential harm to the economy. Can you speak to the economic 
consequences of failing to address greenhouse gases? What are the 
economic opportunities, particularly in the manufacturing sector, 
within climate change policy?
    Answer. President-elect Obama recognizes that the cost of failure 
to act on climate change will be large, and could be catastrophic. He 
also understands that many of the actions we can take to reduce our 
dependence on foreign oil and reduce greenhouse gas emissions will also 
create jobs. By promoting efficient use of our resources and embracing 
American ingenuity, President-elect Obama will get America back to work 
and make a down-payment on addressing climate change at the same time. 
In addition, President-elect Obama plans to make investments in energy 
efficiency, as well as research, development and deployment of low-
carbon energy sources. Restoring leadership in clean energy technology 
holds great promise for revitalizing domestic manufacturing, which has 
been devastated in recent years. So while we need to ensure that we 
develop an equitable and effective climate strategy, I strongly believe 
that addressing the problem also presents an opportunity to retool 
American industry and manufacturing and establish a strong base for 
future economic prosperity.
    Question 6. I am very pleased with your understanding of both basic 
and applied research. The DOE Office of Science plays a crucial role in 
the competitiveness of this nation and I urge you to continue to 
support the Office of Science at the highest level possible. I say this 
not only because the new Facility for Rae Isotope Beams (FRIB) has been 
awarded to Michigan State, but because 1 truly believe that the future 
economy of both my state and the Nation will be dependent upon the 
scientific breakthroughs created through fundamental research and I 
look forward to working with you in support of a robust Office of 
Science budgets. Can you tell me how you intend to balance the 
Department's science programs and implement the planning and 
construction of the FRIB?
    Answer. As director of the Lawrence Berkeley National Laboratory I 
have challenged some of the best scientists there to address our 
Nation's energy and climate change problems by bridging the gap between 
the mission-oriented science that the Office of Science does so well 
and the applied research that leads to energy innovation and economic 
vitality. Michigan State University is to be commended for its 
successful proposal for the Facility for Rare Isotopes Beams. If 
confirmed, I will work with you and other members of Congress to 
strengthen the Office of Science as a whole, and to keep this important 
project moving forward.
    Question 7. As you may remember, this chamber and the House passed 
legislation that the President signed into law entitled the America 
COMPETES Act to help sustain innovation and promote science and 
engineering. One of the provisions contained in this legislation was an 
authorization for the establishment of a high risk/high reward program 
entitled ARPA-E for energy breakthrough research, and inspired by the 
highly successful DARPA in the Department of Defense. Can you elaborate 
on your vision for ARPA-E and how there may be cooperation/coordination 
with other offices such as Science and Energy Efficiency and Renewable 
Energy at the DOE?
    Answer. The scope and structure of ARPA-E are broadly defined in 
both the Gathering Storm report and the America COMPETES Act. If 
confirmed, I will examine funding for ARPA-E in the context of a review 
of the Department's budget. I am also open to looking at other ways to 
provide an environment for the kind of high-risk, high-reward research 
program envisioned in the ARPA-E concept.
    Question 8. One of the most important and complex issues that we 
will be wrestling with relates to our electricity grid. While we have 
much discussion on Smart Grids and investments in ``modernizing the 
grid'' equally important is a discussion related to the transmission of 
renewable energy. While I how this is a complex question and there are 
many stakeholders, I am interested in learning more about your 
perspective. A comment was attributed to you stating that you supported 
the development of a truly ``interstate electric transmission system.'' 
My understanding from a Wall Street Journal report is that you raised 
such an idea with Secretary Bodman and Secretary Paulson. Could you 
elaborate on this and tell us what policy steps, if any, would be 
needed to achieve such a system?
    Answer. Our transmission and distribution system is aging and in 
need of investment and modernization. President-elect Obama has put 
forward a vision to stimulate major investment in our national utility 
grid, including smart metering, distributed storage and other advanced 
technologies to accommodate 21st century energy requirement. Done 
right, upgrading the grid will create jobs and result in greatly 
improved electric grid reliability and security, increased renewable 
generation and greater customer choice and energy affordability. If 
confirmed, I look forward to thoroughly reviewing all of DOE's efforts 
in this area and working with you on this important issue.

                                    

      
</pre></body></html>
